APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
————
No. 19-1212
————
CHRISTINA STEGEMANN,
Appellant,
and
JEFFREY QUATRONE,
on Behalf of Gannett Co., Inc. 401(k) Savings Plan
and all others similarly situated,
Plaintiff-Appellant,
v.
GANNETT COMPANY, INC.;
THE GANNETT BENEFIT PLANS COMMITTEE,
Defendants-Appellees,
and
JOHN AND JANE DOES 1-10,
Defendants.
————
Appeal from the United States District Court
for the Eastern District of Virginia, at Alexandria.
Anthony John Trenga, District Judge.
(1:18-cv-00325-AJT-JFA)
————
Argued: May 26, 2020
Decided: August 11, 2020

2a
————
Before NIEMEYER, WYNN, and FLOYD,
Circuit Judges.
————
OPINION
————
Vacated and remanded by published opinion. Judge
Wynn wrote the majority opinion, in which Judge
Floyd joined. Judge Niemeyer wrote a dissenting
opinion.
WYNN, Circuit Judge:
Plaintiffs-Appellants Christina Stegemann and
Jeffrey Quatrone, participants in the Gannett Co., Inc.
401(k) Savings Plan (the “Plan”), brought this suit on
behalf of themselves and other participants in the Plan
against the Plan’s sponsor, Defendant Gannett
Company, Inc., and the Plan’s management committee, Defendant Gannett Benefit Plans Committee
(the “Committee”). Plaintiffs allege that Defendants
breached their fiduciary duties of prudence and
diversification under the Employee Retirement
Income Security Act (“ERISA”), 29 U.S.C. § 1001 et
seq. See 29 U.S.C. § 1104(a)(1). Specifically, Plaintiffs
contend that Defendants ignored an imprudent singlestock fund in the Plan for several years, resulting in
millions of dollars in losses.
The district court dismissed Plaintiffs’ complaint for
failure to state a claim. The court concluded that
Defendants could not have known that the single-stock
fund was imprudent, nor were they obligated to
diversify it absent any notice it was imprudent.
But to state a claim, a plaintiff need only “plausibly
allege that a fiduciary breached [a duty], causing a loss

3a
to the employee benefit plan.” Schweitzer v. Inv.
Comm. of the Phillips 66 Sav. Plan, 960 F.3d 190, 195
(5th Cir. 2020). Put simply, Plaintiffs did just that—
they set out facts describing how Defendants failed to
monitor a fund, which led to a failure to recognize and
remedy a defect, which then led to a loss to the Plan.
Accordingly, we vacate the judgment of the district
court and remand for further proceedings.
I.
A.
“ERISA, a ‘comprehensive and reticulated statute,’
governs employee benefit plans, including retirement
plans.” DiFelice v. U.S. Airways, Inc., 497 F.3d 410,
417 (4th Cir. 2007) (quoting Mertens v. Hewitt Assocs.,
508 U.S. 248, 251, 113 S.Ct. 2063, 124 L.Ed.2d 161
(1993)). “It is intended to ‘promote the interests of
employees and their beneficiaries in employee benefit
plans.’ ” Id. (quoting Shaw v. Delta Air Lines, Inc., 463
U.S. 85, 90, 103 S.Ct. 2890, 77 L.Ed.2d 490 (1983)).
Relevant to this appeal, ERISA draws on the
common law of trusts and assigns plan fiduciaries “a
number of detailed duties and responsibilities, which
include the proper management, administration, and
investment of plan assets.” Mertens, 508 U.S. at 251,
113 S.Ct. 2063 (internal quotation marks and alterations omitted). Courts have often called these fiduciary
duties the “highest known to the law.” Schweitzer, 960
F.3d at 194 (quoting Tatum v. RJR Pension Inv.
Comm., 761 F.3d 346, 356 (4th Cir. 2014)); see also,
e.g., Donovan v. Bierwirth, 680 F.2d 263, 272 n.8 (2d
Cir. 1982) (same).

4a
In broad terms, Plaintiffs here allege that Defendants are such fiduciaries1 and that they breached their
duties of prudence and diversification, both of which
we describe in more detail later in this opinion. See 29
U.S.C. § 1104(a)(1).
B.
In June 2015, the publicly traded media company
Gannett Co., Inc.—a different Gannett Co., Inc. than
is the Defendant in this case—changed its name to
TEGNA, Inc. (hereinafter either “Old Gannett” or
“TEGNA”). Simultaneously, it spun off its publishing
business into a newly created, independently traded
company, which inherited the name Gannett Co., Inc.2
This new, spun-off Gannett Co., Inc. is the selfsame
Defendant in this case (hereinafter “New Gannett”).
Before the spin-off, Old Gannett sponsored a 401(k)
retirement plan for its employees. Under ERISA, this

1 An ERISA fiduciary is only “a fiduciary with respect to a plan
to the extent . . . he exercises any discretionary authority or
discretionary control respecting management of such plan or
exercises any authority or control respecting management or
disposition of its assets . . . [or] has any discretionary authority or
discretionary responsibility in the administration of such plan.”
29 U.S.C. § 1002(21)(A). Plaintiffs allege that both the Gannett
Benefit Plans Committee and the Gannett Company, Inc. are
such fiduciaries for the purposes of this lawsuit. Although
Defendants do not contest that the Committee is a plan fiduciary,
Defendants argue that Plaintiffs have not properly alleged
Gannett Company, Inc.’s fiduciary status. Because the district
court did not rule on this question in the first instance, we assume
without deciding that both Defendants are fiduciaries and direct
the district court to address this issue on remand. See J.A. 51 n.2.
2 A “spin-off” is “[a] corporate divestiture in which a division of
a corporation becomes an independent company and stock of the
new company is distributed to the corporation’s shareholders.”
Spin-Off, Black’s Law Dictionary (11th ed. 2019).

5a
plan was a “defined contribution plan” or an “individual account plan”—these terms are synonymous. See
29 U.SC. § 1002(34). Such a plan is structured so that
each employee-participant “has an individual account
and benefits are based on the amounts contributed to
that participant’s account.” Schweitzer, 960 F.3d at
193. “Plan participants decide how much to contribute
to their accounts and how to allocate their assets
among an array of investment options selected by
[plan fiduciaries].” Id. This array of investment
options is often called a plan’s “menu.” In addition to
contributions from an employee-participant, individual accounts can also be funded via contributions
from an employer, and exact arrangements vary. See
Edward A. Zelinsky, The Defined Contribution
Paradigm, 114 Yale L.J. 451, 455-57 (2004).3
During the Old Gannett period, although participants were generally able to direct which items on the

3 For further context, in addition to defined contribution plans,
ERISA provides for defined benefit plans. In a defined benefit
plan, a fiduciary makes all investment and allocation decisions
for plan assets (whereas a participant in a defined contribution
plan may control allocations within the limited universe of the
plan menu selected by the fiduciaries). See Schweitzer, 960 F.3d
at 193 & n.1. Although the defined contribution scheme allocates
some power to participants, a fiduciary’s menu construction is
still important because poor menu construction “leads to
predictably worse outcomes for investors.” Ian Ayres & Quinn
Curtis, Beyond Diversification: The Pervasive Problem of
Excessive Fees and “Dominated Funds” in 401(k) Plans, 124 Yale
L. J. 1476, 1507 (2015). A defined contribution plan’s distribution
of decision-making power can impact a fiduciary’s liability for
investments. See 29 U.S.C. § 1104(c)(1). Accordingly, it is
important to note what kind of plan is at issue in any given case.
See LaRue v. DeWolff, Boberg & Assocs., Inc., 552 U.S. 248, 25556, 128 S.Ct. 1020, 169 L.Ed.2d 847 (2008) (distinguishing
defined contribution plans from defined benefit plans).

6a
menu they would invest in, Old Gannett’s contributions to employees’ accounts were in the form of
employer stock. Oral Argument at 2:30-3:00. Thus,
immediately prior to the spin-off, there were employees set to transfer over to the spun-off company who
had individual accounts that included investments in
Old Gannett stock.
When Old Gannett effectuated the spin-off and
became TEGNA, Old Gannett’s then-existing plan
became the operative plan for the employees of the
spun-off New Gannett, including those employees who
transferred from Old Gannett to New Gannett.
Employees staying with TEGNA, and their liabilities
and account balances, transferred to a new TEGNA
401(k) plan.
It goes without saying that, post-spin-off, New
Gannett employees were not employees of TEGNA.
Furthermore, there was no reason going forward for
New Gannett to make contributions to its employees’
accounts in the form of TEGNA stock. Although
historically connected, TEGNA and New Gannett were
now two different publicly traded companies. However, because Old Gannett had made Old Gannett
stock contributions for employees who now worked for
New Gannett, the New Gannett Plan had a significant
investment in Old Gannett’s successor, TEGNA.
ERISA plans are governed in accordance with
certain documents and instruments. See 29 U.S.C.
§ 1104(a)(1)(D). In this case, during the spin-off
process, the governing document for the Old Gannett
plan that New Gannett inherited was restated and
amended to provide for the new TEGNA stock. See
Dist. Ct. ECF 22-1, Exhibit A (hereinafter “New
Gannett Plan Document”).

7a
The amendments created a “TEGNA Stock Fund” on
the Plan’s investment menu to hold, exclusively,
TEGNA stock—such a fund is commonly called a
“single-stock fund.” See New Gannett Plan Document
§§ 1.29, 6.7. However, the fund was “frozen,” meaning
that it started with the TEGNA stock in the Plan at
the time of the spin-off, but participants would not be
able to increase investment in the fund thereafter, and
would only be able to shift investments out of the fund
and into other options on the Plan’s menu. Id. §§ 6.7,
Appendix C(r). In fewer words, money could only
travel one way: out of the fund. The New Gannett Plan
Document explained this arrangement as being due to
“the historical relationship between [New Gannett]
and TEGNA.” Id. § 6.7.
Roughly contemporaneous with the amendments
that created and froze the TEGNA Stock Fund, New
Gannett and TEGNA entered into an “Employee
Matters Agreement.” J.A. 77.4 While the New Gannett
Plan Document set out that the TEGNA Stock Fund
would be frozen, the Employee Matters Agreement
allegedly stated that “all outstanding investments in
[the TEGNA Stock Fund] shall be liquidated and
reinvested in other investment funds offered [in the
Plan] on such dates and in accordance with such
procedures as are determined by the administrator of
the [Plan].” J.A. 80.
Although the Employee Matters Agreement was not
itself a governing plan document, the New Gannett
Plan Document explicitly provided for the Employee
Matters Agreement: “In connection with the Spin-off,
[New Gannett] will enter into that certain Employee
Matters Agreement with [TEGNA].” New Gannett
4 Citations to “J.A. __” refer to the Joint Appendix filed by the
parties in this appeal.

8a
Plan Document at 1. The New Gannett Plan Document
further stated that that “[t]he Employee Matters
Agreement may be used as an aid in interpreting the
terms of the [spin-off] transitions described above.” Id.
At the time of the spin-off in June 2015, the New
Gannett Plan allegedly “held $269 million invested in
TEGNA common stock, representing more than 21.7%
of the Plan’s total assets.” J.A. 82. At the end of 2015,
the Plan still held $178 million in TEGNA common
stock (the price of which had fallen 19.3%, accounting
for some of the decline). Then at the end of 2016, the
Plan held over $115 million in TEGNA common stock.
During that year, the share price had decreased a
further 16%. Meanwhile, for two years after the spinoff, Defendants maintained the frozen holding pattern
for the TEGNA Stock Fund before deciding in June
2017 to liquidate it over a twelve-month period
beginning in July 2017. Nevertheless, as of August
2018 (the date of Plaintiff’s proposed Amended
Complaint), the TEGNA Stock Fund had still not been
fully liquidated.
Plaintiffs allege that between the time of the spin-off
and the decision to liquidate the TEGNA Stock Fund,
Defendant Gannett Benefit Plans Committee repeatedly received risk warnings related to holding large
quantities of TEGNA stock. As early as August 2015,
one member of the Committee received a letter from
an investment firm alerting him that “the Plan had a
‘significant holding’ in TEGNA stock that was
‘problematic.’” J.A. 82. And in 2015 and 2016 financial
statements, auditors for the Plan reported that the
TEGNA and New Gannett holdings “expose[d] the
Plan to concentration risk.” J.A. 85, 93. In mid-2016, a
Committee member prepared a draft presentation and
sent it to another Committee member, as well as New

9a
Gannett’s CFO and General Counsel; this presentation recommended “evaluat[ing] a sunsetting process
for eliminating the TEGNA Company Stock Fund.”
J.A. 85. For the rest of 2016, however, although the
Committee reviewed other investment decisions with
respect to the Plan’s mutual funds, “the Committee did
not consider liquidating the TEGNA Stock Fund.” J.A.
85.
According to Plaintiffs, the problem with the
TEGNA Stock Fund was that, as a single-stock fund,
it was inherently unduly risky because it put all the
eggs in one basket, thus violating the diversification
principle of sound investment. This Court has
previously noted the dangers of single-stock funds.
See, e.g., DiFelice, 497 F.3d at 424 (“[P]lacing
retirement funds in any single-stock fund carries
significant risk . . . .”). Plaintiffs further contend that
maintaining the TEGNA Stock Fund was doubly
problematic because the Plan also had another singlestock fund devoted to New Gannett stock, and the
performances of the TEGNA stock and the New
Gannett stock were correlated, thus exacerbating the
concentration issues. Despite the known issues with
single-stock funds, however, the Committee allegedly
accepted qualitatively less thorough reports from its
investment consultant on the TEGNA Stock Fund, as
compared to the reports provided by the same
consultant on the other funds on the Plan’s menu.
Ultimately, the Committee took no steps to address
liquidating the TEGNA Stock Fund until April 2017,
when the Committee delegated investigating a sunset
process to a newly formed subcommittee. On July 31,
2017, the Committee notified the Plan’s participants
that the TEGNA Stock Fund would be liquidated
within a 12-month sunset period.

10a
During the Committee’s period of inaction, TEGNA
stock prices fell. Plaintiffs calculate that the failure to
promptly liquidate TEGNA stocks during the first half
of 2016 cost the Plan between $43 million and $57
million, depending on how the funds might have been
otherwise invested.
In March 2018, named plaintiff Jeffrey Quatrone
filed a putative class action suit on behalf of the Plan
against Defendants Gannett Co., Inc. and the Gannett
Benefit Plans Committee.5 Quatrone faulted Defendants for failing to respond to the warnings about the
TEGNA Stock Fund. In Quatrone’s view, Defendants
ought to have been on notice the TEGNA Stock Fund
should be divested due to the Employee Matters
Agreement and should have discussed divestment as
early as the spin-off. At minimum, though, Quatrone
alleged that Defendants ought to have assessed
whether the fund remained a prudent investment
prior to April 2017, and that if Defendants had taken
up the matter of the TEGNA Stock Fund, they would
have recognized it was an imprudent, undiversified
fund and would have been obligated to take immediate
steps to sunset it. More precisely, the operative
Complaint alleges that the Plan’s fiduciaries should
have made the liquidation decision and informed
participants of liquidation by January 1, 2016, and the
liquidation should have been completed six months
later. This series of failures allegedly constituted

5 Plaintiff Quatrone’s Complaint included John/Jane Doe
Defendants representing individual members of the Gannett
Benefit Plans Committee and any other possible individual
fiduciaries of the plan, but Plaintiffs have since dropped their
claims against the John/Jane Doe Defendants.

11a
breaches of Defendants’ fiduciary duties of prudence
and diversification.6
The district court dismissed the complaint under
Fed. R. Civ. P. 12(b)(6). The district court’s two key
holdings were that (1) Plaintiffs’ duty-of-prudence
claims were barred under Fifth Third Bancorp v.
Dudenhoeffer, 573 U.S. 409, 134 S. Ct. 2459, 2471, 189
L.Ed.2d 457 (2014), which raised the bar for pleading
a breach of the duty of prudence related to the
retention of publicly traded stock by requiring a
plaintiff to allege “special circumstances” related to
mistakes in market valuation not alleged here, and (2)
the duty to diversify requires diversity among the full
set of funds offered in the menu of plan offerings but
does not compel every individual fund in a plan to be
diversified.
Plaintiffs sought leave to amend the complaint. The
proposed amendments added allegations based on
some discovery and sought to substitute named
Plaintiffs but did not alter the fundamental claims.
The district court denied amendment as futile because
the amended complaint “fail[ed] to address the
deficiencies of the original complaint.” J.A. 71.
Specifically, the district court determined that the
amended complaint still did not allege “special
circumstances” and its diversification theory was still
that the fiduciaries should have compelled participants to have diverse portfolios by forcing them out of
an undiversified fund (i.e., divesting the TEGNA
stock). J.A. 70-71.

6 The complaint also alleged that Defendants breached the duty
of loyalty, 29 U.S.C. § 1104(a)(1)(A), but the district court did not
address whether the complaint plausibly pleaded such a breach,
and Plaintiffs have not raised the duty of loyalty on appeal.

12a
Accordingly, on appeal we consider whether and how
a participant in a defined contribution plan can allege
a breach of the ERISA fiduciary duties of either
prudence or diversification on the basis of a plan
fiduciary’s non-divestment of an allegedly imprudent
frozen single-stock fund.
II.
Where a district court denies a motion for leave to
amend a complaint on grounds of futility, this Court
employs the same standard that would apply in a
review of a motion to dismiss. United States ex rel.
Ahumada v. NISH, 756 F.3d 268, 274 (4th Cir. 2014).
Therefore, this Court reviews de novo the district
court’s legal conclusion that the complaint failed to
state a claim on which relief could be granted. Id. A
complaint must contain “sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Paradise Wire & Cable Defined
Benefit Pension Plan v. Weil, 918 F.3d 312, 317 (4th
Cir. 2019) (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678,
129 S.Ct. 1937, 173 L.Ed.2d 868 (2009)).
III.
To state a claim for a breach of an ERISA fiduciary
duty, “a plaintiff must plausibly allege that a fiduciary
breached [a duty], causing a loss to the employee
benefit plan.” Schweitzer, 960 F.3d at 195; see also
Braden v. Wal-Mart Stores, Inc., 588 F.3d 585, 594 (8th
Cir. 2009) (“[A] plaintiff must make a prima facie
showing that the defendant acted as a fiduciary,
breached its fiduciary duties, and thereby caused a
loss to the Plan.” (citing Pegram v. Herdrich, 530 U.S.
211, 225-26, 120 S.Ct. 2143, 147 L.Ed.2d 164 (2000))).
Here, Plaintiffs’ claims turn on alleged breaches of
the duty of prudence, 29 U.S.C. § 1104(a)(1)(B), and
the duty to diversify, id. § 1104(a)(1)(C). The duty of

13a
prudence requires a fiduciary to discharge their duties
with respect to the plan “with the care, skill, prudence,
and diligence under the circumstances then prevailing
that a prudent man acting in a like capacity and
familiar with such matters would use in the conduct of
an enterprise of a like character and with like aims.”
Id. § 1104(a)(1)(B). This means that a fiduciary must
“give[ ] appropriate consideration to those facts and
circumstances that, given the scope of such fiduciary’s
investment duties, the fiduciary knows or should
know are relevant to the particular investment or
investment course of action involved.” 29 C.F.R.
§ 2550.404a-1(b)(1)(i). The duty to diversify requires a
fiduciary to “diversify[ ] the investments of the plan so
as to minimize the risk of large losses, unless under
the circumstances it is clearly prudent not to do so.” 29
U.S.C. § 1104(a)(1)(C).
Of those two duties, Plaintiffs focus on the duty of
prudence because, although ERISA has a statutory
duty to diversify in § 1104(a)(1)(C), the § 1104(a)(1)(B)
duty of prudence has an included duty to diversify as
well.7 See Armstrong v. LaSalle Bank Nat’l Ass’n, 446
7 Between § 1104(a)(1)(B) and § 1104(a)(1)(C), ERISA has a
somewhat circular structure. Prudence includes diversification,
and diversification references prudence. Accordingly, while
classifying a claim that an investment decision was imprudent for
want of diversification as either a prudence claim or a diversification claim is analytically useful, each duty implicates the other.
Although the dissent argues our analysis inappropriately merges
these duties, post at 484-85, other courts have acknowledged that
the duties overlap. See Lanfear v. Home Depot, Inc., 679 F.3d
1267, 1278 (11th Cir. 2012) (“[T]he duty of prudence the statute
imposes requires diversification of investments to lower risk.”)
abrogated on other grounds by Dudenhoeffer, 573 U.S. 409, 134 S.
Ct. 2459, 189 L.Ed.2d 457); Peabody v. Davis, 636 F.3d 368, 374
(7th Cir. 2011) (discussing judicial efforts to “reconcile[ ]” the two
duties when prudence applies but diversification, by statute, does
not); Steinman v. Hicks, 352 F.3d 1101, 1106 (7th Cir. 2003)

14a
F.3d 728, 732 (7th Cir. 2006) (“The duty to diversify is
an essential element of the ordinary trustee’s duty of
prudence . . . .”). Relevant to this case, the duty of
prudence also includes a duty to monitor investments
and remove imprudent investments. Tibble v. Edison
Int’l, 575 U.S. 523, 135 S. Ct. 1823, 1828, 191 L.Ed.2d
795 (2015).
Plaintiffs’ claims are simple: the TEGNA Stock Fund
was an imprudent investment, Defendants failed to
monitor the TEGNA Stock Fund, and their failure to
monitor the imprudent investment led to a failure to
remove it, thereby causing a loss to the Plan. However,
this case is not simple. Defendants argue that
Dudenhoeffer requires a plaintiff to additionally plead
“special circumstances” in order to state a claim that
an investment was imprudent for want of diversification. See 134 S. Ct. at 2471. Defendants also contend
that, because the Plan was of the defined contribution
type, individual participants could choose how to
allocate their own funds, thereby absolving fiduciaries
of any responsibility for not divesting imprudent funds
that are frozen to new investments. Addressing a case
with near-identical facts and claims earlier this year,
the Fifth Circuit rejected the first argument
(Dudenhoeffer), but accepted the second argument
(participant-choice). Schweitzer, 960 F.3d at 197-99.
We agree with the Fifth Circuit as to Dudenhoeffer but
disagree as to the effect of participant choice on a
fiduciary’s duties with respect to a defined contribution plan.
Accordingly, we conclude that Plaintiffs have stated
a claim, and we reject Defendants’ arguments that
(Posner, J.) (noting that the duty of prudence can become a duty
to diversify and bring diversification “in . . . by the back door,”
and collecting cases).

15a
various considerations apply to bar Plaintiffs’ claim at
the motion to dismiss stage of litigation.
A.
Our analysis begins with the duty of prudence.
ERISA’s duty of prudence draws from the common law
of trusts and has several sub-duties. Relevant to this
case are the included duties of investigation, monitoring, and diversification.
We start with the duty to investigate. “Although not
set out verbatim in the statute, a generally recognized
duty of a [p]lan fiduciary under [§ 1104(a)(1)(B)] includes that of investigating and reviewing investment
options for an ERISA plan’s assets.” Plasterers’ Local
Union No. 96 Pension Plan v. Pepper, 663 F.3d 210,
216 (4th Cir. 2011). To enforce this duty, “the court
focuses not only on the merits of [a] transaction, but
also on the thoroughness of the investigation into the
merits of [that] transaction.” DiFelice, 497 F.3d at 418
(quoting Howard v. Shay, 100 F.3d 1484, 1488 (9th
Cir. 1996)). Put another way, where a plaintiff alleges
an imprudent investment decision, “courts measure
[the] ‘prudence’ requirement . . . [by] focusing on a
fiduciary’s conduct in arriving at an investment
decision, not on its results, and asking whether a
fiduciary employed the appropriate methods to
investigate and determine the merits of a particular
investment.” In re Unisys Sav. Plan Litig., 74 F.3d 420,
434 (3d Cir. 1996); see also id. (collecting cases).
We next turn to the duty to monitor, which is an
extension of the duty to investigate. Once fiduciaries
have made the initial investigation and added an
investment to a plan, there is a “continuing duty to
monitor” that investment. Tibble, 135 S. Ct. at 1828;
see also DiFelice, 497 F.3d at 423. If monitoring reveals
that the investment is imprudent, a fiduciary must

16a
remove the investment. Tibble, 135 S. Ct. at 1828.
What counts as an imprudent investment that must be
removed depends on the circumstances. In Tibble, the
fiduciaries offered high-fee, retail-class mutual funds
on a defined contribution plan menu when identical
lower-fee, institutional-class mutual funds were
available. Id. at 1826. Because the retail-class funds
were more expensive to participants, the participants
alleged that they were imprudent. Id. In this case,
Plaintiffs allege that the TEGNA Stock Fund was
imprudent because it was a single-stock fund with
high concentration risk. This brings us to the duty to
diversify.
Much ink has been spilled on the prudence of
investing in single-stock funds such as the TEGNA
Stock Fund. Prudence entails appropriate caution, but
all investments involve some degree of risk.
Restatement (Third) of Trusts § 90 cmt. e(1). In a
“diversified” portfolio, that is, one which contains a
variety of investments, “the risks of the various
components of such a portfolio tend to cancel out; that
is the meaning and objective of diversification.”
Summers v. State St. Bank & Tr. Co., 453 F.3d 404,
409 (7th Cir. 2006). Accordingly, ERISA fiduciaries
“have a duty of diversification as part of their overall
duty of prudence.” Id. Because single-stock funds are,
by definition, not diversified, this Court has observed
that they “would seem generally imprudent for ERISA
purposes.” DiFelice, 497 F.3d at 424 (emphasis
omitted). Indeed, diversification is so important that,
in addition to the duty of diversification imposed by
the duty of prudence, ERISA also codifies a
freestanding duty of diversification, 29 U.S.C.
§ 1104(a)(1)(C), addressed below in Section III.B.
Because single-stock funds are often disfavored, we
pause to address the origin of the TEGNA Stock Fund,

17a
which relates back to pre-spin-off Old Gannett stock.
Despite the risks, Congress has sanctioned one particular kind of single-stock investment, the Employee
Stock Ownership Plan (“ESOP”). Dudenhoeffer, 134 S.
Ct. at 2465-66. ESOPs exist to primarily invest in
employer stock and are permissible because ERISA
provides that acquiring or holding employer stock does
not violate a fiduciary’s duties of diversification or
prudence (to the extent prudence requires diversification). 29 U.S.C. § 1104(a)(2). As employer stock, Old
Gannett stock in the Old Gannett plan pre-spin-off
would have been subject to less scrutiny than the stock
of another company.
But post-spin-off is a different situation. We are
aware of only one court of appeals that has addressed
whether, post-spin-off, the TEGNA stock in the New
Gannett Plan might also be employer stock and
exempt from prudence and diversification requirements—and that court held such stock is not employer
stock post-spin-off. Schweitzer, 960 F.3d at 195.
Because of that persuasive authority, because the New
Gannett Plan Document stated that “stock of TEGNA
Inc. will not constitute Employer Stock” after the spinoff, and because Defendants have not argued the
TEGNA stock qualified for employer stock treatment,
we assume that it did not. New Gannett Plan
Document § 1.22. Accordingly, Plaintiffs contend that
Defendants’ duty to monitor and remove the TEGNA
Stock Fund was triggered at the time of the spin-off.
Cf. Restatement (Third) of Trusts § 92 (“The trustee
has a duty, within a reasonable time after the creation
of the trust, to review the contents of the trust estate
and to make and implement decisions concerning

18a
the retention and disposition of original investments . . . .”).8
Following the foregoing principles, Plaintiffs allege
that Defendants breached their duty of prudence
because they did not monitor and remove the allegedly
imprudent TEGNA Stock Fund. Plaintiffs’ claims of
failure to monitor stem from the allegations that two
years elapsed where Defendants did not address the
TEGNA Stock Fund, even though: (1) Defendants
could have been on notice that the TEGNA Stock Fund
was problematic because of the Employee Matters
Agreement that called for liquidation; (2) Defendants
received risk warnings from auditors; and (3) the
TEGNA stock came into the plan under unique
circumstances. Plaintiffs’ allegations that the fund
was imprudent are based on its non-diversification (a
problem which the Plan’s other single-stock fund,
which held New Gannett stock, exacerbated).
Plaintiffs claim that had the Defendants monitored
and removed the imprudent investment, the Plan and
its participants would be better off now to the tune of
tens of millions of dollars. We find these allegations
sufficient to state a claim for a breach of the duty of
prudence.

8 As to what a “reasonable time” would be in this case, the
Restatement explains that “[n]o positive rule can be stated with
respect to what constitutes a reasonable time.” Restatement
(Third) of Trusts § 92 cmt. b. Prudent timing of the disposition of
improper inception assets depends on many factors. Id. Here,
Plaintiffs have alleged nearly two years elapsed after the spin-off
before the Committee created a subcommittee to investigate
sunsetting the TEGNA Stock Fund. A two-year delay is plausibly
unreasonable, especially given that the single-stock TEGNA
Stock Fund did not become any more or less diversified in that
time.

19a
Our analysis, however, cannot end there. Defendants raise several unsuccessful arguments as to why
the facts of this case call for the application of different
rules than the ones discussed above. We address each
argument in turn.
B.
Attacking the legal foundation of Plaintiffs’ claim,
Defendants contend that in a defined contribution
plan a fiduciary is not obligated to ensure individual
funds are diversified so long as the plan’s menu allows
participants to choose between a mix of options;
diversification must be judged at the plan level rather
than the fund level. In other words, regardless of the
thoroughness of monitoring, it was not inappropriate
to have the TEGNA Stock Fund in the Plan. Binding
precedent in this Circuit forecloses this argument,
which turns on the false premise that the § 1104(1)(C)
duty to diversify can eclipse the § 1104(a)(1)(B) duty of
prudence.
The leading case is DiFelice, in which this Court
considered a plan with a menu of funds and held that
“each available [f]und considered on its own” must be
prudent. DiFelice, 497 F.3d at 423 (emphasis in
original). This holding applies regardless of whether
the menu contains “other funds, which individuals
may or may not elect to combine with a [single-stock]
fund . . . [to] create a prudent portfolio.” Id. If it were
otherwise, “[a]ny participant-driven 401(k) plan . . .
would be prudent . . . so long as a fiduciary could argue
that a participant could, and should, have further
diversified his risk,” but that result is “perverse.” Id.
at 424.
From DiFelice, it follows that each available fund on
a menu must be prudently diversified. As discussed
above, diversification is a component of prudence. See

20a
Armstrong, 446 F.3d at 732; see also Summers, 453
F.3d at 406 (calling the duty to diversify an “included”
duty in the duty of prudence). Accordingly, if the duty
of prudence applies, then so does the duty of
prudence’s included duty of diversification. After all,
the point of the duty to diversify is not diversification
for diversification’s sake, but risk management.9
The text of ERISA compels this conclusion as well.
Regarding the abrogation of fiduciary duties with
respect to employer stock, ERISA states, “the
diversification requirement of [§ 1104(a)](1)(C) and
the prudence requirement (only to the extent that it
requires diversification) of [§ 1104(a)](1)(B) is not
violated by acquisition or holding of . . . qualifying
9 The dissent objects that our opinion creates a per se rule
against single-stock, non-employer funds. See post at 488. In the
context of the case before us, the dissent’s objection is premature.
We are at the motion to dismiss stage, where we take allegations
as true and hold claims to a plausibility standard. The requirement that a fiduciary prudently diversify a fund means that the
fiduciary must undertake an appropriate investigation and
implement whatever risk management steps, e.g., diversification,
that the investigation reveals to be prudent. We note that this
Court has previously recognized that “an investment . . . , made
upon appropriate consideration of the surrounding facts and
circumstances, should not be deemed to be imprudent merely
because the investment, standing alone, would have . . . a
relatively high degree of risk.” Tatum, 761 F.3d at 367 (quoting
Investment of Plan Assets under the “Prudence” Rule, 44
Fed.Reg. 37,221, 37,224 (June 26, 1979)) (emphasis in Tatum).
Here, we have taken as true—because of the allegations, not
because of a per se rule—that there was a single-stock fund with
a relatively high degree of risk and a failure to consider the
surrounding facts and circumstances. Accordingly, we do not
address whether the fiduciaries would ultimately be liable if they
later prove either that they did undertake a thorough investigation, or that a hypothetical prudent fiduciary would have
retained the TEGNA Stock Fund in its undiversified form had
such a hypothetical prudent fiduciary investigated.

21a
employer securities.” 29 U.S.C. § 1104(a)(2). This
language explicitly indicates that “the prudence
requirement” normally “requires diversification.” Id.
Nevertheless, Defendants argue that DiFelice
addressed prudence only and cannot be extended to
diversification. Defendants argue that “the duty of
diversification, in contrast [to the duty of prudence’s
analysis of each fund individually], involves the mix of
funds available [in a plan menu].” Appellees’ Br. at 16
(citing Young v. Gen. Motors Inv. Mgmt. Corp., 325 F.
App’x 31, 33 (2d Cir. 2009) (unpublished) (holding that
allegations that specific funds in a plan were
undiversified were insufficient to state a claim absent
allegations that the plan was undiversified as a
whole)). The district court agreed with Defendants.
This argument relies on separating the duty of
prudence codified at § 1104(a)(1)(B) from the duty of
diversification codified at § 1104(a)(1)(C), and then
substituting the requirements of § 1104(a)(1)(C) for
those of § 1104(a)(1)(B). However, given that trust law,
ERISA case law, and the text of ERISA all understand
diversification as an element of prudence, we cannot
accept this argument. See Restatement (Third) of
Trusts § 90 cmt. e(1); Armstrong, 446 F.3d at 732; 29
U.S.C. § 1104(a)(2).
This is not to say that § 1104(a)(1)(B) and
§ 1104(a)(1)(C) are identical duties. Nor is it to say
that Plaintiffs here failed to state a claim that the
Defendants breached their § 1104(a)(1)(C) duty of
diversification.
First
addressing
the
distinction
between
§ 1104(a)(1)(B) and § 1104(a)(1)(C), we examine the
Second Circuit case that Defendants cite, Young v.
General Motors. This unpublished case addressed the
§ 1104(a)(1)(C) duty of diversification as applied to a

22a
defined contribution plan, and held that the duty
“contemplates a failure to diversify claim when a plan
is undiversified as a whole,” and that allegations that
“individual funds within the plan were undiversified”
were insufficient to state a claim. Young, 325 F. App’x
at 33.
Returning to ERISA’s employer stock rule, the text
of the statute exempts employer stock from both the
§ 1104(a)(1)(C) duty of diversification and the
§ 1104(a)(1)(B) duty of prudence to the extent it
requires diversification. Accordingly, even assuming
the Second Circuit was correct that § 1104(a)(1)(C)
does not extend down to the fund level, and that we
should instead seek diversity across the menu of funds
in the plan, we may distinguish that case as not
addressing § 1104(a)(1)(B)’s requirement of prudence.
Cf. Tatum, 761 F.3d at 380 (“Although ERISA does not
in so many words require every fund in an investment
plan to be fully diversified, each fund, when considered
individually, must be prudent.”) (Wilkinson, J.,
dissenting).
That said, Plaintiffs do argue that there was a
failure to diversify at a plan level, not just at a fund
level. Plaintiffs contend that because the New Gannett
Plan had a New Gannett ESOP on its menu as well as
the TEGNA Stock Fund, and because New Gannett
and TEGNA are in the same sector and tend to rise
and fall together, the interplay between the two singlestock funds caused the Plan overall to have a
diversification problem. Plaintiffs’ claim thus passes
muster even under Young. It also falls within our
precedents. We have previously recognized that the
prudence of investing in one single-stock fund can be
impacted by the trials and tribulations of another
single-stock fund where the funds each hold stock in
formerly related companies, and that such a situation

23a
implicates the duty of diversification under
§ 1104(a)(1)(C). See Tatum v. RJR Pension Inv.
Comm., 855 F.3d 553, 566-67 (4th Cir. 2017).
Accordingly, Plaintiffs’ correlation theory plausibly
states a claim for a breach of the duty of diversification
under § 1104(a)(1)(C).10
C.
Having established that a single fund on a menu,
such as the TEGNA Stock Fund, can be scrutinized for
imprudence for want of diversification, we next turn to
whether a fiduciary is obligated to divest a nondiversified fund. Defendants contend that since the
TEGNA Stock Fund was frozen to new investments
and participants were able to leave the fund on their
own initiative, no further action was required. This
line of thinking supposes a per se rule that a fiduciary
10 We express no opinion on other situations where, for
instance, there are single-stock funds for companies that have
never been related. Furthermore, the dissent notes, correctly,
that it is difficult to blame alleged overconcentration in a fund or
funds in a defined contribution plan menu on a fiduciary because
of potential intervening participant choice. Post at 489 (“[T]hat
the Plan may have been concentrated in . . . one sector does not
reflect a breach of any duty . . . . [I]t merely reflects individual
Plan participants’ decisions as to how to allocate their own
investments.”).
Accordingly,
we
emphasize
that
the
§ 1104(a)(1)(C) diversification claim here turns on fund selection.
This is not to say that a fiduciary’s fund selection will never need
to account for whether participants have overconcentrated
themselves in one fund. But it is to agree with the dissent that
investment volume alone is not the applicable test for a breach of
duty here. That said, the dissent’s assertion that “the cause of any
overconcentration in TEGNA stock was individual Plan
participants’ decisions to retain their assets in the TEGNA Stock
Fund,” post at 487, is a double-edged sword: the fiduciaries also
had the power to divest but did not exercise it; but unlike the
participants, the fiduciaries were under an obligation to act
prudently.

24a
will never be required to divest a fund in a defined
contribution plan, although that may be an available
option.
Again, binding precedent in this Circuit forecloses
this argument. While merely freezing the fund may be
prudent in some cases, in other cases prudence may
compel divestment on a reasonable timeline and
freezing the fund to new investments will not be
enough. Cf. Restatement (Third) of Trusts § 92 cmt. d
(“[An] authorization to retain [an investment that was
part of the trust property at the time of the creation of
the trust] . . . ordinarily does not justify the trustee in
retaining such assets if, under the circumstances,
retention would be imprudent.”).
This Court previously addressed the divestment of a
frozen fund in a defined contribution plan in Tatum v.
RJR Pension Investment Committee—in fact, this
Court addressed Tatum three times. See Tatum v. R.J.
Reynolds Tobacco Co., 392 F.3d 636 (4th Cir. 2004)
(“Tatum I”); Tatum v. RJR Pension Inv. Comm., 761
F.3d 346 (4th Cir. 2014) (“Tatum II”); Tatum v. RJR
Pension Inv. Comm., 855 F.3d 553 (4th Cir. 2017)
(“Tatum III”).
The facts of Tatum were the inverse of those here. In
Tatum, there was a frozen single-stock fund created by
a spin-off, and the Tatum plaintiffs sued because plan
fiduciaries did divest it. See Tatum II, 761 F.3d at 35155. After a bench trial, the district court found that
although the Tatum fiduciaries had breached their
duty of procedural prudence by not undertaking a
thorough investigation prior to divesting the fund six
months after the spin-off, they were not liable because
a prudent fiduciary could have made the same decision
to divest after performing a proper investigation. Id.
at 351. This Court remanded for the district court to
instead apply a would have standard. Id. at 368-69.

25a
The district court subsequently determined that a
prudent fiduciary would have divested the stock, and
we affirmed. Tatum III, 855 F.3d at 556.
Tatum demonstrates that fiduciaries of defined
contribution plans have the power to force divestment
and that, in some circumstances, forcing divestment is
the objectively prudent thing to do even if the fund is
frozen. See Tatum II, 761 F.3d at 363 (discussing
“objective prudence”). Accordingly, in this case, where
Plaintiffs allege Defendants did not take up the matter
of retaining a single-stock fund in the Plan for nearly
two years after it lost its employer stock exemption, it
is eminently plausible that a hypothetical prudent
fiduciary who did investigate the fund in that time
would have begun the divestment process earlier.
Indeed, the dissenting opinion in Tatum II observed
that, “[h]ad the plan fiduciaries failed to diversify and
the . . . stocks had continued to decline, the fiduciaries
would have been sued for keeping the stocks.” Id. at
381 (Wilkinson, J., dissenting); see also Tibble, 135 S.
Ct. at 1828-29 (discussing duty to “monitor
investments and remove imprudent ones” in a defined
contribution plan (emphasis added)); DiFelice, 497
F.3d at 420 (explaining the relevant inquiry “when
plaintiffs allege . . . a fiduciary’s failure to engage in a
transaction, such as removal . . . of a company fund”
(second emphasis added)).
We further note that if we were to hold that there
can never be liability for failure to force divestment of
a frozen fund in a defined contribution plan, there
would be a gross liability asymmetry in this Circuit
due to Tatum. The finding in Tatum that a prudent
fiduciary would have forced divestment sets the
divestment decision on a high pedestal compared to
any alternative. Effectively, the Tatum defendants
were ultimately not liable because they proved they

26a
did the objectively right thing. However, the litigation
dragged on for nearly fifteen years. If freezing the fund
and walking away means a plaintiff can never state a
claim and that fiduciaries always prevail on a motion
to dismiss, no reasonable fiduciary would ever do as
the fiduciaries in Tatum did—that is, no fiduciary in
the Tatum situation will ever do the right thing. Plan
fiduciaries should be guided by prudence, not the
calculus of litigation costs. Accordingly, a bright line
rule that a fiduciary of a defined contribution plan will
never be obligated to divest an imprudent but frozen
fund is unwise.
D.
Defendants also argue that where participants in a
defined contribution plan hold legacy previousemployer stock in a frozen single-stock fund, those
participants should have the freedom to stay invested
in the fund and thus accept a higher risk to potentially
reap a higher reward.11 In Schweitzer, the Fifth
Circuit adopted a variation of this position, positing
that “[w]ith a rising market, [participants] chose to
retain the [legacy single-stock fund] for over two years,
balancing the risk of a want of portfolio diversity
against the rising values of [the legacy stock].” 960
F.3d at 199. The Fifth Circuit concluded that where a
fund is frozen, participants may divest if they choose
to, and the plan distributes statutorily mandated
warnings that portfolios are better if diversified, a
11 Defendants also contend that “everyone agrees [the TEGNA
stock investment] was prudent when the investment was initially
made.” Appellees’ Br. at 18. Because the TEGNA stock was the
legacy of an employer stock investment, and because the
complaint from which we draw the facts on a motion to dismiss
does not make an allegation about the initial prudence of the
TEGNA investment, we cannot assume that “everyone agrees”
the investment was prudent in the first instance.

27a
plaintiff cannot state a claim that alleges a fiduciary
should have forced divestment. Id.
Empirical evidence and general investment principles undermine these arguments, which, at bottom,
are contrary to the statutory structure of ERISA
because the claim that intervening participant choice
should relieve a fiduciary of liability for a breach is an
affirmative defense that courts do not consider at the
motion to dismiss stage. Pfeil v. State St. Bank & Tr.
Co., 671 F.3d 585, 598 (6th Cir. 2012), abrogated on
other grounds by Dudenhoeffer, 573 U.S. 409, 134 S.
Ct. 2459, 189 L.Ed.2d 457.
i.
We begin with the contention that participants in a
plan will balance the concentration risk of a singlestock fund against the potential for a high return.
Perhaps participants in the New Gannett Plan did
this, but perhaps they did not—and it is inappropriate
to assume they did at the motion to dismiss stage of
litigation.
First, that participants affirmatively balance risk
and choose to retain funds under such circumstances
is a dubious assertion. See Tatum II, 761 F.3d at 380
(“[O]nce plan participants allocate their assets among
various funds, there is a substantial risk that inertia
will keep them from carefully monitoring and
reallocating their retirement savings to take into
account changing risks.”) (Wilkinson, J., dissenting).
Empirical evidence shows that employees in defined
contribution plans “often follow the path of least
resistance” and “[a]lmost always, the easiest thing to
do is nothing whatsoever.” James J. Choi, David
Laibson, Brigitte C. Madrian & Andrew Metrick,
Defined
Contribution
Pensions:
Plan
Rules,
Participant Choices, and the Path of Least Resistance,

28a
16 Tax Pol’y & Econ. 67, 70 (2002). Accordingly, while
some participants may have decided they wished to
stay invested in the TEGNA Stock Fund, it is a stretch
to assume that they did.
Furthermore, returning to why diversification is
desirable, the essence of diversification is that a
diversified portfolio is superior to a non-diversified
portfolio because a diversified portfolio can achieve the
same expected return as an un-diversified portfolio,
but the diversified portfolio will be less risky. See
Edward C. Halbach, Jr., Trust Investment Law in the
Third Restatement, 77 Iowa L. Rev. 1151, 1166 (1992).
Diversification minimizes so-called “uncompensated
risk.” The “uncompensated” moniker highlights that
such risk is not “compensated” by a better expected
return. See Restatement (Third) of Trusts, § 90 cmt.
e(1) (“Because market pricing cannot be expected to
recognize and reward a particular investor’s failure to
diversify, a trustee’s acceptance of this type of risk
cannot, without more, be justified on grounds of
enhancing expected return.”); see also Unif. Prudent
Inv’r Act, cmt. to § 3 (Unif. Law Comm’n 1994)
(explaining that diversification minimizes uncompensated risk). Thus, it is not clear what “potentially . . .
higher reward” Defendants contend participants could
choose to pursue in exchange for bearing the higher
risk of the TEGNA Stock Fund. Appellees’ Br. at 18.
Of course, participants in a plan may make
idiosyncratic decisions, and the ability of a participant
to calibrate their retirement investing based on their
individual situation is one of the virtues of the defined
contribution plan structure. See James Kwak,
Improving Retirement Savings Options for Employees,
15 U. Pa. J. Bus. L. 483, 522 (2013). Accordingly, while
some plan participants in this case may have decided
for themselves to stay invested in the TEGNA Stock

29a
Fund, we should not prospectively assume this
occurred.
ii.
We next turn to the appropriate way to account for
participant choice (if there was such choice) when a
fiduciary is sued for a breach of a duty that caused a
loss to the plan, but some of the loss may have been
caused by participants. In the words of the Fifth
Circuit, plan participants “cannot enjoy their
autonomy and [then] blame the [f]iduciaries for
declining to second guess that judgment.” Schweitzer,
960 F.3d at 199. The Fifth Circuit is generally correct
that fiduciaries should not be liable for participant
autonomy, but we disagree with that court on whether
a defendant may invoke that autonomy in a motion to
dismiss.
In Tatum II, we noted that the “legislative history
and federal regulations clarify that the diversification
and prudence duties do not prohibit a plan trustee
from holding single-stock investments as an option in
a plan that includes a portfolio of diversified funds.”
761 F.3d at 356. In a footnote, we then quoted the
legislative history for 29 U.S.C. § 1104(c) and cited the
corresponding regulation from the Department of
Labor, 29 C.F.R. § 2550.404c-1. Section § 1104(c),
more commonly known by its ERISA number, § 404(c),
is a safe harbor provision that shields fiduciaries of
defined contribution plans from liability where a loss
“results from [a] participant’s . . . exercise of control.”
29 U.S.C. § 1104(c)(1)(A)(ii). Accordingly, “if the
participant instructs the plan trustee to invest the full
balance of his account in, e.g., a single stock, the
trustee is not to be liable for any loss because . . . the
investment does not meet the prudent man
standards.” Tatum II, 761 F.3d at 356 n.5 (quoting
H.R. Rep. No. 93-1280, at 305 (1974) (Conf. Rep.),

30a
reprinted in 1974 U.S.C.C.A.N. 5038, 5085-86). In
order to qualify for this safe harbor, however, a plan
must be more than simply a generic defined
contribution plan. Instead, the plan must satisfy the
intricate requirements of 29 C.F.R. § 2550.404c-1.
Counting over twenty-five requirements that a
fiduciary must meet before invoking the § 404(c) safe
harbor, the Sixth Circuit held this section “is an
affirmative defense that is not appropriate for
consideration on a motion to dismiss when, as here,
the plaintiffs did not raise it in the complaint.” Pfeil,
671 F.3d at 598. Other courts of appeals have held
similarly. See Hecker v. Deere & Co., 556 F.3d 575, 588
(7th Cir. 2009); Allison v. Bank One-Denver, 289 F.3d
1223, 1238 (10th Cir. 2002); In re Unisys, 74 F.3d at
446. Because the § 404(c) affirmative defense is
custom-tailored to the issue of participant choice in a
defined contribution plan, we conclude that the
fiduciary of a defined contribution plan should not
have the benefit of safe harbor on account of
participant choice without proving the § 404(c) defense
first. In other words, as-yet-unproven participant
choice does not abrogate a fiduciary’s duties such that
a plaintiff fails to state a claim where the plaintiff
attacks the prudence of an option on a plan’s menu.12
12 DiFelice supports our conclusion. In that case, we held that
even where a plan comports with § 404(c), “a fiduciary cannot free
himself from his duty to act as a prudent man simply by arguing
that other funds, which individuals may or may not elect to
combine with a company stock fund, could theoretically, in
combination, create a prudent portfolio.” 497 F.3d at 423.
Accordingly, it is even less appropriate that a fiduciary escape its
duty by invoking participant autonomy even before proving that
a plan comported with § 404(c). See also Peabody, 636 F.3d at 37677 (holding fiduciaries breached duty of prudence where they
allowed a participant in a defined contribution plan to “remain
invested exclusively in [closely-held employer] stock during the

31a
E.
Finally, we turn to Dudenhoeffer. 573 U.S. 409, 134
S. Ct. 2459, 189 L.Ed.2d 457. In Dudenhoeffer, plan
participants in an ESOP filed a lawsuit alleging that
plan fiduciaries breached their duty of prudence by
continuing to buy and hold employer stock when they
should have known that the stock was “overvalued and
excessively risky.” Id. at 2464. The participants
claimed that the fiduciaries should have known this
due to publicly available information. Id. For example,
they argued that the fiduciaries could have understood
from newspaper articles that the value of the employer
stock was decreasing and would continue to decrease,
and that the fiduciaries should have acted on that
prediction by selling the stock, ceasing to purchase
more of it, canceling the ESOP, or disclosing insider
information “so that the market would adjust its
valuation of [the] stock downward.” Id.; see id. at 2471.
The Court rejected this argument, explaining that,
like other investors, ERISA fiduciaries may prudently
“rely on [a] security’s market price as an unbiased
assessment of the security’s value in light of all public
information.”13 Id. at 2471 (quoting Halliburton Co. v.

company’s decline,” and the fiduciaries did not prove § 404(c)
defense or justify their failure to divest from the stock).
13 The
Court’s holding endorsed the efficient market
hypothesis. Dudenhoeffer, 134 S. Ct. at 2472 (“[F]ail[ure] to
outsmart a presumptively efficient market . . . [is] not a sound
basis for imposing liability.” (citation omitted)). The efficient
market hypothesis supposes that “markets for widely-traded
stock . . . are efficient and impound all publicly available
information.” White v. Marshall & Ilsley Corp., 714 F.3d 980, 992
(7th Cir. 2013) (quoting Nelson v. Hodowal, 512 F.3d 347, 350 (7th
Cir. 2008)), abrogated on other grounds by Dudenhoeffer, 573 U.S.
409, 134 S. Ct. 2459, 189 L.Ed.2d 457). Under this framework,
“stock prices in efficient markets do not reflect risks that an

32a
Erica P. John Fund, Inc., 573 U.S. 258, 134 S. Ct.
2398, 2411, 189 L.Ed.2d 339 (2014)). Therefore, it is
“implausible as a general rule” that a “fiduciary should
have recognized from publicly available information
alone that the market was over- or undervaluing the
stock . . . , at least in the absence of special circumstances.” Id. Accordingly, Dudenhoeffer forecloses
claims that fiduciaries should have outsmarted an
efficient market, although it leaves the door ajar if
there were “a special circumstance affecting the
reliability of the market price.” Id. at 2472.
But Plaintiffs do not contend that fiduciaries should
have outsmarted an efficient market. A claim that a
fund was imprudent due to lack of diversification does
not turn on reading tea leaves to predict the
performance of a stock—what Dudenhoeffer forecloses
as a basis for liability. Instead, Plaintiffs allege that
their fiduciaries should have recognized the imprudence of a fund based on the fund’s composition.14 It is
true that a fund’s composition might be informed by
publicly available information about the stocks that it
contains and therefore that a plaintiff’s allegations
might reference such publicly available information.
But those references do not shift an imprudent noninvestor could eliminate through diversification.” Schweitzer, at
960 F.3d at 197 n.36.
14 We further observe that Dudenhoeffer related to an ESOP
option in a defined contribution plan. 134 S. Ct. at 2463-64. As
previously noted, “ESOPs expose retirees to great risk,” but these
“evils . . . are endemic to the ESOP form established by
Congress.” Saumer v. Cliffs Nat. Res. Inc., 853 F.3d 855, 861 (6th
Cir. 2017) (quoting Pfeil v. State St. Bank & Trust Co., 806 F.3d
377, 387 (6th Cir. 2015)). Because employer stock enjoys an
exemption from the diversification requirements of both
§ 1104(a)(1)(B) and § 1104(a)(1)(C), we are wary of looking to
ESOP litigation for guidance where, as here, a plaintiff alleges a
failure to diversify a fund consisting of non-employer stock.

33a
diversification claim into the ambit of Dudenhoeffer.
See Pfeil v. State St. Bank & Tr. Co., 806 F.3d 377, 389
(6th Cir. 2015) (“One can concede that the market is
generally efficient in pricing stocks without concluding
that all decisions to buy, sell or hold are therefore
prudent.”) (White, J., dissenting); cf. Summers, 453
F.3d at 410-11 (Posner, J.) (suggesting that a change
in the debt-equity ratio of an employer’s stock on
account of a plummeting stock price or a merger might
require diversification of an ESOP under the duty of
prudence). We therefore conclude that Dudenhoeffer
does not apply to Plaintiffs’ allegations.
IV.
We pause now to recapitulate Plaintiffs’ claims.
Again, to state a claim for a breach of an ERISA
fiduciary duty, “a plaintiff must plausibly allege that a
fiduciary breached [a duty], causing a loss to the
employee benefit plan.” Schweitzer, 960 F.3d at 195.
Here, Plaintiffs allege that Defendants breached
their duty of prudence. Defendants allegedly breached
this duty by failing to monitor the continuing prudence
of holding a single-stock fund. Because Defendants did
not monitor the merits of the fund, they did not
uncover that it was an imprudent fund. As the fund
was a single-stock fund with inherent concentration
risk, it is plausible that the fund was, in fact,
imprudent. Simultaneously, the allegedly imprudent
single-stock fund was correlated with another singlestock fund on the Plan’s menu, intensifying diversification concerns. Defendants’ failure to discover the
imprudence led to another failure, a failure to divest
the fund. Since the fiduciaries did not divest the fund,
when the price of the stock in the fund went down, the
Plan suffered a loss.

34a
As we have explained, DiFelice authorizes
examining the prudence of a fund standing alone from
the other offerings on a plan’s menu. That case also
requires a fiduciary to identify and remedy imprudent
funds on a menu. Tatum then shows that maintaining
an allegedly imprudent fund in a frozen state is not
necessarily adequate—indeed, the outcome of Tatum
suggests that a prudent fiduciary would have nearimmediately moved to sunset the single-stock fund.
Accordingly, Plaintiffs have plausibly alleged
Defendants breached their duty of prudence and
caused a loss to the Plan.
Finally, neither Dudenhoeffer nor participant choice
structure bar the above claim. Dudenhoeffer is simply
inapposite. And as for participant choice, ERISA
accounts for that choice with the situational safe
harbor of § 404(c)—but that does not affect whether
Plaintiffs here have stated a claim.
For the foregoing reasons, we vacate the judgment of
the district court and remand for further proceedings.
VACATED AND REMANDED
NIEMEYER, Circuit Judge, dissenting:
The Gannett Co., Inc. 401(k) Savings Plan (the
“Gannett Plan”), a defined contribution plan, offered
its participants a menu of investments ranging in type
and level of diversification, thus giving the participants choices from which they could build their
individual investment portfolios. Among those options
was a fund consisting of only one publicly traded
stock—TEGNA Inc. In the time frame relevant to this
appeal, the TEGNA Stock Fund accounted for as much
as 20% of the value of all investments held by the Plan.
Jeffrey Quatrone, a participant in the Gannett Plan
who had invested in the TEGNA Stock Fund,

35a
commenced this putative class action under the
Employee Retirement Income Security Act of 1974
(“ERISA”) against the Plan’s alleged fiduciaries,
claiming damages resulting from a drop in the market
price of TEGNA stock. He alleged that the Plan’s
fiduciaries violated the ERISA duty of “diversification”
by allowing the value of the TEGNA Stock Fund to
constitute over 20% of all the Plan’s investments and
that they violated the duty of “prudence” by retaining,
in light of known risks, the TEGNA Stock Fund as an
option for investment in the Plan.
The district court, in a well-reasoned opinion,
concluded that Quatrone failed to state plausible
claims. It dismissed the diversification-duty claim by
reasoning that, notwithstanding the undiversified
nature of the TEGNA Stock Fund component, “the
Plan as a whole was comprised of various options for
the participants to select.” (Emphasis added). The
court explained that Quatrone’s diversification claim
was in effect a claim that the Plan’s fiduciaries should
have “force[d] the participants to diversify their
investments.” And it dismissed the prudence-duty
claim in light of the Supreme Court’s decision in Fifth
Third Bancorp. v. Dudenhoeffer, 573 U.S. 409, 426,
134 S.Ct. 2459, 189 L.Ed.2d 457 (2014), which held
that, as a general rule, “where a stock is publicly
traded, allegations that a fiduciary should have
recognized from publicly available information alone
that the market was over- or undervaluing the stock
are implausible.”
I agree with the district court’s irresistible
reasoning, which the majority opinion simply
sidesteps with a myopic analysis. Specifically, the
majority merges the duties of diversification and
prudence and then erroneously focuses on a single
investment option on the Plan’s diversified menu in

36a
concluding that the complaint adequately alleged
breach of these duties. It also fails to account for the
fact that the participants were given free rein to
diversify their individual accounts. The result of the
majority’s approach is a mechanically derived holding
that is divorced from common sense and that will
unnecessarily restrict the options offered in defined
contribution plans.
I
Before splitting into two companies, Gannett Co.,
Inc. was engaged in the businesses of publishing and
broadcasting. In June 2015, however, it spun off its
publishing operation, transferring the relevant assets
to a newly formed company, which it named Gannett
Co., Inc. (“New Gannett”). The original Gannett
company then renamed itself TEGNA Inc. New
Gannett and TEGNA are both publicly traded
companies.
The original Gannett company sponsored the
Gannett Plan, a 401(k) defined contribution plan, for
its employees. In a defined contribution plan, the plan
maintains an individual account for each participant,
and the benefits to the participant are limited to the
value of that account, over which the participant
exercises control. See 29 U.S.C. § 1002(34) (defining
“defined contribution plan”). The Gannett Plan’s terms
make this explicit, providing that, “all amounts
allocated to a Participant’s accounts shall be subject to
the investment direction of the Participant as provided
in this Section. For this purpose, the Trustee shall
establish investment funds as designated by the
[Gannett Plan] Committee.” (Emphasis added).
Accordingly, the Gannett Plan offered a menu of
options from which participants could select to allocate
their contributions. As the Plan provides,

37a
Each Participant upon commencement of
participation in the Plan shall elect how the
Participant’s contributions are to be invested
among the available investment choices. Once
made, a Participant’s elections shall remain in
effect until a new election is made. A Participant
may change investment elections as to current
and future Employee contributions as of any dates
that may be specified by the [Gannett Plan]
Committee.
One option offered by the Gannett Plan was
investment in a fund that held only the stock of the
original Gannett company. After the original Gannett
company spun off the new company, New Gannett
assumed sponsorship of the Plan. Under its
sponsorship, the Gannett Plan continued to hold as an
option for investment the stock of the original
company—with the name change, the TEGNA Stock
Fund. As a result, the employees of New Gannett who
had participated in the Gannett Plan prior to the
spinoff continued to have the option to maintain their
investments in the TEGNA Stock Fund, even though,
after the split, they were no longer employees of the
original Gannett company. At the time of the spinoff,
over 20% of the Gannett Plan’s assets were invested in
the TEGNA Stock Fund.
After the spinoff—presumably because New
Gannett employees were no longer connected to
TEGNA—the Gannett Plan froze investments in the
TEGNA Stock Fund, thus effectively reducing its
holdings of TEGNA stock; participants could no longer
allocate contributions to the TEGNA Stock Fund, but
they could reduce or cash-out their investments in that
Fund. The Gannett Plan, however, never required
participants to divest themselves of their holdings in
the TEGNA Stock Fund.

38a
In late 2015 and 2016, investment banks began
publicly to “downgrade” or become “bearish” about
TEGNA common stock. Nonetheless, the Gannett Plan
fiduciaries took no specific action to remove the
TEGNA Stock Fund option or somehow divest the Plan
of TEGNA stock. During the period between the
spinoff in 2015 and early 2018, the value of TEGNA’s
publicly traded common stock declined approximately
31%, while the S&P Index increased approximately
32%. Thus, according to the complaint, the failure to
divest the Plan of all TEGNA stock resulted in an
alleged $135 million loss in value to the Plan.
Plan participant Quatrone commenced this action in
March 2018 on behalf of himself and a putative class
of other Gannett Plan participants, naming as
defendants those who he alleged were fiduciaries of
the Plan. He alleged that those fiduciaries breached
their duties of “diversification” and “prudence,” as
imposed by ERISA, by failing “to timely liquidate the
Plan’s significant holdings in TEGNA common stock.”
The defendants filed a motion to dismiss the complaint
under Federal Rule of Civil Procedure 12(b)(6) for
failure to state plausible claims under ERISA, and the
district court granted the motion. It held that the
Gannett Plan’s fiduciaries did not breach the duty of
diversification because, notwithstanding the undiversified nature of the TEGNA Stock Fund, “the Plan as
a whole was comprised of various options for the
participants to select.” It further held that the
fiduciaries were not liable for breach of the prudence
duty based on the Supreme Court’s decision in Fifth
Third Bancorp v. Dudenhoeffer, as the risks of holding
TEGNA stock were public and the plaintiffs had
offered no other basis for a lack-of-prudence claim. The
district court also denied Quatrone’s motion for leave

39a
to amend the complaint, concluding that such amendment would be futile.
From the district court’s judgment dated February
13, 2019, Quatrone filed this appeal.
II
In essence, the complaint is grounded on the simple
allegation that the Gannett Plan’s fiduciaries
maintained too long the participants’ option to retain
their investments in the TEGNA Stock Fund, which
had represented at one time over 20% of the Plan’s
assets. It alleged that the fiduciaries’ conduct violated
ERISA’s duties of diversification, as imposed by 29
U.S.C. § 1104(a)(1)(C), and of prudence, as imposed by
§ 1104(a)(1)(B). While Quatrone acknowledges that
the Gannett Plan included, among its multiple
offerings, diverse options, he contends that the duty to
diversify operates both at the Plan level and “at the
level of individual funds within [the] [P]lan.” Based on
that contention, he argues that “[i]ncluding a nondiverse, single-stock fund [the TEGNA Stock Fund] in
a [P]lan lineup invites exactly the sort of overconcentration that a prudent fiduciary should avoid.” In
effect, therefore, Quatrone maintains that a defined
contribution plan with diverse options cannot include
as one option a non-employer, single-stock fund
because such inclusion somehow “invites” participants
to overconcentrate in that option, thus rendering the
entire Plan inadequately diversified.
As the district court explained, the argument makes
little sense in the context of a defined contribution
plan in which the participants, such as Quatrone,
determine the allocation of their contributions. In
particular, Quatrone was free to divest himself entirely
of the TEGNA Stock Fund, but he continued to hold
the investment, despite warnings available from

40a
public sources, while market forces reduced its value.
Then, he filed this action seeking to hold the
fiduciaries liable for not promptly forcing him to divest
his holdings of the TEGNA Stock Fund. This is not an
ERISA problem, nor is it a problem caused by the
fiduciaries’ failure to diversify. It was the outcome of a
free, individualized decision made by each participant
who remained invested in the TEGNA Stock Fund.
And the district court was correct to recognize this.
The standard of care that ERISA imposes on fiduciaries requires them to “diversify[ ] the investments of
the plan so as to minimize the risk of large losses,
unless under the circumstances it is clearly prudent
not to do so.” 29 U.S.C. § 1104(a)(1)(C) (emphasis
added). This duty is imposed with respect to “the plan,”
not with respect to each investment offered by the plan.
Id.; see also Tatum v. RJR Pension Inv. Comm., 761
F.3d 346, 356 (4th Cir. 2014) (“[L]egislative history
and federal regulations clarify that the diversification
and prudence duties do not prohibit a plan trustee
from holding single-stock investments as an option in
a plan that includes a portfolio of diversified funds”);
Schweitzer v. Inv. Comm. of Phillips 66 Sav. Plan, 960
F.3d 190, 195 (5th Cir. 2020) (explaining that ERISA’s
diversification duty “looks to a pension plan as a
whole, not to each investment option”). Thus, the
ERISA duty of diversification requires that a plan’s
investments be diversified but not that each
investment be diversified.
Moreover,
the
diversification
duty
under
§ 1104(a)(1)(C) “imposes obligations on fiduciaries for
defined benefit plans that are different from those for
defined contribution plans.” Schweitzer, 960 F.3d at
196 (emphasis added). Because fiduciaries of a defined
benefit plan both choose investments and allocate the
plan’s assets among them, the duty of diversification

41a
requires that their investment choices and the relative
allocation of funds among those choices result in
proper diversification. But for defined contribution
plans, like the Gannett Plan, the fiduciaries’ role is
limited to selecting the menu of investment options
offered to plan participants for their choosing. The
individual participants then select how to allocate
their investments among those options. Accordingly,
fiduciaries of defined contribution plans “need only
provide investment options that enable participants to
create diversified portfolios.” Id.
Apparently recognizing these principles, at least to
some degree, Quatrone argues that the complaint
contains allegations sufficient to establish that “the
Plan’s heavy investment in the TEGNA Stock Fund
caused the Plan as a whole to be undiversified for
purposes of [§ 1104(a)(1)(C)].” (Emphasis added). Yet,
it does not follow from the Plan’s concentration in
TEGNA stock that the fiduciaries violated their duty
to diversify. Rather, the cause of any overconcentration in TEGNA stock was individual Plan
participants’ decisions to retain their assets in the
TEGNA Stock Fund. In short, the complaint provides
no basis on which to conclude that the fiduciaries’
inclusion of the TEGNA Stock Fund as an option
caused the Plan’s overall menu of options to be
undiversified. Therefore, the complaint failed to state
a claim that the fiduciaries neglected to “diversify[ ]
the investments of the plan,” as required by
§ 1104(a)(1)(C).
Of course, if the retention of the TEGNA Stock Fund
as an investment option was itself imprudent, the
defendants would be liable for breach of the prudence
duty imposed by § 1104(a)(1)(B). But the complaint
does not plausibly allege that, in these circumstances,
offering a single-stock fund involving a publicly traded

42a
company was imprudent, especially in light of the
Supreme Court’s decision in Dudenhoeffer.
ERISA applies a prudent man’s standard of care,
requiring that fiduciaries act “with the care, skill,
prudence, and diligence under the circumstances then
prevailing that a prudent man acting in a like capacity
and familiar with such matters would use in the
conduct of an enterprise of a like character and with
like aims.” 29 U.S.C. § 1104(a)(1)(B). And particularly
as relevant in the context of a defined contribution
plan, like the Gannett Plan, “[a] fiduciary . . . must
exercise prudence in selecting and retaining available
investment options.” DiFelice v. U.S. Airways, Inc., 497
F.3d 410, 418 (4th Cir. 2007) (emphasis added). This is
a contextual exercise that requires fiduciaries to
evaluate each investment option in light of the other
options available to participants and the goals of the
plan itself. See Dudenhoeffer, 573 U.S. at 425, 134
S.Ct. 2459 (noting that the proper inquiry is “context
specific”); see also 29 C.F.R. § 2550.404a-1(b) (2019)
(requiring that fiduciaries give appropriate consideration to relevant facts and circumstances that they
know or should know in evaluating each investment to
determine whether it is appropriate to further the
goals of the plan). But in this case, the complaint
provides no contextual facts about the Plan’s menu
from which to conclude that including the TEGNA
Stock Fund on that menu demonstrated a lack of
prudence.
Nonetheless, Quatrone attempts to use a slice of
language from DiFelice to maintain that compliance
with ERISA’s duty of prudence must be evaluated
exclusively at the level of each individual fund offered
by a plan, without regard to the characteristics of the
plan as a whole. And unfortunately, the majority
seems to agree. See ante at 476–77. Indeed, the

43a
majority takes the additional step of extending
DiFelice’s language to conclude that, for a participantdriven, defined contribution 401(k) plan, “each
available fund on a menu must be prudently
diversified.” Id. at 476.
This conclusion not only collapses any meaningful
distinction between the separately enumerated duties
of diversification and prudence, but it also creates
tension with our precedent. Specifically, DiFelice
explains that to satisfy ERISA’s duty of prudence, “a
fiduciary must initially determine, and continue to
monitor, the prudence of each investment option
available to plan participants.” 497 F.3d at 423. But
this language cannot be read to mean that, to satisfy
the duty of prudence, each individual fund must be
diversified—as maintained by Quatrone and the
majority. Such a position necessarily leads to the
conclusion that no non-employer, single-stock
investment option offered under an ERISA plan could
ever satisfy the duty of prudence. Indeed, Quatrone’s
counsel acknowledged that his position would
essentially create such a per se rule, stating at oral
argument that “you cannot” prudently offer a singlecompany fund in the context of a participant-driven,
defined contribution plan. And, by not explaining how
plan fiduciaries could ever prudently offer a singlestock, non-employer fund if the duty of prudence
indeed requires “each available fund on a menu [to] be
prudently diversified,” the majority has now adopted
that position. Ante at 476-77.
Yet, we have already unequivocally rejected the
notion that offering single-stock funds is imprudent
per se because such a “per se approach is directly at
odds with our case law and federal regulations
interpreting ERISA’s duty of prudence.” Tatum, 761
F.3d at 360; see also id. at 367 (rejecting the

44a
“contention that it would necessarily be imprudent for
a fiduciary to maintain an existing single-stock
investment in a plan that . . . offers participants a
diversified portfolio of investment options”). Thus,
allegations regarding the TEGNA Stock Fund’s singlestock nature are insufficient to establish that the
fiduciaries acted imprudently when they allowed
participants to retain their investments in the Fund.
Moreover, TEGNA is a publicly traded stock,
meaning that both fiduciaries and plan participants
could “rely on the security’s market price as an
unbiased assessment of the security’s value in light of
all public information.” Dudenhoeffer, 573 U.S. at 426,
134 S.Ct. 2459 (quoting Halliburton Co. v. Erica P.
John Fund, Inc., 573 U.S. 258, 273, 134 S.Ct. 2398, 189
L.Ed.2d 339 (2014)). This means that, “where a stock
is publicly traded, allegations that a fiduciary should
have recognized from publicly available information
alone” that a stock was excessively risky “are
implausible as a general rule, at least in the absence
of special circumstances.” Id. And because Quatrone
has pleaded no special circumstances, his allegation
that the TEGNA stock’s volatility made the inclusion
of the TEGNA Stock Fund an imprudent investment
simply fails to state a claim in light of Dudenhoeffer.
Finally, Quatrone argues that the TEGNA Stock
Fund was imprudent because “[t]he sheer size of the
Plan’s holdings in TEGNA common stock was
unreasonable by any measure” and caused the overall
Plan to be overconcentrated in one company.
Relatedly, he asserts that, when considered alongside
the Plan’s holdings in the stock of New Gannett,
retention of the TEGNA Stock Fund caused the Plan
to be overconcentrated in one sector. But that the Plan
may have been concentrated in one company or one
sector does not reflect a breach of any duty owed by the

45a
fiduciaries. Instead, it merely reflects individual Plan
participants’ decisions as to how to allocate their own
investments. And while it might be generally
imprudent for a fiduciary to invest a large percentage
of plan assets in a single security or a single sector, a
defined contribution plan is structured such that the
plan participants—not the fiduciaries—make the
actual investment decisions. In effect, Quatrone’s
argument ignores the structure of a defined contribution plan and suggests that an investment can become
imprudent simply because many plan participants
independently decide to allocate their contributions to
it. But an investment option’s prudence cannot rise or
fall based on the number of participants who
ultimately decide to invest in (or remain invested in)
it.
In sum, other than identifying the single-stock
nature of the TEGNA Stock Fund and its asset share
relative to other investments offered by the Gannett
Plan, Quatrone has pleaded no other facts from which
to conclude that the TEGNA Stock Fund was an
imprudent investment option. Accordingly, I conclude
that Quatrone has failed plausibly to allege that the
inclusion of the TEGNA Stock Fund on the menu of
diversified options was imprudent.
For these reasons, I would affirm the judgment of
the district court dismissing this case for failure to
state an ERISA claim.

46a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA,
ALEXANDRIA DIVISION
————
Civil Action No. 1:18-cv-325 (AJT/JFA)
————
JEFFREY QUATRONE
On Behalf of Gannett Co., Inc. 401(k) Savings Plan
and all other similar situated,
Plaintiff,
v.
GANNETT CO., INC. et al.,
Defendants.
————
Signed 02/13/2019
————
ORDER
————
Anthony J. Trenga, United States District Judge
Pending before the Court is Plaintiffs’ Motion for
Leave to Amend Complaint [Doc. No. 54] (the “Motion
to Amend”). On September 26, 2018, the Court issued
an order granting Defendants’ Motion to Dismiss [Doc.
No. 60] (the “Order”), and judgment was entered in
favor of Defendants in accordance with Fed. R. Civ. P.
58 [Doc. No. 62] (the “Rule 58 Judgment”). Defendants’
Motion to Dismiss was directed at the original
Complaint [Doc. No. 1], and the Motion to Amend was
still pending at the time of the Order and Rule 58

47a
Judgment. Thus, on October 1, 2018, the Court issued
an order vacating the Rule 58 Judgment pending the
Court’s consideration of the Motion to Amend. [Doc.
No. 64]. Upon consideration of the Motion to Amend
and the memoranda of law in support thereof and in
opposition thereto, and for the following reasons, the
Motion to Amend is DENIED. Also pending at the time
the Order and Rule 58 Judgment were entered was
Plaintiffs’ Motion for Class Certification [Doc. No. 39];
because the Court denies the Motion to Amend, the
Motion for Class Certification is DENIED as moot.
Pursuant to Fed. R. Civ. P. 15(a)(2), a court must
“freely give leave [to amend] when justice so requires.”
“[L]eave to amend a pleading should be denied only
when the amendment would be prejudicial to the
opposing party, there has been bad faith on the part of
the moving party, or the amendment would have been
futile.” Laber v. Harvey, 438 F.3d 404, 426 (4th Cir.
2006) (en banc) (internal quotations omitted).
Amendment would be futile “if the proposed amended
complaint fails to satisfy the requirements of the
federal rules.” United States ex rel. Wilson v. Kellogg
Brown & Root, Inc., 525 F.3d 370, 376 (4th Cir. 2008)
(internal quotations omitted). Thus, where the
proposed amended complaint fails to state a claim
under Fed. R. Civ. P. 12(b)(6), leave to amend is
properly denied. See id.
Here, both the original and amended complaints
allege violations of §§ 404, 405, and 409 of the
Employee Retirement Income Security Act of 1974
(“ERISA”) (codified, respectively, at 29 U.S.C. §§ 1104,
1105, and 1109) on the part of Defendants Gannett
Co., Inc. (“Gannett”) and the Gannett Benefit Plans
Committee (the “Committee”) with respect to the
Gannett Co., Inc. 401(k) Savings Plan (the “Plan”).
Briefly summarized, Plaintiff asserts that after

48a
Gannett Co., Inc. and TEGNA, Inc. split into two
separate companies in mid-2015, Defendants, as
fiduciaries of the Plan, should have at some point
forced the employees who transferred to Gannett to
sell the TEGNA stock they had accumulated in the
Plan as TEGNA employees. This Court held that the
original complaint failed to state a claim for breach of
fiduciary duty arising from Defendants’ alleged breach
of their duties of prudence, to diversify, and to
investigate in failing to force the sale of the TEGNA
stock. Because the complaint failed to state a claim as
to any underlying breach of fiduciary duty, the Court
also found that it failed to allege co-fiduciary liability,
and thus dismissed both counts of the original
complaint.
Plaintiff seeks to amend the complaint in order to
“(1) remove Defendants John/Jane Does 1-10, (2)
conform the allegations to the facts learned through
discovery, and (3) replace Mr. Quatrone with proposed
Class Representative Christina Stegemann as the
named plaintiff.” [Doc. No. 54] at 1. The question
before the Court is whether these proposed
amendments rectify the deficiencies of the original
complaint, which the Court previously dismissed for
failing to state a claim; if not, amendment would be
futile and leave to amend should be denied. The
proposed removal of the John/Jane Doe Defendants
and the replacement of Mr. Quatrone as the class
representative clearly would not address the
deficiencies of the original complaint. Thus, the
question is whether the amendments made to conform
the allegations in the complaint to the facts learned
through discovery are sufficient to correct those
deficiencies. Plaintiff characterizes the proposed
amendments as encompassing two new sets of
allegations: (1) that Defendants “were required to

49a
liquidate the TEGNA Stock Fund pursuant to the
Employee Matters Agreement (‘EMA’)”1 and (2) that
Defendants “were repeatedly told and knew that the
TEGNA Stock Fund was an imprudent investment but
failed to act on the information in breach of their
fiduciary duties.” [Doc. No. 66] at 2.
In finding that the original complaint failed to state
a claim for breach of fiduciary duty, the Court relied
on the pronouncements of the Supreme Court in Fifth
Third Bancorp v. Dudenhoeffer, 134 S. Ct. 2459 (2014),
as well as the guidance provided by the Fourth Circuit
in DiFelice v. U.S. Airways, Inc., 497 F.3d 410 (4th Cir.
2007) and Tatum v. RJR Pension Investment Committee, 855 F.3d 553 (4th Cir. 2017). In Dudenhoeffer,
the Supreme Court held that “where a stock is publicly
traded, allegations that a fiduciary should have
recognized from publicly available information alone
that the market was over-or undervaluing the stock
are implausible as a general rule, at least in the
absence of special circumstances.” 134 S. Ct. at 2471.
This Court found that “the holding in Dudenhoeffer
applies to Plaintiff’s breach of fiduciary duty claims,”
as a result of which those claims are “implausible
absent ‘special circumstances.’ ” [Doc. No. 60] at 8. The
Court determined that the original complaint failed to
allege the kind of special circumstances contemplated
by Dudenhoeffer, which include “factors that affect the
‘reliability of the market price as an unbiased
assessment of the security’s value in light of all public
information.’ ” Id. at 10-11 (quoting Dudenhoeffer, 134
S Ct. at 2471). Plaintiff’s amended complaint also fails
1 While the proposed amended complaint does include
additional allegations with respect to the EMA, see [Doc. No. 542] ¶¶ 6(e), 23-24, the original complaint also referenced and
quoted from the agreement [Doc No 1] ¶ 47 and the Court
referenced it in its Order, [Doc. No. 60] at 4.

50a
to allege the special circumstances required to make a
breach of fiduciary duty claim plausible under
Dudenhoeffer; in fact, Plaintiff admits as much in his
Reply in support of the Motion to Amend. [Doc. No. 66]
at 8.
Instead, Plaintiff argues that the proposed amended
complaint states a breach of fiduciary duty claim
because “the undiversified TEGNA Stock Fund was an
imprudent investment for the Plan because TEGNA
stock was properly priced and the Plan received no
compensation for the extraordinary uncompensated
risk it assumed from massive concentration in the
stock.” Id. at 9. “The bottom line,” Plaintiff argues, “is
that it is imprudent to offer a single-stock fund unless
it is an employer securities fund expressly exempted
from the duty to diversify.” Id. at 10. These allegations,
while arguably adding to the fabric of plaintiff’s
diversification theory, are nevertheless bound up with
that theory. In holding that the original complaint
failed to state a claim, this Court rejected the theory
that Defendants were required to force Plan
participants to diversify their investments, especially
where, as here, participants had the choice to allocate
their contributions among different plan investments.
[Doc. No. 60] at 12. None of these additional
allegations in the proposed amended complaint
undercuts the Court’s reasoning in rejecting Plaintiff’s
diversification theory.
Like the original complaint, Plaintiff’s proposed
amended complaint also alleges that Defendants
breached their duty of prudence under the Plan by
failing to “conduct an appropriate investigation of
continued investment in TEGNA common stock.” [Doc.
No. 54-2] ¶ 122; [Doc. No. 1] ¶ 107. In dismissing the
original complaint, the Court, operating within the
Dudenhoeffer framework, held that Plaintiff failed to

51a
allege what “special circumstances” an investigation
would have uncovered, and had therefore “failed to
allege facts that make plausible that any failure to
conduct an adequate investigation caused any harm to
the Plan.” [Doc. No. 60] at 13. The proposed amended
complaint does contain new allegations as to the
process that ultimately led to the liquidation of the
TEGNA stock fund in the Plan—specifically, that the
Committee regularly monitored the TEGNA stock
fund and discussed the possibility of closing it on
several occasions before ultimately deciding to do so.
[Doc. No. 54-2] ¶¶ 33-35, 38-44, 48-57. However, the
amended complaint still lacks any allegations that
further investigation by Defendants would have
uncovered the “special circumstances” required to
state a claim under Dudenhoeffer. Because the
proposed amended complaint fails to address the
deficiencies of the original complaint with respect to
Defendants’ alleged breach of their duties of prudence,
to diversify, and to investigate, amendment would be
futile.
For the reasons stated above, it is hereby
ORDERED that Plaintiffs’ Motion for Leave to
Amend Complaint [Doc. No. 54] be, and the same
hereby is, DENIED; and it is further
ORDERED that Plaintiffs’ Motion for Class
Certification [Doc. No. 39] be, and the same hereby is,
DENIED as moot.

52a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA,
ALEXANDRIA DIVISION
————
Civil Action No. 1:18-cv-325 (AJT/JFA)
————
JEFFREY QUATRONE
On Behalf of Gannett Co., Inc. 401(k) Savings Plan
and all other similar situated,
Plaintiff,
v.
GANNETT CO., INC. et al.,
Defendants.
————
Signed 09/26/2018
————
ORDER
————
Anthony J. Trenga, United States District Judge
In June 2015, Gannett Co, Inc., a publicly traded
media company, changed its name to TEGNA, Inc.
(“TEGNA” or “Old Gannett”) and spun off its publishing business into a newly created, independently
traded company, which was also called Gannett Co.,
Inc. (“New Gannett” or “Gannett”). As part of that
transaction, a new 401(k) plan was established for
employees who remained Old Gannett/TEGNA employees. The then existing 401(k) Plan (which was the
operative plan for Old Gannett/ TEGNA employees),

53a
known as the Gannett Co., Inc. 401(k) Savings Plan,
became the operative 401(k) plan for New Gannett
employees, including those Old Gannett employees
who transferred to New Gannett (“the Plan” or “the
Gannett Plan”).
Before the spinoff, Old Gannett/TEGNA employees
could invest their 401(k) plan contributions in
“company stock,” i.e., Old Gannett/TEGNA company
stock. After the spinoff, participants in the Plan, i.e.,
New Gannett employees, had the option of either
continuing to hold that TEGNA stock in the Plan or
selling it whenever they chose and re-investing those
sales proceeds into other investments options offered
by the Plan. However, they did not have the option of
purchasing additional TEGNA stock.
Plaintiff alleges various breaches of fiduciary duties
on the part of the Defendants in connection with Old
Gannett/TEGNA’s spinoff of its publishing business.
Briefly summarized, Plaintiff claims in support of
these allegations that “Defendants caused the Plan to
be undiversified by their failure to decrease the Plan’s
substantial holdings of TEGNA common stock
following the separation, thereby subjecting the Plan
and its participants to the risks associated with being
too heavily invested in one company (‘company risk’)
and industry (‘industry risk’).” Compl. ¶ 6(a). In that
regard, Plaintiff claims that “Defendants took no
meaningful steps to monitor or review the single-stock
TEGNA Stock Fund from the Plan even though the
investment risk was exacerbated by TEGNA’s volatility, high correlation to Gannett Co., Inc. stock, in
which the Plan also held a large position, and the huge
percentage of Plan assets invested in TEGNA.” [Doc.
No. 28] (“Pl.’s Opp. Mem.” at 1). Moreover, Plaintiff
claims, “Defendants included TEGNA stock in the
Plan because of Gannett’s ‘historical relationship’ with

54a
TEGNA. And, although Defendants agreed to
liquidate the Plans’ holdings in TEGNA in June 2015,
they did nothing as the price of TEGNA plummeted
over the next three years, costing the plan and its
beneficiaries over $100 million.” Id. at 1–2 (citing
Compl. ¶¶ 58–60). In effect, Plaintiff contends that the
Defendants should have at some point forced the
employees who transferred to New Gannett to sell the
TEGNA stock they had accumulated in the Plan as Old
Gannett/TEGNA employees.
Defendants have filed a Motion to Dismiss pursuant
to Fed. R. Civ. P. 12(b)(6) [Doc. No. 3] (the “Motion”).
The Court held a hearing on May 18, 2018, following
which it took the Motion under advisement. For the
reasons stated below, the Complaint fails to state a
claim for relief under the pronouncements in Fifth
Third Bancorp v. Dudenhoeffer, 134 S. Ct. 2459 (2014)
and will be dismissed pursuant to Fed. R. Civ. 12(b)(6).
I.

FACTUAL ALLEGATIONS

Plaintiff Jeffrey Quatrone, on behalf of the Gannett
Co., Inc. 401(k) Savings Plan (the “Plan” or “Gannett
Plan”), and a class of similarly situated participants in
the Plan, alleges violations of §§ 404, 405, and 409 of
the Employee Retirement Income Security Act of 1974
(“ERISA”) (codified, respectively, at 29 U.S.C. §§ 1104,
1105, and 1109). Named as defendants are (1) New
Gannett (2) the Gannett Benefit Plans Committee
(“the Committee”), which serves as the administrator
of the Plan; and (3) the individual members of the
Committee.
The Complaint alleges the following in support of his
claims:
TEGNA caused a spinoff of its publishing business
into a new entity, Gannett, on June 29, 2015 (the “date
of separation”). Compl. ¶ 1. As a result of the spin-off,

55a
two publicly traded companies were formed: (1)
TEGNA, which was named “Gannett Co., Inc.” before
the spinoff, a broadcasting and digital company; and
(2) a newly created entity, a publishing company,
taking the name Gannett Co., Inc. previously used by
TEGNA. Id. ¶ 22. The spinoff resulted in a new 401(k)
plan for TEGNA employees, while the Gannett Plan
became the operative 401(k) plan for New Gannett, the
spun-off company.1 Id. TEGNA distributed one
common share of New Gannett common stock for every
two shares of TEGNA stock held by TEGNA
stockholders. Id. ¶ 22. During the putative class
period, the value of the TEGNA common stock held in
Plaintiff’s accounts diminished considerably, resulting
in losses. Id.
Plaintiff is a participant in the Plan within the
meaning of ERISA § 3(7), 29 U.S.C. § 1102(7) and held
shares of TEGNA common stock during the putative
class period. Id. ¶ 14. Defendant “Gannett is a
fiduciary because it exercised discretionary authority
or control over management of the Plan, exercised
authority or control over the management or
disposition of the Plan assets and/or had discretionary
authority, and because it had discretionary authority
to appoint and monitor Plan fiduciaries who had
authority or control over management or disposition of
Plan assets.” Id. ¶ 16. The Committee administered
the Plan and was also a fiduciary of the Plan within
1 The Plan is an employee benefit plan within the meaning of
ERISA §§ 3(3) and 3(2)(A), 29 U.S.C. §§ 1002(3) and 1002(2)(A).
Id. ¶ 25. The Plan is a “defined contribution” or “individual
account” plan within the meaning of ERISA § 3(34), 29 U.S.C.
§ 1002(34) because it provides individual accounts for each
participant and benefits based upon the amount contributed to
the participants account, and any income, expenses, gains and
losses, and any forfeitures of accounts of other participants which
could be allocated to such participants’ accounts. Id. ¶ 26.

56a
the meaning of ERISA § 3(21)(A), 29 U.S.C.
§ 1002(21)(A). Id. ¶¶ 17, 18. Defendants John/Jane
Does 1 through 10 are the individual members of the
Committee, and other committee(s) responsible for
carrying out the provisions of the Plan or serving as
Plan Financial fiduciary during the class period. Id.
¶ 20.
Plaintiff claims that Defendants breached their
duties of loyalty, prudence, and diversification under
ERISA § 404, 29 U.S.C. § 1104 by allowing the Plan to
invest in TEGNA common stock for an unreasonable
period of time following the date of separation. Id.
¶¶ 4, 6, 30. More specifically, Plaintiff alleges that
allowing such an investment into a single stock option
was a breach of fiduciary duties because it caused the
Plan to be undiversified and subjected the Plan and its
participants to an “imprudent and unnecessary
undiversified risk;” subjected participants to
additional risks because both TEGNA and Gannett
stocks’ performance are heavily dependent on the
business cycle and economic conditions; TEGNA is
volatile stock; and Defendants’ liquidation of stock was
unreasonable. Id. ¶ 6(a)–(d). Defendants were
allegedly aware of the risks associated with the lack of
diversification of the Plan’s TEGNA holdings, id.
¶¶ 45–46, and due to the concentration risks
associated with the Plan’s excessive holdings of
TEGNA common stock, management for TEGNA and
Gannett mandated in June 2015 that Defendants
liquidate the Plan’s TEGNA holdings, id. ¶ 47. As a
result of these alleged breaches, Plaintiff claims
Defendants are liable to the Plan for all losses
resulting from each of their breaches of fiduciary duty.
Id. ¶ 10.

57a
II.

STANDARD OF REVIEW

In considering a motion to dismiss pursuant to
Federal Rule of Civil Procedure 12(b)(6), “the material
allegations of the complaint are taken as admitted.”
Jenkins v. McKeithen, 395 U.S. 411, 421 (1969)
(citations omitted). Moreover, “the complaint is to be
liberally construed in favor of the plaintiff.” Id.; see
also Bd. of Trustees v. Sullivant Ave. Properties, LLC,
508 F. Supp. 2d 473, 475 (E.D. Va. 2007). The alleged
facts are presumed true, and the complaint should be
dismissed only when “it is clear that no relief could be
granted under any set of facts that could be proved
consistent with the allegations.” Hishon v. King &
Spalding, 467 U.S. 69, 73 (1984). To survive a 12(b)(6)
motion, “a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’ ” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570 (2007) ). “A claim has
facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.” Id. However, “[t]hreadbare
recitals of the elements of a cause of action, supported
by mere conclusory statements, do not suffice” to meet
this standard, id., and a plaintiff’s “[f]actual
allegations must be enough to raise a right to relief
above the speculative level . . . .” Twombly, 550 U.S. at
555.

58a
III. ANALYSIS
A.

Plaintiff fails to allege a breach of fiduciary
duty pursuant to ERISA.2
1.

Breach of Prudence Claim

The Complaint alleges, inter alia, that Defendants
breached a duty of prudence by allowing Plan
participants to invest in TEGNA common stock for an
unreasonable time following the date of separation.
Compl. ¶¶ 6, 48–57, 61–62, 79–82, 110. Plaintiff
alleges that such continued investment was a breach
of duty of prudence because publicly available
information (e.g. TEGNA’s poor stock performance)
should have informed the fiduciaries that investment
into a single stock was an unnecessary risk. See id.
¶ 110. Defendants move for dismissal of Plaintiff’s
breach of duty of prudence claim on the ground that
the Supreme Court’s Dudenhoeffer decision precludes
similar claims based on publicly available information
absent special circumstances. Defs.’s Mem. in Supp. at
5–7. Plaintiff argues that the Fourth Circuit’s Tatum
v. R.J. Reynolds Inv. Comm., 855 F.3d 553, 562 (4th
Cir. 2017) (“Tatum 7”),3 and DiFelice, 497 F.3d at 410,
2 The Committee does not contest that it is a fiduciary under
ERISA. Defendant Gannett disputes, however, that it is an
ERISA fiduciary for the purpose of Plaintiff’s claim. Although
there is a substantial question whether Gannett is a fiduciary
under ERISA, given its decision that Plaintiff has failed to
adequately allege a breach of fiduciary duty against any of the
Defendants, the Court will assume, without deciding, that
Gannett was a fiduciary for the purposes of the Motion.
3 Tatum involved several cases surrounding the litigation of a
putative ERISA class action against R.J. Reynolds (“RJR”) and
various RJR committees arising from RJR’s “spin-off” of the
company’s food business, Nabisco, from its tobacco business. See
Tatum v. R.J. Reynolds Tobacco Co., 294 F.Supp.2d 776
(M.D.N.C. 2003) (dismissing complaint) (“Tatum l”); Tatum v.

59a
decisions hold contrary positions and therefore do not
preclude Plaintiff’s claims.
ERISA is “intended to ‘promote the interests of
employees and their beneficiaries in employee benefit
plans.’ ” DiFelice v. U.S. Airways, Inc., 497 F.3d 410,
417 (4th Cir. 2007) (quoting Shaw v. Delta Air Lines,
Inc., 463 U.S. 85, 90 (1983) ). “Under ERISA, [benefit]
plan fiduciaries are assigned a number of detailed
duties and responsibilities, which include the proper
management, administration and investment of plan
assets, the maintenance of proper records, [and] the
disclosure of specific information . . . .” Id. (internal
quotation marks and citation omitted). “ERISA
requires that a fiduciary shall act ‘with the care, skill,
prudence, and diligence under the circumstances then
prevailing that a prudent man acting in a like capacity
and familiar with such matters would use in the
conduct of an enterprise of a like character and with
like aims.’ ” Id. (quoting 29 U.S.C. § 1104(a)(1)(B) ).
It is the “prudent person” standard by which a
fiduciary’s investment decisions and disposition of
assets are measured. Dudenhoeffer, 134 S. Ct. at 2467
(citing Massachusetts Mut. Life Ins. Co. v. Russull, 473
R.J. Reynolds Tobacco Co., 392 F.3d 636 (4th Cir. 2004)
(reversing Tatum 1) (“Tatum 2”); Tatum v. R.J. Reynolds Tobacco
Co., 02-00373, 2007 WL 1612589 (M.D.N.C. May 31, 2007)
(denying motion to dismiss in part) (“Tatum 3”); Tatum v. R.J.
Reynolds Tobacco Co., 926 F.Supp.2d 648 (M.D.N.C. 2013)
(entering judgment for defendants after bench trial) (“Tatum 4”);
Tatum v. R.J. Reynolds Tobacco Co., 761 F.3d 346 (4th Cir. 2014)
(reversing and vacating Tatum 4 in part and remanding) (“Tatum
5”); Tatum v. R.J. Reynolds Tobacco Co., No. 1:02CV00373, 2016
WL 660902, at *2 (M.D.N.C. Feb. 18, 2016) (on remand,
determining defendants had shown that a fiduciary acting with
prudence would have divested the Nabisco Funds) (“Tatum 6”);
and Tatum v. R.J. Reynolds Inv. Comm., 855 F.3d 553 (4th Cir.
2017) (affirming Tatum 6) (“Tatum 7”).

60a
U.S. 134, 143, n.10 (1985) ). Under this standard, “a
fiduciary normally has a continuing duty of some kind
to monitor investments and remove imprudent ones.”
Tibbie v. Edison Int’l, 135 S. Ct. 1823, 1828–29 (2015).
Thus, “[a] plaintiff may allege that a fiduciary
breached the duty of prudence by failing to properly
monitor investments and remove imprudent ones.” Id.
at 1829.
In Dudenhoeffer, the Supreme Court considered the
duty of prudence within the context of publicly traded
securities and concluded that “where a stock is
publicly traded, allegations that a fiduciary should
have recognized from publicly available information
alone that the market was over-or undervaluing the
stock are implausible as a general rule, at least in the
absence of special circumstances.” Dudenhoeffer, 134
S. Ct. at 2471. Correlatively, the Supreme Court
concluded that “a fiduciary usually is not imprudent to
assume that a major stock market . . . provides the
best estimate of the value of the stocks traded on it
that is available to him.” Id. at 2471 (citation and
internal quotation marks omitted).
Courts have applied the pronouncements in
Dudenhoeffer broadly to breach of fiduciary duty
claims other than those based on value based prudence
claims. See Saumer v. Cliffs Nat. Res. Inc., 853 F.3d
855, 862 (6th Cir. 2017) (reasoning that “[t]he
plaintiffs in Dudenhoeffer similarly argued that the
fiduciary should have known that the company’s stock
was ‘overvalued and excessively risky.’ ”) (quoting
Dudenhoeffer, 134 S. Ct. at 2464); See Rinehart v.
Lehman Bros. Holdings Inc., 817 F.3d 56, 65 (2d Cir.
2016), cert. denied, 137 S. Ct. 1067 (2017) (rejecting
arguments that Dudenhoeffer only applies to claims
concerning market value); Coburn v. Evercore Tr. Co.,
N.A., 844 F.3d 965, 971 (D.C. Cir. 2016) (“Without

61a
preamble, the Supreme Court disposed of the riskbased claims through its broad rule that ‘allegations
that a fiduciary should have recognized from publicly
available information alone that the market was overor undervaluing the stock are implausible as a general
rule.’ ”) (quoting Dudenhoeffer, 134 S.Ct. at 2471).
Although the Fourth Circuit has not specifically
addressed this issue, the Court concludes that the
holding in Dudenhoeffer applies to Plaintiff’s breach of
fiduciary duty claims, even though those claims
appear to be based on aspects of the Plan’s investment
in TEGNA stock other than purely market value. For
these reasons, Plaintiff’s breach of fiduciary duty claim
is implausible absent “special circumstances.”
Plaintiff attempts to distinguish Dudenhoeffer based
on Fourth Circuit precedent. First, Plaintiff relies on
DiFelice, decided before Dudenhoeffer, to argue that
Dudenhoeffer’s “relaxed” fiduciary duty requirements
do not apply to a single-stock fund that was not
employer stock. Pl.’s Opp. Mem. at 2 (“It might be true
of employer stock (absent special circumstances),
which enjoys special treatment under [ERISA] . . . ,
that some duties are relaxed.”). In DiFelice, the
plaintiff, an airline employee, filed an ERISA class
action against the plan’s administrator for breach of
fiduciary duty based on the administrator’s decision to
retain airline stock fund as an investment option in
the U.S. Airways 401(k) plan even though the airline
faced extreme financial hardship. DiFelice, 497 F.3d at
410. In finding that the defendants did not breach
their fiduciary duty, the Fourth Circuit expressed
concern about placing retirement funds in any singlestock fund. Id. at 424 (explaining in dicta that any
single-stock fund carries significant risk and therefore
may be imprudent for ERISA purposes). But in Tatum
5, the Court rejected the argument that non-employer,

62a
single-stock funds are imprudent per se due to the
inherent risk. Tatum 5, 761 F.3d at 360 (“But this per
se approach is directly at odds with our case law and
federal regulations interpreting ERISA’s duty of
prudence.”). The Fourth Circuit reasoned that in
evaluating the prudence of an investment decision,
DiFelice requires a “totality-of-the-circumstances
inquiry that takes into account ‘the character and aim
of the particular plan and decision at issue and the
circumstances prevailing at the time.’ ” Id. (quoting
DiFelice, 497 F.3d at 420). More directly pertinent is
that Dudenhoeffer itself provides that “the same
standard of prudence applies to all ERISA fiduciaries,
including ESOP [employee stock ownership plan]
fiduciaries, except that an ESOP fiduciary is under no
duty to diversity the ESOP’s holding.” Dudenhoeffer,
134 S. Ct. at 2467.
Plaintiff also argues that Tatum 7 takes this case out
from under Dudenhoeffer, since under Tatum 7,
“fiduciaries can rely on the market’s price when
judging a stock’s value but are not excused from
evaluating whether the stock is prudent and in the
best interests of participants.” Pl.’s Opp. Mem. at 11.
In Tatum 7, the plaintiff, an RJR Nabisco (“RJR”)
employee, sued RJR and various RJR committees
following RJR’s “spin-off” of the company’s food
business, Nabisco, from its tobacco business. Tatum 7,
855 F.3d at 553. Before the spin-off, participants in
RJR Nabisco’s retirement plan were able to hold stock
in their retirement accounts in both the RJR Nabisco
Common Stock Fund and the Nabisco Common Stock
Fund. Id. at 556. Afterwards, the RJR Nabisco
Common Stock Fund was divided into two separate
funds which held exclusively Nabisco stock. Id. In
order to avoid holding stock in a soon to be “nonrelated” company, the plan administrator informed

63a
the participants that the Nabisco Funds would be
frozen on the date of the spin-off and divested within
six months. Id. After the spin-off, participants were
able to sell their shares in the Nabisco Funds but could
not make additional investments in that Fund. Id.
Shortly after the spin-off, the Nabisco stock declined
in value. Id. However, two months after divestment
occurred, Nabisco received a bid to take over the
company, which ultimately had the effect of increasing
the price of both companies’ stock. Id. at 557. Plaintiff
claimed that RJR and the committee breached its
fiduciary duties by failing to conduct a thorough
investigation before eliminating Nabisco stock from
the plan at its all-time low, despite the likelihood that
the Nabisco stock prices would recover. Id. The district
court held that none of the alleged losses were caused
by the alleged fiduciary breach because a prudent
fiduciary would have made the same divestment
decision at the same time and in the same manner. Id.
at 556.
On appeal, Tatum 7 only addressed the narrow issue
of loss causation; and affirmed the District Court’s
decision. Tatum 7, 855 F.3d at 566 (finding that
Dudenhoeffer did not directly apply and that a loss
causation analysis “requires consideration of more
than the value of a stock in determining what a
prudent fiduciary would have done”). Nevertheless,
the Fourth Circuit squarely embraced the core
principles in Dudenhoeffer “that a fiduciary is not
required to divest a high-priced stock based on public
information that shows a risk of price decrease[,]” id.
at 565 (citing Dudenhoeffer, 134 S. Ct. at 2471–72);
and that Dudenhoeffer, as applied to the facts of the
case, “teaches that a prudent fiduciary would have
relied on the low market price of the Nabisco stock as
the current value of the stock.” Id. Nothing in Tatum

64a
7
supports
Plaintiff’s
contention
that
the
pronouncements in Dudenhoeffer do not control his
claims.
For the above reasons, Plaintiff has failed to state
facts that make plausible his breach of fiduciary duty
claims absent “special circumstances.” “Special
circumstances” include factors that affect the
“reliability of the market price as an unbiased
assessment of the security’s value in light of all public
information.” Dudenhoeffer, 134 S. Ct. at 2471
(citation and quotation marks omitted).
The Plaintiff does not explicitly allege any “special
circumstances” sufficient to support the contention
that the market price was not an unbiased assessment
of the security’s value. The Complaint, construed
liberally, appears to allege that “special circumstances” exist in light of the volatility of TEGNA stock,
which is alleged to have been approximately 90% more
volatile than the market as a whole. Compl. ¶¶ 6(c),
61. While the Fourth Circuit has not considered
whether facts comparable to those alleged in the
Complaint constitute “special circumstances” under
Dudenhoeffer, others Circuits have and have concluded that they do not, as does this Court in this case.
See Singh v. RadioShack Corp., 882 F.3d 137 (5th Cir.
2018); Rinehart, 817 F.3d at 56; Saumer, 853 F.3d at
855; Coburn v. Evercore Tr. Co., 844 F.3d at 965; Smith
v. Delta Air Lines Inc., 619 F. App’x 874, 876 (11th Cir.
2015); Pfeil v. State St. Bank & Tr. Co. 806 F.3d 377,
386 (6th Cir. 2015). Accordingly, Plaintiff has failed to
allege facts that make plausible that there existed
“special circumstances” that resulted in a breach of
fiduciary duty and his breach of duty of prudence claim
based on publicly available information is dismissed.

65a
2.

Duty to Diversify

Pursuant to 29 U.S.C. § 1104(a)(C), ERISA fiduciaries are required to diversify plan investments “so as
to minimize the risk of large losses, unless under the
circumstances it is clearly prudent not to do so.” “To
enforce these duties, the court focuses not only on the
merits of a transaction, but also on the thoroughness
of the investigation into the merits of that transaction.” DiFelice, 497 F.3d at 418 (quotation marks
and alterations omitted). Moreover, “the duty of
prudence trumps the instructions of a plan document,
such as an instruction to invest exclusively in
employer stock even if financial goals demand the
contrary.” Dudenhoeffer, 134 S. Ct. at 2468. Section
1104(a)(2) exempts an employee-owned stock fiduciary
from “§ 1104(a)(1)(B)’s duty of prudence, but only to
the extent that it requires diversification.” Id.
(quotation marks omitted). Accordingly, “[a]ny person
who is a fiduciary with respect to a plan who breaches
any of the responsibilities, obligations, or duties
imposed upon fiduciaries . . . shall be personally liable
to make good to such plan any losses to the plan
resulting from each such breach.” 29 U.S.C. § 1109(a).
Plaintiff alleges that Defendants breached their duty
to diversify the plan by investing too heavily in the
TEGNA stock. See Compl. ¶¶ 60, 108. Defendants
move for dismissal of Plaintiff’s breach of duty to
diversify claim because the “Plan offered a broad menu
of investment options that was amply diversified.”
Defs.’ Mem in Supp. at 9.
Plaintiff has failed to allege facts that make
plausible any claim that the Plan’s fiduciaries breach
their duties to diversify under ERISA. In effect,
Plaintiff’s claim is not that the Plan failed to offer
investment options sufficient to allow participants to
diversify their investments but rather that the

66a
Defendants were required to force the participants to
diversify their investments. Plaintiff has failed to
allege facts that make that claim plausible. Although
Plaintiff alleges that TEGNA stock comprised 20% of
the total plan’s holding at the time of the spin-off, the
Plan as a whole was comprised of various options for
the participants to select. Here, participants had the
choice to allocate their contributions among different
plan investments, as compared with those plans where
the fiduciaries controlled the allocation of assets
among various options. Cf. Pension Ben. Guar. Corp.
ex rel. St. Vincent Catholic Med. Centers Ret. Plan, 712
F.3d 705 (2d Cir. 2013). Accordingly, Plaintiff’s claim
for breach of duty to diversify will be dismissed.4
3.

Duty to Investigate

The Complaint also alleges that Defendants
breached their fiduciary duty by failing to “conduct an
appropriate investigation of continued investment in
TEGNA common stock.” Compl. ¶ 107. The Complaint
also alleges that that “Defendants did not follow an
appropriate process in evaluating the prudence of
TEGNA common stock . . . [and] did not perform an
4 Relying on DiFelice, Plaintiff argues that the duty to diversify
must be considered individually rather than on the portfolio as a
whole. Pl.’s Opp. Mem. at 14. In DiFelice, on review of the district
court’s application of the “modem portfolio theory,” the Court
determined that the district court correctly determined that a
Company Fund was a prudent option for investment over the
class period. DiFelice, 497 F.3d at 423–24. On review, the Court
noted that “[u]nder ERISA, the prudence of investments or
classes of investments must be judged individually.” Id. at 423
(citation and quotation marks omitted). The Court noted that “the
relevant ‘portfolio’ that must be prudent is each available Fund
considered on its own, including the Company Fund, not the full
menu of Plan funds.” Id. The Court’s conclusions, however, did
not address the duty to diversify, but rather the duty of prudence;
and does not control plaintiff’s failure to diversify claim.

67a
independent review, as they were required to do.” Id.
¶ 63. There are no allegations concerning what
“special circumstances” an investigation would have
uncovered; and Plaintiff has therefore failed to allege
facts that make plausible that any failure to conduct
an adequate investigation caused any harm to the
Plan. See Rinehard v. Lehman Bros. Holdings Inc., 817
F. 3d 56, 67 (2d Cir. 2016) (“[P]laintiffs must allege
facts that, if proved, would have revealed to a
reasonable fiduciary that the investment at issue was
imprudent.”).
B.

Plaintiff fails to allege a Co-fiduciary
liability.

The Court having found that there was no
underlying breach of fiduciary duty as to any of the
Defendants, Count II pursuant to ERISA § 405, 29
U.S.C. § 1105(a) will be dismissed.
IV. CONCLUSION
For the reasons stated above, it is hereby
ORDERED that Defendants’ Motion to Dismiss
[Doc. No. 21] be, and the same hereby is, GRANTED;
and it is further
ORDERED that this action be, and the same hereby
is, DISMISSED.
The Clerk is directed to enter judgment in favor the
Defendant in accordance with Fed. R. Civ. P. 58 and to
forward a copy of this Order to all counsel of record.

68a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
————
No. 19-1212
(1:18-cv-00325-AJT-JFA)
————
CHRISTINA STEGEMANN,
Appellant,
JEFFREY QUATRONE,
on Behalf of Gannett Co., Inc. 401(k) Savings Plan
and all others similarly situated,
Plaintiff-Appellant,
v.
GANNETT COMPANY, INC.;
THE GANNETT BENEFIT PLANS COMMITTEE,
Defendants-Appellees,
and
JOHN AND JANE DOES 1-10,
Defendant.
————
FILED: September 22, 2020
————
CORRECTED ORDER
————
Appellees Gannett Company and the Gannett
Benefit Plans Committee filed a petition for rehearing

69a
en banc, and Appellant Quatrone filed a response in
opposition.
A poll of the court resulted in Chief Judge Gregory,
Judge King, Judge Keenan, Judge Wynn, Judge Diaz,
and Judge Floyd voting to deny rehearing en banc in
this case. Judge Niemeyer, Judge Quattlebaum, and
Judge Rushing voted to grant. Judge Wilkinson, Judge
Motz, Judge Agee, Judge Thacker, Judge Harris,
Judge Richardson were recused and did not
participate.
Accordingly, the petition for rehearing en banc is
denied.
For the Court
/s/ Patricia S. Connor, Clerk

70a
APPENDIX E
STATUTORY PROVISIONS INVOLVED
————
29 U.S.C. § 1002. Definitions
For purposes of this subchapter:
*

*

*

(34) The term “individual account plan” or “defined
contribution plan” means a pension plan which
provides for an individual account for each participant
and for benefits based solely upon the amount
contributed to the participant’s account, and any
income, expenses, gains and losses, and any forfeitures
of accounts of other participants which may be
allocated to such participant’s account.
(35) The term “defined benefit plan” means a
pension plan other than an individual account plan;
except that a pension plan which is not an individual
account plan and which provides a benefit derived
from employer contributions which is based partly on
the balance of the separate account of a participant—
(A) for the purposes of section 1052 of this title,
shall be treated as an individual account plan, and
(B) for the purposes of paragraph (23) of this
section and section 1054 of this title, shall be treated
as an individual account plan to the extent benefits
are based upon the separate account of a participant
and as a defined benefit plan with respect to the
remaining portion of benefits under the plan.
*

*

*

71a
29 U.S.C. § 1104. Fiduciary duties
(a) Prudent man standard of care
(1) Subject to sections 1103(c) and (d), 1342, and
1344 of this title, a fiduciary shall discharge his
duties with respect to a plan solely in the interest of
the participants and beneficiaries and—
(A) for the exclusive purpose of:
(i) providing benefits to participants and their
beneficiaries; and
(ii) defraying
reasonable
administering the plan;

expenses

of

(B) with the care, skill, prudence, and diligence
under the circumstances then prevailing that a
prudent man acting in a like capacity and familiar
with such matters would use in the conduct of an
enterprise of a like character and with like aims;
(C) by diversifying the investments of the plan
so as to minimize the risk of large losses, unless
under the circumstances it is clearly prudent not
to do so; and
(D) in accordance with the documents and
instruments governing the plan insofar as such
documents and instruments are consistent with
the provisions of this subchapter and subchapter
III.
(2) In the case of an eligible individual account
plan (as defined in section 1107(d)(3) of this title),
the diversification requirement of paragraph (1)(C)
and the prudence requirement (only to the extent
that it requires diversification) of paragraph (1)(B) is
not violated by acquisition or holding of qualifying
employer real property or qualifying employer

72a
securities (as defined in section 1107(d)(4) and (5) of
this title).
*

*

*

(c) Control over assets by participant or beneficiary
(1)
(A) In the case of a pension plan which provides
for individual accounts and permits a participant
or beneficiary to exercise control over the assets in
his account, if a participant or beneficiary
exercises control over the assets in his account (as
determined under regulations of the Secretary)—
(i) such participant or beneficiary shall not be
deemed to be a fiduciary by reason of such
exercise, and
(ii) no person who is otherwise a fiduciary
shall be liable under this part for any loss, or by
reason of any breach, which results from such
participant’s or beneficiary’s exercise of control,
except that this clause shall not apply in
connection with such participant or beneficiary
for any blackout period during which the ability
of such participant or beneficiary to direct the
investment of the assets in his or her account is
suspended by a plan sponsor or fiduciary.
(B) If a person referred to in subparagraph
(A)(ii) meets the requirements of this subchapter
in connection with authorizing and implementing
the blackout period, any person who is otherwise a
fiduciary shall not be liable under this subchapter
for any loss occurring during such period.
(C) For purposes of this paragraph, the term
“blackout period” has the meaning given such term
by section 1021(i)(7) of this title.

73a
(2) In the case of a simple retirement account
established pursuant to a qualified salary reduction
arrangement under section 408(p) of Title 26, a
participant or beneficiary shall, for purposes of
paragraph (1), be treated as exercising control over
the assets in the account upon the earliest of—
(A) an affirmative election among investment
options with respect to the initial investment of
any contribution,
(B) a rollover to any other simple retirement
account or individual retirement plan, or
(C) one year after the simple retirement account
is established.
No reports, other than those required under
section 1021(g) of this title, shall be required with
respect to a simple retirement account established
pursuant to such a qualified salary reduction
arrangement.
*

*

*

74a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION
————
Civil Action No. ______
CLASS ACTION
————
JEFFREY QUATRONE on behalf of the GANNETT
CO., INC. 401(k) SAVINGS PLAN and all others
similarly situated,
Plaintiff,
vs.
GANNETT CO., INC., THE GANNETT BENEFIT
PLANS COMMITTEE, and JOHN/JANE DOES 1–10,
Defendants.
————
COMPLAINT
————
Plaintiff Jeffrey Quatrone (“Plaintiff”), on behalf of
the Gannett Co., Inc. 401(k) Savings Plan (the “Plan”
or “Gannett Plan”) and a class of similarly situated
participants in the Plan, brings this action against
Gannett Co., Inc. (“Gannett”), the Gannett Benefit
Plans Committee (“the Committee”), which is the
Plan’s administrator, and the individual members of
the Committee, pursuant to § 502, and alleging
violations of §§ 404, 405, 409, of the Employee
Retirement Income Security Act of 1974 (“ERISA”)
(codified, respectively, at 29 U.S.C. §§ 1132, 1104,
1105, and 1109). Plaintiff alleges the following based

75a
upon the investigation conducted by his counsel,
including, among other things, a review of filings by
Gannett and TEGNA Inc. (“TEGNA”) with the United
States Securities and Exchange Commission and the
United States Department of Labor; press releases
and other public statements issued by Gannett and
TEGNA; analyst reports; and media reports about
Gannett and TEGNA. Plaintiff believes that
substantial additional evidentiary support exists for
the allegations set forth herein after a reasonable
opportunity for discovery.
NATURE OF THE ACTION
AND SUMMARY OF CLAIMS
1. This action concerns TEGNA’s June 29, 2015
(the “date of separation”) spinoff of its publishing
business into a new entity, Gannett, and the failure of
the Plan’s fiduciaries to decrease the Plan’s significant
holdings in TEGNA common stock. Defendants’
decision to concentrate Plan investments in TEGNA
common stock was a breach of their fiduciary duties,
and these breaches have caused the Plan and the Class
approximately $135 million in losses.
2. Plaintiff is a participant in the Plan. He brings
this action concerning the Plan’s investment in the
common stock of TEGNA on behalf of the Plan and a
class of participants in the Plan whose retirement
assets were invested in TEGNA common stock,
including the “TEGNA Stock Fund,” from June 29,
2015 (the “Class Period”).
3. Defendants caused the Plan concentrate
investments in TEGNA common stock (traded on the
New York Stock Exchange under the ticker “TGNA”),
and maintained the TEGNA Stock Fund—an
undiversified fund invested exclusively in TEGNA
common stock—as a Plan investment option, through

76a
at least June 14, 2017 and perhaps longer (whether
the Plan held TEGNA common stock longer will be
determined through discovery or when the Plan’s 2017
financial statements are filed with the Department of
Labor).
4. Defendants’ decision to invest Plan assets so
heavily in a single company’s common stock during the
Class Period was a breach of their duties of loyalty,
prudence, and diversification under ERISA § 404, 29
U.S.C. § 1104.
5. TEGNA common stock is not an “employer
security” as that term is defined under ERISA, and
thus, the investments are not exempt from ERISA’s
diversification requirements.
6. Defendants breached their fiduciary duties by
permitting the Plan to invest in TEGNA common stock
for several reasons, including, but not limited to, the
following:
(a) First, Defendants caused the Plan to be
undiversified by their failure to decrease the Plan’s
substantial holdings of TEGNA common stock
following the separation, thereby subjecting the Plan
and its participants to the risks associated with
being too heavily invested in one company
(“company risk”) and industry (“industry risk”). At
the end of 2015 and 2016, TEGNA common stock
represented over 80% and 74%, respectively, of the
Plan’s total common stock holdings (excluding
Gannett stock)—an imprudent and unnecessary
undiversified risk for the workers and retirees who
depend on the Plan for their retirement savings.
(b) Second, Defendants’ failure to decrease the
Plan’s TEGNA common stock holdings subjected
participants to additional risks because the Plan was
already heavily invested in Gannett common stock

77a
and both TEGNA and Gannett are “consumercyclical” stocks—their performance is heavily
dependent on the business cycle and economic
conditions (“sector” or “cyclical risk”). Thus, Gannett
and TEGNA stock exhibit high correlation. At the
end of 2015 (more than six months following the
separation), the Plan’s TEGNA and Gannett
common stock holdings collectively comprised more
than 26% of the Plan’s total assets (18% was
TEGNA; 8.4% was Gannett).
(c) Third, the imprudence of Defendants in
holding such massive amounts of TEGNA common
stock is further evidenced by the fact that TEGNA is
a volatile stock. Indeed, toward the end of 2015,
TEGNA common stock was approximately 90% more
volatile than the stock market as a whole.
(d) Fourth, to the extent Defendants liquidated
the Plan’s holdings of TEGNA common stock during
2017 (this will not be known until the Plan files its
financial statements with the Department of Labor),
the timing of such liquidation was unreasonable.
Defendants knew long in advance of the date of
separation that TEGNA stock should be sold. The
Plan’s holdings of TEGNA common stock should
have been liquidated on or shortly after the date of
separation.
7. Gannett is liable for the acts of the Committee
in that the Committee and its members were acting
within the scope of their employment with Gannett.
Moreover, Gannett failed to adequately monitor the
Committee and its members to ensure that they were
meeting their fiduciary obligations.
8. Prudent fiduciaries of retirement plans would
not have permitted such a concentrated investment in
the volatile stock of a single company, particularly for

78a
so long. Defendants breached their duties under
ERISA to diversify the Plan’s investments by allowing
the Plan to have an unreasonably high percentage of
its assets invested in TEGNA common stock during
the Class Period.
9. Because of the lack of diversification,
Defendants should have been particularly attentive to
the numerous warning signs that showed TEGNA
stock was an imprudent investment for retirement
assets, but they failed to take action as the price of
TEGNA stock dropped from $20.24 on the day of the
spin-off to its current price of approximately $14. The
Plan’s
overly
concentrated
position
caused
participants to lose over $100 million as the price of
TEGNA stock fell dramatically during the Class
Period.
10. As a result of these breaches, each Defendants
are liable to the Plan for all losses resulting from each
of their breaches of fiduciary duty. Plaintiff also seeks
equitable relief.
JURISDICTION AND VENUE
11. Subject Matter Jurisdiction. This Court has
subject matter jurisdiction over this action pursuant to
28 U.S.C. § 1331 and ERISA § 502(e)(1), 29 U.S.C.
§ 1132(e)(1).
12. Personal Jurisdiction. This Court has personal
jurisdiction over all Defendants because they are all
residents of the United States and ERISA provides for
nation-wide service of process pursuant to ERISA
§ 502(e)(2), 29 U.S.C. § 1132(e)(2).
13. Venue. Venue is proper in this district pursuant
to ERISA § 502(e)(2), 29 U.S.C. § 1132(e)(2), because it
was where the Plan is administered and some or all of

79a
the fiduciary breaches for which relief is sought
occurred.
PARTIES
14. Plaintiff Jeffery Quatrone is a participant in the
Plan within the meaning of ERISA § 3(7), 29 U.S.C.
§ 1102(7), and held shares of TEGNA common stock in
his Plan account during the Class Period. He is a
resident of Phoenix, Arizona. During the Class Period,
the value of the TEGNA common stock held in
Plaintiff’s accounts diminished considerably and
Plaintiff, like thousands of other Plan participants,
suffered losses resulting from Defendants’ breaches of
fiduciary duty.
15. Gannett Co. Inc. is a Delaware Corporation with
its principal place of business in McLean, Virginia.
16. Gannett is a fiduciary because it exercised
discretionary authority or control over management of
the Plan, exercised authority or control over the
management or disposition of Plan assets and/or had
discretionary authority, and because it had
discretionary authority to appoint and monitor Plan
fiduciaries who had authority or control over
management or disposition of Plan assets.
17. The
Committee
is
an
unincorporated
association with a principal place of business in
McLean, Virginia. At all relevant times, the
Committee administered the Plan and was a fiduciary
of the Plan.
18. The Committee is a fiduciary of the Plan within
the meaning of ERISA § 3(21)(A), 29 U.S.C.
§ 1002(21)(A), because it exercised discretionary
authority or control over management of the Plan,
exercised authority or control over the management or
disposition of Plan assets and/or had discretionary

80a
authority to appoint and monitor Plan fiduciaries who
had authority or control over management or
disposition of Plan assets.
19. The Plan’s Summary Plan Description (SPD)
states that the Committee “has full responsibility for
administering the Plan.” See SPD at p. 29. The
Committee’s responsibilities included “[s]upervising
the management of Plan assets…” Id.
20. John/Jane Does 1 through 10, inclusive, are the
individual members of the Committee, and any other
committee(s) responsible for carrying out the
provisions of the Plan or serving as Plan Financial
fiduciary during the Class Period. Their names and
identities are currently not known. Upon information
and belief, one or more of John/Jane Does 1 through 10
are senior executive officers of Gannett and/or TEGNA
who knew or should have known the facts alleged
herein.
THE SPINOFF OF GANNETT
21. On August 5, 2014, TEGNA—which was named
“Gannett Co., Inc.” before the spinoff—announced that
its board of directors had authorized the spin-off of its
publishing segment into a new, independent, publiclytraded company, which would take the Gannett name.
22. TEGNA completed the spinoff on June 29, 2015,
more than ten months later. The result of the spinoff
was two publicly traded companies: (1) TEGNA, which
is a broadcasting and digital company and (2) the new
Gannett—taking the name “Gannett Co., Inc.”
previously used by TEGNA—which is a publishing
company with affiliated digital assets. TEGNA
distributed one common share of Gannett common
stock for every two shares of TEGNA common stock
held by TEGNA stockholders.

81a
23. Because the entities had not traded separately,
the market had not established the relative value of
each of the two separated entities, and therefore, the
price paid by the Plan for TEGNA stock was not, as an
initial matter, set by market forces.
DESCRIPTION OF THE PLAN
24. TEGNA established the Plan in 1990. On June
10, 2015, the Plan was re-stated to make Gannett the
sponsor of the Plan and its related trust effective on
the date of the separation. On the date of the
separation, the Plan held approximately 10.9 million
shares of TEGNA stock valued at approximately
$220.8 million.
25. The Plan is an employee benefit plan within the
meaning of ERISA §§ 3(3) and 3(2)(A), 29 U.S.C.
§§ 1002(3) and 1002(2)(A).
26. The Plan is a “defined contribution” or
“individual account” plan within the meaning of
ERISA § 3(34), 29 U.S.C. § 1002(34) because it
provides individual accounts for each participant and
benefits based upon the amount contributed to the
participant’s account, and any income, expenses, gains
and losses, and any forfeitures of accounts of other
participants which could be allocated to such
participants’ accounts.
27. The Plan’s purpose is “to help (participants)
build a nest egg for (their) retirement.” See SPD at p. 1.
28. The Plan had over 15,000 participants as of
December 31, 2016.
29. At all times since the date of separation, June
29, 2015, the Committee has been responsible for
selecting, monitoring, administering, and removing
the Plan’s investment options.

82a
SUBSTANTIVE ALLEGATIONS
30. Defendants breached their fiduciary duties by
causing the Plan to invest a significant portion of its
assets in TEGNA common stock for an unreasonable
amount of time following the separation.
31. At the time of the separation, the Plan had at
least $220.8 million invested in TEGNA common
stock. This massive, concentrated holding in a singlestock investment option exposed Plan participant to
the risk of large losses that ERISA fiduciaries like the
Committee are under a duty to prevent.
32. At December 31, 2015—more than six months
after the separation—and well over a year after
Defendants knew about the separation—the Plan was
still heavily invested in TEGNA common stock,
owning more than $178 million in TEGNA common
stock. TEGNA common stock was the Plan’s largest
holding by far. The following table summarizes the
Plan’s ten largest common stock holdings as of
December 31, 2015:
Company
TEGNA Inc.
Gannett Co., Inc.
Amazon.com Inc.
Visa Inc.
Facebook Inc.
Apple Inc.
Royal Dutch
Shell Plc (ADRs)
Celgene Corp.
Nike Inc. Cl B
Alphabet Inc.

$178,145,839
$83,142,323
$1,294,329
$1,145,103
$939,847
$827,344

% of common
stock holdings
(including
Gannett stock)
58.56%
27.33%
0.43%
0.38%
0.31%
0.27%

$747,918

0.25%

$720,716
$694,625
$694,375

0.24%
0.23%
0.23%

Vale [sic] as of
12/31/15

83a
33. To put the Plan’s December 31, 2015 holdings of
TEGNA common stock in perspective, other than
Gannett and TEGNA, the Plan held only
approximately $42.9 million in the common stock of all
other companies in the world. Accordingly, as of
December 31, 2015, the value of the Plan’s TEGNA
common stock holdings was 415% greater than
the value of all other non-company stock
combined.
34. By the end of 2015, TEGNA common stock
made up over 80.6% of the Plan’s total nonGannett common stock holdings. To put this
concentration into perspective, other non-company
stocks made up on average only 0.18% of total common
stock holdings. The next largest non-Company stock,
Amazon common stock, made up only 0.43% of total
non-Company common stock holdings.
35. More than eighteen months after the
separation, the Plan still held a massive amount of
TEGNA common stock—more than $115 million.
Although the value of the Plan’s TEGNA common
stock holdings decreased over 2016, a large portion of
this decrease was caused by the share price’s 16%
decrease during 2016 rather than liquidation. The
following table summarizes the Plan’s ten largest
common stock holdings as of December 31, 2016:

84a
Company
TEGNA Inc.
Gannett Co., Inc.
Visa Inc.
Apple Inc.
Amazon.com.
JPMorgan Chase
& Co.
Voya Fin’l Inc.
Royal Dutch
Shell Plc (ADRs)
Citigroup Inc.
Morgan Stanley

$115,658,682
$64,955,403
$904,720
$887,181
$873,599

% of common
stock holdings
(Inc. Gannett
stock)
52.15%
29.29%
0.41%
0.40%
0.39%

$848,403

0.38%

$817,188

0.37%

$756,383

0.34%

$746,560
$714,617

0.34%
0.32%

Value as of
12/31/16

36. To put the Plan’s December 31, 2016 holdings of
TEGNA common stock in perspective, other than
Gannett and TEGNA, the Plan held approximately
$41.2 million in common stock. Thus, as of December
31, 2016, the value of the Plan’s TEGNA common
stock holdings was 281% greater than the value
of all other non-company stock combined.
37. TEGNA common stock made up over
73.75% of the Plan’s total non-Gannett common
stock holdings. To put this concentration into
perspective, other non-company stocks made up on
average only 0.25% of total common stock holdings.
The next largest non-Company stock holding, Visa
common stock, made up only 0.41% of total nonCompany common stock holdings.
38. The following table summarizes relevant Plan’s
holdings at the end of 2015 and 2016.

85a
Value of:
12/31/15
12/31/16
TEGNA common stock
$178,145,839 $115,658,682
holdings
Other non-Gannett
$42,917,175 $41,173,623
common stock (combined)
Average of other non$401,095
$399,744
Company stock holdings
39. The sheer size of the Plan’s holdings in TEGNA
common stock was unreasonable by any measure.
40. According to Morningstar, out of all mutual
funds available in the market, the fund with the
highest concentration of TEGNA stock was the Cove
Street Capital Small Cap Value Fund, which held only
5.8% of TEGNA stock as of December 31, 2017.1
41. Thus, the fact that the Plan as of December 31,
2015 owned almost three times the concentration of
TEGNA stock as the concentrated fund with largest
holdings of TEGNA (in relation to total assets) was
plainly imprudent for the investment of retirement
asset.
42. The Plan’s concentrated position in TEGNA,
which represented more than 20% of the Plan’s
holdings at the time of the separation, exposed it to
more “company risk” than undiversified mutual funds
who concentrate investments in the common stock of
companies in the media industry. For example, the
largest holding of the TRowe Price Media &
Telecommunications Fund, a fund which focuses “in
the common stock of companies engaged in any facet
of media and telecommunications,” was less than 11%
of the fund’s portfolio as of December 31, 2017.
Likewise, Reliance Media & Entertainment Fund’s
1 http://covestreetfunds.com/wp-content/uploads/2018/01/CSCQ4-2017-Shareholder-Letter.pdf.

86a
largest investment only represented 13% of its
portfolio as of December 31, 2017. The Plan’s purpose
is to provide participants with retirement income and
should not have held a more-concentrated position in
one company’s stock than non-diverse, sector-specific
mutual funds.
43. The Plan’s investment in TEGNA was also
grossly disproportionate compared to Gannett’s
defined benefit plan, the “Gannett Retirement Plan”
(the “DB Plan”), which the Committee also
administers. The Plan, a defined contribution plan in
which the risk of loss is borne by participants, had
more than 20% of its assets invested in TEGNA stock
at the time of the separation and a 15.8% and 10.7%
concentration at the end of 2015 and 2016,
respectively. In contrast, the DB Plan, for which
Gannett bears the risk of loss, had only 1.8% and 1.7%
of its assets invested in TEGNA stock at the end of
2015 and 2016, respectively.
44. Additionally,
the
Gannett
Plan
held
significantly more TEGNA common stock than
TEGNA’s own 401(k) Plan. At December 31, 2015 and
2016, the TEGNA 401(k) Plan held only $66.5 million
and $58.6 million, respectively. The following table
summarizes the Plan’s TEGNA common stock
holdings in comparison to the TEGNA 401(k) plan:
Value of TEGNA
12/31/15
12/31/16
common stock
in Gannett 401(k) Plan ($) $178,145,839 $115,658,682
in TEGNA 401(k) Plan ($) $66,457,269 $58,592,890
45. Defendants knew about the substantial risk of
this lack of diversification. Indeed, the Plan’s own
auditor warned that the Plan’s TEGNA holdings

87a
created concentration risk. According to the Plan’s
2015 financial statements:
The fair value of the Plan’s investment in
Gannett’s and TEGNA’s stock as of December 31,
2015 was approximately $83.1 million and $178.1
million, respectively, which exposes the plan
to concentration risk. (Emphasis added.)
46. The following year, the Plan’s auditor again
warned about the risk created by the large TEGNA
common stock holdings. According to the Plan’s 2016
financial statements:
The fair value of the Plan’s investment in
Gannett’s and TEGNA’s stock as of December 31,
2016 was approximately $65.0 million and $115.7
million, respectively, which exposes the Plan
to concentration risk. (Emphasis added.)
47. Moreover, because of the concentration risk
created by the Plan’s excessive holdings of TEGNA
common stock, management for TEGNA and Gannett
mandated in June 2015 that Defendants liquidate
the Plan’s TEGNA holdings. In connection with the
separation, TEGNA and Gannett executed an
Employee Matters Agreement, which stated in
relevant part:
After the [date of separation], all outstanding
investments in the [TEGNA stock fund] under the
[Gannett] Plan shall be liquidated and
reinvested in other investment funds offered
under the [Gannett Plan], on such dates and in
accordance with such procedures as are
determined by the [Committee]. (Emphasis
added.)

88a
48. The Plan’s excessive holdings in TEGNA was
costly to participants. For example, the following chart
demonstrates the significant decline in the value of
TEGNA common stock from the date of separation
through the end of 2015.

49. Between the date of the separation through the
end of 2015, the price of TEGNA stock fell $3.91 or
19.3%, causing the Plan losses of approximately $42.6
million (the difference between $220,750,729 and
$178,145,839).
50. During 2016, TEGNA common stock’s poor
performance continued, losing another $2.64 per
share. Thus, from the date of separation through the
end of 2016, TEGNA stock fell $6.55 or 32.3%.
51. The Plan’s 2016 financial statements imply that
at year end the Plan held approximately 8.5 million
shares of TEGNA common stock and thus that the
Plan liquidated approximately 2.5 million shares.
However, even if those shares were sold on January 1,

89a
2016, the Plan’s TEGNA common stock holdings
caused the Plan losses of approximately $22.3 million.
52. Accordingly, over the eighteen months between
the separation and the end of 2016, the Plan’s TEGNA
common stock holding had lost approximately $65
million.
53. Since 2016, TEGNA common stock has traded
relatively flat, closing at approximately $13.97 on
February 20, 2018.
54. TEGNA common stock has significantly
underperformed the market since the date of
separation. Since June 29, 2015, the price of TEGNA
common stock has declined approximately 31%
while during that same time period the S&P index
(SPX) has increased approximately 32%.
55. The following chart demonstrates the
substantial performance disparity between TEGNA
common stock (lower line) and the broader domestic
stock market, as measured by the S&P 500 (upper line)
since the date of separation.

90a
56. Had the $220 million invested in TEGNA
common stock at the time of separation instead been
invested in an investment that performed similarly to
the S&P 500 index, that investment would have
yielded over $70 million rather than losing
approximately $65 million.
57. Based on its size, the Plan could have invested
in any one of a number of mutual funds, collective
investment trusts, and exchanged traded funds that
would have largely mirrored the performance of the
S&P 500 Index.
58. Accordingly, Defendants’ fiduciary breaches
have caused the Plan and the Class losses of
approximately $135 million.
59. The following table summarizes the Plan’s
current estimated monetary losses2 caused by
Defendants’ breaches:

2 Plaintiff reserves his right to amend his monetary loss
estimate.

91a
Period

Share Decline ($)

Estimated Losses
10,909,114 shares
6/29$20.24 – $16.33 = $3.91
x 3.91
12/31/15
= ($42,654,638)
8,448,406 shares
1/1$16.33 – $13.69 = $2.64
x 2.64
12/31/16
= ($22,303,793)
Total Losses of Plan’s TEGNA
($64,958,430)
common stock holdings
Estimated earnings if assets had
instead been invested in market$70,640,234
performing investment
$220,750,730 x 32% =
TOTAL MONETARY LOSSES

$135,598,664

60. The overly concentrated position in TEGNA
common stock should have been a red flag to the
Defendants that they needed to diversify the Plan’s
assets in order to avoid the risk of large losses and
ensure the Plan’s assets were invested prudently.
Defendants, however, failed to independently assess
and monitor the Plan’s holdings of TEGNA common
stock to ensure they were prudent and that the Plan
was reasonably diversified.
61. Additionally, according to its beta, TEGNA
common stock was significantly more volatile, and
thus riskier, than other more-suitable investments.
Beta is a measure of a stock’s volatility in comparison
to the volatility of the market as a whole. It is
calculated by dividing the covariance of the security’s
returns and the benchmark’s returns by the variance
of the benchmark’s returns. By definition, the market
has a beta of 1.0, and individual stocks are ranked
according to how much they deviate from the market.

92a
A stock that swings more than the market over time
has a beta above 1.0. If a stock moves less than the
market, the stock’s beta is less than 1.0. High-beta
stocks are supposed to be riskier but provide a
potential for higher returns; low-beta stocks pose less
risk but also lower returns.
62. At the time of separation, the beta for TEGNA
common stock was 1.455 meaning TEGNA was 45.5%
more volatile than the stock market. This risk
increased toward the end of 2015 when the beta
increased to approximately 1.909, meaning TEGNA
was 90.9% more volatile than the stock market.
63. Defendants caused the Plan to hold massive
holdings of TEGNA common stock through at least the
end of 2016 and perhaps longer, because Defendants
did not follow an appropriate process in evaluating the
prudence of TEGNA common stock and the
diversification of Plan investment options. Defendants
did not perform an independent review, as they were
required to do, and their failures cost the Plan
participants millions of dollars.
64. TEGNA common stock was not a “qualifying
employer security” for the Plan. ERISA § 404(a)(2), 29
U.S.C. § 1104(a)(2), provides that ERISA’s duties of
prudence and diversification are not violated “by
acquisition or holding of . . . qualifying employer
securities.”
65. As of the date of separation, however, TEGNA
stock was not a “qualifying employer security” with
respect to the Plan.
66. ERISA § 3(5), 29 U.S.C. § 1002(5) defines
“employer” as “any person acting directly as an
employer, or indirectly in the interest of an employer,
in relation to an employee benefit plan.”

93a
67. ERISA § 407(d)(1), 29 U.S.C. 1107(d)(1), defines
“employer security” as a “security issued by an
employer of employees covered by the plan, or by an
affiliate of such employer.” Under ERISA, a
“qualifying employer security” is an “employer
security” that is either a stock, a marketable obligation
(e.g., a bond) or an interest in a publicly traded
partnership. See ERISA § 407(d)(5), 29 U.S.C.
§ 1107(d)(5).
68. Gannett and TEGNA have been independent
companies since they separated in 2015. The
companies have separate defined contribution
retirement plans covering their own employees.
69. TEGNA’s employees are not eligible to
participate in the Plan. See SPD at p. 2. As part of the
Separation, the Plan transferred the account balances
for current and former employees of TEGNA to the
“TEGNA 401(k) Savings Plan.” “As of the transfer
date, employees of TENGA, Inc. and its affiliates
ceased participating it the Plan.” See Plan’s 2015 11-k
at p. 5.
70. TEGNA has not paid Plan participants’ wages,
made contributions to the Plan or otherwise acted in
Gannett’s interests concerning the Plan since
Separation. Accordingly, TEGNA is not an “employer”
for the Plan.
71. TEGNA was also not an “affiliate” of Gannett
after the Separation. Under ERISA § 407(d)(7), 29
U.S.C. § 1107(d)(7), a corporation is an “affiliate” of an
employer if it is a member of a “controlled group of
corporations,” a term defined as when a parent
corporation owns stock possessing at least 50% of the
subsidiary’s voting power or when five or fewer
individuals, estates or trusts own stock possessing at
least 50% of each corporation’s voting power. Id. (citing

94a
26 U.S.C. § 1563). After the separation, TEGNA and
Gannett were both independent, publicly traded
companies. TEGNA is also not among the
“Participating Affiliates” listed in the SPD. See SPD at
p. 32. Accordingly, the companies have not been
“affiliates” since the separation.
72. As TEGNA was not an “employer” or an
“affiliate” for the Plan after the Separation, TEGNA
stock was not a “qualifying employer security.”
Defendants did not classify TEGNA stock as an
“employer security” in either 2015 or 2016 on the
Plan’s financial statements.
73. Defendants had a continuing duty to assess the
appropriateness of the Plan’s holdings of TEGNA
common stock and the TEGNA Stock Fund under
Tibble v. Edison International, 135 S. Ct. 1823 (2015).
As alleged above, Defendants breached their fiduciary
duties by allowing the Plan to continue to hold and
invest in the TEGNA common stock and the TEGNA
Stock Fund.
74. ERISA requires prudent fiduciaries to diversify
the plan’s investments “so as to minimize the risk of
large losses, unless under the circumstances it is
clearly prudent not to do so.” See ERISA § 404(a)(1)(C)
[29 U.S.C. § 1104(a)(1)(C)]. ERISA’s legislative history
indicates that a fiduciary should not invest an
“unreasonably large percentage” of plan assets in a
“single security,” in “one type of security,” or in
“various types of securities that are dependent upon
success of one enterprise or upon conditions in one
locality.” See ERISA Conference Report on H.R. 2, H.R.
Rep. No. 1280, 93d Cong., 2d Sess. 300, 304 (Aug. 12,
1974).
75. Because the value of any single stock is tied to
the fortunes of one company, holding a single stock is

95a
unduly risky. By contrast, investors who hold a diverse
portfolio of stocks and bonds face less risk because they
have only a small stake in each company. See N.
Gregory Mankiw, Principles of Economics 546 (1998);
DiFelice v. U.S. Airways, Inc., 497 F.3d 410, 415 (4th
Cir. 2007); Steinman v. Hicks, 352 F.3d 1101, 1104
(7th Cir. 2003).
76. Defendants recognized the importance of
diversification. The SPD states that “[s]preading your
assets among different types of investments can help
(participants) achieve a favorable rate of return, while
minimizing (participants’) overall risk of losing
money.” See SPD at p. 13. According to the SPD,
retirement savings are not “properly diversified” if
more than 20% are invested “in any one company or
industry…” Id.
77. Even a 20% concentration in any one company
or industry was excessively risky. Under ERISA, the
benchmark for the amount of a single security that a
retirement plan should own is only 10%, not 20%, as
set forth in ERISA 407(a)(2), 29 U.S.C. § 1107(a)(2).
78. Defendants permitted the Plan to invest far too
much in TEGNA stock, as alleged above. As further
alleged above, when combined with the Gannett stock
held by the Plan, the holding of TEGNA stock was even
more egregiously undiversified because the two
securities are in the same industry.
79. Because of the Plan’s concentrated position in
TEGNA common stock, numerous other red flags
during the relevant period should have demonstrated
to Defendants that the Plan should no longer be
invested in TEGNA stock.
80. During 2015 several investment banks
downgraded and/or were bearish about TEGNA
common stock. For example, Evercore downgraded

96a
TEGNA to a “Hold” in July and Jefferies did so in
August.
81. In 2016, several other investment banks
likewise downgraded their views on the prospects of
TEGNA’s common stock. For example, Barclays
downgraded TEGNA to “Underweight” in April and JP
Morgan downgraded to Neutral in November.
82. Based on the negative outlook on TEGNA
common stock, a prudent and loyal fiduciary would
have reviewed the Plan’s significant holdings of
TEGNA common stock as part of any review and
liquidated or significantly reduced such holdings from
the Plan if it had not already done so.
83. Given these risks, coupled with the lack of
diversification, Defendants failed to take action that a
prudent fiduciary would have taken to stop these
losses, and the risk of future large loss, that Plan
participants were or could be suffering. Defendants did
not liquidate the Plan’s holdings of TEGNA common
stock or remove the TEGNA Stock Fund as a Plan
investment or otherwise act to save the Plan from
losing millions of dollars in hard-earned retirement
savings.
84. Unfortunately, the Defendants’ breach of their
fiduciary duties caused the Plan and its participants
to suffer millions of dollars in losses.
DEFENDANTS’ FIDUCIARY DUTIES
85. Under ERISA, those responsible for the
management and operation of a plan are fiduciaries
and these fiduciaries owe participants the highest
duties known to law. These duties include, among
others, the duty of loyalty, the duty of prudence, the
duty of diversification, and the duty to monitor. See
ERISA § 404, 29 U.S.C. § 1104.

97a
86. Duty of Loyalty. Under ERISA § 404(a)(1)(A)(i)
29 U.S.C. § 1104(a)(1)(A), “a fiduciary shall discharge
his duties with respect to a plan solely in the
interest of the participants and beneficiaries
and . . . for the exclusive purpose of . . . providing
benefits to participants and their beneficiaries.”
(emphasis added). Thus, a fiduciary must act with one
and only one purpose and must act to further one and
only one interest. This is often called the “exclusive
benefit rule.”
87. Duty of Prudence. Under ERISA § 404(a)(1)(B),
29 U.S.C. § 1104(a)(1)(B), “a fiduciary shall discharge
his duties with respect to a plan solely in the interest
of the participants and beneficiaries and . . . with the
care, skill, prudence, and diligence under the
circumstances then prevailing that a prudent man
acting in a like capacity and familiar with such
matters would use in the conduct of an enterprise of a
like character and with like aims.” (emphasis added).
88. Duty of Diversification. Under ERISA
§ 404(a)(1)(C), 29 U.S.C. § 1104(a)(1)(C), “a fiduciary
shall discharge his duties with respect to a plan solely
in the interest of the participants and beneficiaries
and . . . by diversifying the investments of the plan so
as to minimize the risk of large losses, unless under
the circumstances it is clearly prudent not to do so.”
89. Duty to Monitor. In addition to the duty to
prudently select investments, a fiduciary has “a
continuing duty of some kind to monitor investments
and remove imprudent ones” and “a plaintiff may
allege that a fiduciary breached the duty of prudence
by failing to properly monitor investments and remove
imprudent ones.” Tibble v. Edison Int’l, 135 S. Ct.
1823, 1829 (2015).

98a
DEFENDANTS WERE FIDUCIARIES
90. ERISA requires that every plan name one or
more fiduciaries who have “authority to control and
manage the operation and administration of the plan.”
ERISA § 402(a)(1), 29 U.S.C. § 1102(a)(1).
91. ERISA treats as fiduciaries not only persons
explicitly named as fiduciaries under § 402(a)(1), 29
U.S.C. § 1102(a)(1), but also any other persons who
perform fiduciary functions for a retirement plan. A
person or entity is considered a fiduciary to the extent:
(i) he exercises any discretionary authority or
discretionary control respecting management of
such plan or exercises any authority or control
respecting management or disposition of its
assets,
(ii) he renders investment advice for a fee or other
compensation, direct or indirect, with respect to
any moneys or other property of such plan, or has
any authority or responsibility to do so, or
(iii) he has any discretionary authority or
discretionary responsibility in the administration
of such plan.
ERISA § 3(21)(A)(i)
§ 1002(21)(A)(i)].

[codified

at

29

U.S.C.

92. Each of the Defendants was a fiduciary during
the Class Period within the meaning of ERISA
§ 3(21)(A)(i) [29 U.S.C. § 1002(21)(A)(i)] as either a
named or a de facto fiduciary with respect to the Plan,
and each owed fiduciary duties to the Plan and its
participants under ERISA.
93. The Committee is a fiduciary of the Plan within
the meaning of ERISA § 3(21)(A), 29 U.S.C.
§ 1002(21)(A), because it exercised discretionary

99a
authority or control over management of the Plan. In
particular, it had the fiduciary duty to select and
monitor Plan investment options, including the
TEGNA stock fund.
94. Gannett is a fiduciary because it had the duty to
monitor the Committee to ensure that it was properly
meeting its fiduciary duties. It is also a fiduciary
because it is responsible for the acts of the Committee
and its members who were acting within the scope of
their employment.
CLASS-ACTION ALLEGATIONS
95. Plaintiff brings this action derivatively on the
Plan’s behalf pursuant to ERISA §§ 409 and 502, 29
U.S.C. §§ 1109 and 1132, and as a class action
pursuant to Rules 23(a), (b)(1), and/or (b)(2) of the
Federal Rules of Civil Procedure on behalf of the Plan,
Plaintiff, and the following class of similarly situated
persons (the “Class”):
All persons, except Defendants and their
immediate
family
members,
who
were
participants in or beneficiaries of the Gannett Co.,
Inc. 401(k) Savings Plan at any time from June
29, 2015, inclusive (the “Class Period”), and whose
Plan accounts included investments in TEGNA
common stock (including the TEGNA Stock
Fund).
96. The members of the Class are so numerous that
joinder of all members is impracticable. While the
exact number of Class members is unknown to
Plaintiff at this time, and can only be ascertained
through appropriate discovery, the Plan had over
15,000 participants at the end of 2016. Accordingly,
Plaintiff believes there are thousands of Plan
participants
whose
Plan
accounts
included

100a
investments in the TEGNA common stock during the
Class Period.
97. Multiple questions of law and fact common to
the Class exist, including:
(a) whether Defendants each owed a fiduciary duty
to the Plan, Plaintiff, and members of the Class;
(b) whether Defendants failed to discharge their
duties with respect to a plan solely in the interest of
the participants and beneficiaries and for the
exclusive purpose of providing benefits to
participants and their beneficiaries;
(c) whether Defendants failed to discharge their
duties with respect to a plan solely in the interest of
the participants and beneficiaries with care, skill,
prudence, and diligence;
(d) whether Defendants failed to discharge their
duties with respect to a plan solely in the interest of
the participants and beneficiaries by diversifying the
investments of the plan so as to minimize the risk of
large losses (unless under the circumstances it is
clearly prudent not to do so);
(e) whether Defendants failed to discharge their
duties with respect to a plan solely in the interest of
the participants and beneficiaries by monitoring
investments and removing imprudent ones;
(f) whether the Plan’s massive holdings in TEGNA
stock were imprudently undiversified;
(g) whether TEGNA stock qualified as an
Employer Security for purposes of exempting the
Plan’s holdings in TEGNA stock from the duty to
diversity under ERISA § 404;
(h) whether Defendants otherwise violated ERISA;
and

101a
(i) whether the Plan, Plaintiff, and members of the
Class have sustained damages and, if so, what is the
proper measure of damages.
98. Plaintiff’s claims are typical of the claims of the
members of the Class because the Plan, Plaintiff, and
the other members of the Class each sustained
damages arising out of Defendants’ uniform wrongful
conduct in violation of ERISA as complained of herein.
99. Plaintiff will fairly and adequately protect the
interests of the Plan and members of the Class because
they have no interests antagonistic to or in conflict
with those of the Plan or the Class. In addition,
Plaintiff has retained counsel skilled and experienced
in class-action litigation, complex litigation, and
ERISA litigation.
100. Class action status in this ERISA action is
warranted under Rule 23(b)(1)(B) because prosecution
of separate actions by the members of the Class would
create a risk of adjudications with respect to individual
members of the Class which would, as a practical
matter, be dispositive of the interests of the other
members not parties to the actions, or substantially
impair or impede their ability to protect their
interests.
101. Class action status is also warranted under
Rule 23(b)(1)(A) and (b)(2) because: (i) prosecution of
separate actions by the members of the Class would
create a risk of establishing incompatible standards of
conduct for Defendants; and (ii) Defendants have acted
or refused to act on grounds generally applicable to the
Class, thereby making appropriate final injunctive,
declaratory, or other appropriate equitable relief with
respect to the Class as a whole.

102a
CAUSES OF ACTION
COUNT I
Breaches of Fiduciary Duties
Violations of ERISA §§ 404 and 409
[29 U.S.C. §§ 1104 and 1109]
102. Plaintiff incorporates by reference
allegations in the preceding paragraphs.

the

103. During the Class Period, the Defendants were
named fiduciaries pursuant to ERISA § 402(a)(1) [29
U.S.C. § 1102(a)(1)], or de facto fiduciaries within the
meaning of ERISA § 3(21)(A) [29 U.S.C. § 1002(21)(A)],
or both.
104. Defendants breached their fiduciary duties by
wrongfully allowing the Plan to hold massive amounts
of TEGNA common stock.
105. The scope of the Defendants’ fiduciary duties
and responsibilities included managing the assets of
the Plan for the sole and exclusive benefit of
participants and beneficiaries and with the care, skill,
diligence, and prudence required by ERISA.
Defendants were responsible for, among other things,
selecting and offering only prudent investment
options, eliminating imprudent options, evaluating
the merits of the Plan’s investments on an ongoing
basis, administering the operations of the Plan and
taking all necessary steps to ensure that the Plan’s
assets were diversified and invested prudently.
106. According to Department of Labor regulations
and cases interpreting this statutory provision, a
fiduciary’s investment or investment course of action
is prudent if he has: (a) given appropriate
consideration to those facts and circumstances that,
given the scope of such fiduciary’s investment duties,
the fiduciary knows or should know are relevant to the

103a
particular investment or investment course of action
involved, and (b) acted accordingly.
107. Defendants had a duty to follow a regular,
appropriate systematic procedure to evaluate TEGNA
common stock as investments in the Plan. They
breached that duty and failed to conduct an
appropriate investigation of continued investment in
TEGNA common stock.
108. As alleged above, Defendants breached their
fiduciary duties by failing to diversify Plan
investments. Defendants were bound by the duty to
diversify the Plan’s investments “so as to minimize the
risk of large losses, unless under the circumstances it
is clearly prudent not to do so.” See ERISA
§ 404(a)(1)(C), 29 U.S.C. § 1104(a)(1)(C).
109. Despite the power and ability to do so,
Defendants took no actions to diversify the Plan’s
assets and reduce the Plan’s risky investment in
TEGNA common stock. Defendants’ failure to properly
diversify the Plan’s assets caused the Plan to suffer
tens of millions of dollars in losses during the Class
Period.
110. Additionally, Defendants failed to act prudently
when they caused the Plan to continue to hold
significant amounts of TEGNA common stock and to
offer the TEGNA Stock Fund as Plan investment
options because, among other reasons:
(a) they knew or failed to understand that TEGNA
stock was not a qualifying employer security;
(b) they knew of and/or failed to investigate
TEGNA; and;
(c) the risk associated with the investment in
TEGNA common stock during the Class Period was

104a
by far above and beyond the normal, acceptable risk
for retirement plan investments.
111. Moreover, to the extent any members of the
Committee were employees or directors of TEGNA or
were also on the Committee of a TEGNA retirement
plan during the Class Period, such a dual role would
create conflicts of interest that cause such members to
breach their duties of loyalty to Gannett Plan
participants.
112. Gannett breached its fiduciary duty to monitor
the Committee in that it failed to ensure that the
Committee followed its fiduciary duties concerning the
Plan’s investment in TEGNA stock.
113. Pursuant to ERISA §§ 409, 502(a)(2) and (a)(3),
29 U.S.C. §§ 1109, 1132(a)(2) and (a)(3), Defendants
are liable to restore the losses to the Plan caused by
their breaches of fiduciary duties alleged in this Count
and to provide other equitable relief as appropriate.
COUNT II
Co-Fiduciary Liability
Violations of ERISA § 405 [29 U.S.C. § 1105]
114. Plaintiff incorporates by reference
allegations in the preceding paragraphs.

the

115. ERISA § 405(a), 29 U.S.C. § 1105(a), imposes
liability on a fiduciary, in addition to any liability
which he may have under any other provision, for a
breach of fiduciary responsibility of another fiduciary
with respect to the same plan if he knows of a breach
and fails to remedy it, knowingly participates in a
breach, or enables a breach. Defendants breached all
three provisions.
116. ERISA § 405(a)(3), 29 U.S.C. § 1105(a)(3),
imposes co-fiduciary liability on a fiduciary for a
fiduciary breach by another fiduciary if he has

105a
knowledge of a breach by the other fiduciary, unless he
makes reasonable efforts under the circumstances to
remedy the breach. As alleged above, each Defendant
knew of the breaches by the other fiduciaries and made
no efforts, much less reasonable effort, to remedy those
breaches.
117. The Committee and its individual members
were the administrators of the Plan.
118. ERISA § 405(a)(1), 29 U.S.C. § 1105(a)(1),
imposes liability on a fiduciary for a breach of fiduciary
responsibility of another fiduciary with respect to the
same plan if he participates knowingly in, or
knowingly undertakes to conceal, an act or omission of
such other fiduciary, knowing such act or omission is
a breach. Defendants knowingly participated in each
other’s breaches because, as alleged above, they
participated in the management of the Plan’s improper
investment in TEGNA common stock and, upon
information and belief, knowingly participated in the
improper management of those investments by the
other Defendants.
119. ERISA § 405(a)(2), 29 U.S.C. § 1105(a)(2),
imposes liability on a fiduciary if, by failing to comply
with ERISA § 404(a)(1), 29 U.S.C. § 1104(a)(1), in the
administration of his specific responsibilities which
give rise to his status as a fiduciary, he has enabled
another fiduciary to commit a breach.
120. As a direct and proximate result of these
breaches of fiduciary duties, the Plan, and indirectly
Plaintiff and other participants and beneficiaries, lost
millions of dollars of retirement savings.
121. Pursuant to ERISA §§ 409, 502(a)(2) and (a)(3),
29 U.S.C. §§ 1109, 1132(a)(2) and (a)(3), each of the
Defendants is liable to restore the losses to the Plan

106a
caused by his or her breaches of the fiduciary duties
and to provide other equitable relief as appropriate.
CAUSATION
122. The Plan suffered millions of dollars in losses
because Plan assets were imprudently invested
TEGNA common stock in breach of the Defendants’
fiduciary duties.
123. Had the Defendants properly discharged their
fiduciary duties and/or their co-fiduciary duties, the
Plan and its participants would have avoided a
substantial portion of the losses suffered through the
Plan’s continued investment in TEGNA common stock.
Defendants should have liquidated (or significantly
reduced) the Plan’s holdings in TEGNA common stock
within a short period following the separation.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff prays for:
A. A Declaration that the Defendants have
breached their ERISA fiduciary duties to the
participants;
B. An Order compelling the Defendants to make
good to the Plan all losses to the Plan resulting from
their breaches of their fiduciary duties, including loss
of vested benefits to the Plan resulting from imprudent
investment of the Plan’s assets; to restore to the Plan
all profits Defendants made through use of the Plan’s
assets; and to restore to the Plan all profits which the
Plan and participants would have made if Defendants
had fulfilled their fiduciary obligations;
C. An Order enjoining each of the Defendants from
any further violations of their ERISA fiduciary
obligations;

107a
D. An Order requiring Defendants to appoint one
or more independent fiduciaries to participate in the
management of the Plan’s investments;
E. Actual damages in the amount of any losses the
Plan suffered, to be allocated among the participants’
individual accounts in proportion to the accounts’
losses;
F. An Order awarding costs pursuant to 29 U.S.C.
§ 1132(g);
G. An Order awarding attorneys’ fees pursuant to
the common fund doctrine, 29 U.S.C. § 1132(g), and
other applicable law; and
H. An Order for equitable restitution and other
appropriate equitable and injunctive relief against all
Defendants.
DATED: March 22, 2018

Respectfully Submitted,
/s/ Gregory Y. Porter
Gregory Y. Porter (VA
Bar. No. 40408)
Mark G. Boyko (to be
admitted pro hac vice)
BAILEY & GLASSER LLP
1054 31st Street, NW,
Suite 230
Washington, DC 20007
(202) 463-2101
(202) 463-2103 fax
gporter@baileyglasser.com
mboyko@baileyglasser.com
Robert A. Izard (to be
admitted pro hac vice)
Mark P. Kindall (to be
admitted pro hac vice)

108a
Douglas P. Needham (to be
admitted pro hac vice)
IZARD, KINDALL &
RAABE, LLP
29 South Main Street,
Suite 305
West Hartford, CT 06107
(860) 493-6292
(860) 493-6290 fax
rizard@ikrlaw.com
mkindall@ikrlaw.com
dneedham@ikrlaw.com
Attorneys for Plaintiff

109a
APPENDIX G
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION
————
Civil Action No. 1:18-cv-00325-AJT-JFA
CLASS ACTION
————
CHRISTINA STEGEMANN, on behalf of the
GANNETT CO., INC. 401(k) SAVINGS PLAN
and all others similarly situated,
Plaintiff,
vs.
GANNETT CO., INC. and THE GANNETT
BENEFIT PLANS COMMITTEE,
Defendants.
————
AMENDED COMPLAINT
————
Plaintiff Christina Stegemann (“Plaintiff”), on
behalf of the Gannett Co., Inc. 401(k) Savings Plan
(the “Plan” or “Gannett Plan”) and a class of similarly
situated participants in the Plan, brings this action
against Gannett Co., Inc. (“Gannett”) and the Gannett
Benefit Plans Committee (“the Committee”), which is
the Plan’s administrator, pursuant to § 502, and
alleging violations of §§ 404, 405, 409, of the Employee
Retirement Income Security Act of 1974 (“ERISA”)
(codified, respectively, at 29 U.S.C. §§ 1132, 1104,
1105, and 1109). Plaintiff alleges the following based
upon the investigation conducted by his counsel,

110a
including, among other things, a review of filings by
Gannett and TEGNA Inc. (“TEGNA”) with the United
States Securities and Exchange Commission and the
United States Department of Labor; press releases
and other public statements issued by Gannett and
TEGNA; analyst reports; media reports about Gannett
and TEGNA; and information obtained through
discovery. Plaintiff believes that further discovery,
which is ongoing, will provide substantial additional
evidentiary support for the allegations set forth herein
after a reasonable opportunity for discovery.
NATURE OF THE ACTION
AND SUMMARY OF CLAIMS
1. This action concerns TEGNA’s June 29, 2015
(the “date of separation”) spinoff of its publishing
business into a new entity, Gannett, and the failure of
the Plan’s fiduciaries to timely liquidate the Plan’s
significant holdings in TEGNA common stock.
Defendants’ decision to concentrate Plan investments
in TEGNA common stock was a breach of their
fiduciary duties, and these breaches have caused the
Plan and the Class more than $38 million in losses.
2. Plaintiff is a participant in the Plan. She brings
this action concerning the Plan’s investment in the
common stock of TEGNA on behalf of the Plan and a
class of participants in the Plan whose retirement
assets were invested in TEGNA common stock,
including the “TEGNA Stock Fund,” from July 1, 2016
until the present (the “Class Period”).
3. Defendants maintained the TEGNA Stock
Fund—an undiversified fund invested exclusively in
TEGNA common stock (traded on the New York Stock
Exchange under the ticker “TGNA”), as a Plan
investment option, through at least July 31, 2018.

111a
4. Defendants’ decision to invest Plan assets so
heavily in a single company’s common stock during the
Class Period was a breach of their duties of loyalty,
prudence, and diversification under ERISA § 404, 29
U.S.C. § 1104.
5. TEGNA common stock is not an “employer
security” as that term is defined under ERISA, and
thus, the TEGNA Stock Fund was subject to ERISA’s
diversification requirements.
6. Defendants breached their fiduciary duties by
permitting the Plan to invest in TEGNA common stock
for several reasons, including, but not limited to, the
following:
(a) First, Defendants improperly allowed the Plan
to continue offering the TEGNA Stock Fund, even
though they knew that the Fund was undiversified
and, as a result, more volatile and riskier for Plan
Participants than alternative investment options;
(b) Second, Defendants caused the Plan to be
undiversified by their failure to liquidate the Plan’s
substantial holdings of TEGNA common stock
following the separation, thereby subjecting the Plan
and its participants to the risks associated with
being too heavily invested in one company
(“company risk”) and industry (“industry risk”). At
the end of 2015 and 2016, TEGNA common stock
represented over 80% and 74%, respectively, of the
Plan’s total common stock holdings (excluding
Gannett stock)—an imprudent and unnecessary
undiversified risk for the workers and retirees who
depend on the Plan for their retirement savings.
(c) Third, Defendants’ prolonged failure to
liquidate the Plan’s TEGNA common stock holdings
subjected participants to additional risks because
the Plan was already heavily invested in Gannett

112a
common stock and both TEGNA and Gannett are
“consumer-cyclical” stocks—their performance is
heavily dependent on the business cycle and
economic conditions (“sector” or “cyclical risk”).
Thus, Gannett and TEGNA stock exhibit high
correlation. At the end of 2015 (more than six
months following the separation), the Plan’s TEGNA
and Gannett common stock holdings collectively
comprised more than 26% of the Plan’s total assets
(18% was TEGNA; 8.4% was Gannett).
(d) Fourth, the imprudence of Defendants in
holding such massive amounts of TEGNA common
stock is further evidenced by the fact that TEGNA is
a volatile stock. Indeed, toward the end of 2015,
TEGNA common stock was approximately 90% more
volatile than the stock market as a whole.
(e) Fifth, while Defendants ultimately decided to
close the TEGNA stock fund, they unreasonably
delayed the decision for two years after the spinoff of
Gannett, and even after they made the decision, took
over a year longer to implement it. Defendants knew
long in advance of the date of separation that
TEGNA stock should be sold. In fact, the Employee
Matters Agreement (“EMA”) between TEGNA and
Gannett, which dealt with, inter alia, issues
affecting the benefits of the employees of the
formerly unified company who became Gannett
employees after spin-off, specifically mandated that
the TEGNA Stock Fund be terminated. In light of
the TEGNA Stock Fund’s undiversified nature, its
volatility, and the facts that it represented the
largest investment in the Plan by far, was positively
correlated with another major, undiversified Plan
investment (Gannett company stock), and was no
longer was an “employer security” exempt from
ERISA’s diversification requirements, Defendants

113a
should have immediately commenced a process for
effectuating the EMA’s mandate to liquidate the
Plan’s investment in the TEGNA Stock Fund. Had
they done so, all or at least most Plan Participants
would have divested their TEGNA Stock Fund
holdings by the beginning of the Class Period.
7. Gannett is liable for the acts of the Committee
in that the Committee and its members were acting
within the scope of their employment with Gannett.
Moreover, members of Gannett’s board of directors,
including its CFO, shared discretionary authority with
the Committee to determine if and when to liquidate
the TEGNA Stock Fund. Gannett also failed to
adequately monitor the Committee and its members to
ensure that they were meeting their fiduciary
obligations.
8. Prudent fiduciaries of retirement plans would
not have permitted such a concentrated investment in
the volatile stock of a single company, particularly for
so long. Defendants breached their duties under
ERISA to diversify the Plan’s investments by allowing
the Plan to have an unreasonably high percentage of
its assets invested in TEGNA common stock during
the Class Period.
9. Because of the lack of diversification,
Defendants should have been particularly attentive to
the numerous warning signs that showed TEGNA
stock was an imprudent investment for retirement
assets generally and the Plan specifically, but they
failed to take action as the price of TEGNA stock
dropped from $20.24 on the day of the spin-off to its
current price of approximately $11. The Plan’s overly
concentrated position caused participants to lose over
$43 million as the price of TEGNA stock fell
dramatically during the Class Period.

114a
10. As a result of these breaches, each Defendants
are liable to the Plan for all losses resulting from each
of their breaches of fiduciary duty. Plaintiff also seeks
equitable relief.
JURISDICTION AND VENUE
11. Subject Matter Jurisdiction. This Court has
subject matter jurisdiction over this action pursuant to
28 U.S.C. § 1331 and ERISA § 502(e)(1), 29 U.S.C.
§ 1132(e)(1).
12. Personal Jurisdiction. This Court has personal
jurisdiction over all Defendants because they are all
residents of the United States and ERISA provides for
nation-wide service of process pursuant to ERISA
§ 502(e)(2), 29 U.S.C. § 1132(e)(2).
13. Venue. Venue is proper in this district pursuant
to ERISA § 502(e)(2), 29 U.S.C. § 1132(e)(2), because it
was where the Plan is administered and some or all of
the fiduciary breaches for which relief is sought
occurred.
PARTIES
14. Plaintiff Christina Stegemann is a participant
in the Plan within the meaning of ERISA § 3(7), 29
U.S.C. § 1102(7), and held shares of TEGNA common
stock in her Plan account during the Class Period. She
is a resident of Phoenix, Arizona. During the Class
Period, the value of the TEGNA common stock held in
Plaintiff’s accounts diminished considerably and
Plaintiff, like thousands of other Plan participants,
suffered losses resulting from Defendants’ breaches of
fiduciary duty.
15. Defendant Gannett Co. Inc. is a Delaware
Corporation with its principal place of business in
McLean, Virginia.

115a
16. Gannett is a fiduciary because it exercised
discretionary authority or control over management of
the Plan, exercised authority or control over the
management or disposition of Plan assets and/or had
discretionary authority, and because it had
discretionary authority to appoint and monitor Plan
fiduciaries who had authority or control over
management or disposition of Plan assets.
17. Defendant Committee is an unincorporated
association with a principal place of business in
McLean, Virginia. It consists of five members
appointed by the Gannett Board. The Board appointed
Jon Held, Lori Locke, Caryn McGarry and Minakshi
Sundaram on June 22, 2015, and appointed David
Harmon chair effective July 13, 2015. Patrick
McClanahan replaced Jon Held sometime between
September 15, 2016 and November 17, 2016, and
Stacey Cunningham replaced Caryn McGarry
sometime in the first quarter of 2017.
18. The Committee is the named fiduciary of the
Plan. In addition, the Committee is a fiduciary of the
Plan within the meaning of ERISA § 3(21)(A), 29
U.S.C.
§ 1002(21)(A),
because
it
exercised
discretionary authority or control over management of
the Plan, exercised authority or control over the
management or disposition of Plan assets and/or had
discretionary authority to appoint and monitor Plan
fiduciaries who had authority or control over
management or disposition of Plan assets.
19. The Plan’s Summary Plan Description (SPD)
states that the Committee “has full responsibility for
administering the Plan.” See SPD at p. 29. The
Committee’s responsibilities included “[s]upervising
the management of Plan assets…” Id.

116a
THE SPINOFF OF GANNETT
20. On August 5, 2014, TEGNA—which was named
“Gannett Co., Inc.” before the spinoff—announced that
its board of directors had authorized the spin-off of its
publishing segment into a new, independent, publiclytraded company, which would take the Gannett name.
21. TEGNA completed the spinoff on June 29, 2015,
more than ten months later. The result of the spinoff
was two publicly traded companies: (1) TEGNA, which
is a broadcasting and digital company and (2) the new
Gannett—taking the name “Gannett Co., Inc.”
previously used by TEGNA—which is a publishing
company with affiliated digital assets. TEGNA
distributed one common share of Gannett common
stock for every two shares of TEGNA common stock
held by TEGNA stockholders.
22. Because the entities had not traded separately,
the market had not established the relative value of
each of the two separated entities, and therefore, the
price paid by the Plan for TEGNA stock was not, as an
initial matter, set by market forces.
23. Along with the documents formalizing the
spinoff, the two new entities—TEGNA and Gannett
Co., Inc.—simultaneously entered into the EMA “to set
forth the terms and conditions of certain employment,
compensation and benefit matters” that were ancillary
to the separation agreement. EMA at Recitals,
Gannett-0002831.
24. The EMA specifically provided that, after the
effective date of the spinoff, “all outstanding
investments in” the TEGNA Stock Fund “shall be
liquidated and reinvested in other investment funds
offered” in the Plan, “on such dates and in accordance
with such procedures as are determined by the
administrator of the” Plan. EMA § 5.03(f), Gannett-

117a
0002852 (emphasis added). The Plan document dated
June 10, 2015, which remains the operative version,
specifically provides that the EMA “may be used as an
aid in interpreting the terms of the transitions”
involving the spin-off of Gannett from TEGNA. Plan
Document at Preamble, Gannett-0000151.
DESCRIPTION OF THE PLAN
25. TEGNA established the Plan in 1990. On June
10, 2015, the Plan was re-stated to make Gannett the
sponsor of the Plan and its related trust effective on
the date of the separation. On the date of the
separation, the Plan held over 13 million shares of
TEGNA stock valued at approximately $269 million.
26. The Plan is an employee benefit plan within the
meaning of ERISA §§ 3(3) and 3(2)(A), 29 U.S.C.
§§ 1002(3) and 1002(2)(A).
27. The Plan is a “defined contribution” or
“individual account” plan within the meaning of
ERISA § 3(34), 29 U.S.C. § 1002(34) because it
provides individual accounts for each participant and
benefits based upon the amount contributed to the
participant’s account, and any income, expenses, gains
and losses, and any forfeitures of accounts of other
participants which could be allocated to such
participants’ accounts.
28. The Plan’s purpose is “to help (participants)
build a nest egg for (their) retirement.” See SPD at p. 1.
29. The Plan had over 15,000 participants as of
December 31, 2016.
30. At all times since the date of separation, June
29, 2015, the Committee has been responsible for
selecting, monitoring, administering, and removing
the Plan’s investment options.

118a
SUBSTANTIVE ALLEGATIONS
31. Defendants breached their fiduciary duties by
causing the Plan to invest a significant portion of its
assets in TEGNA common stock for an unreasonable
amount of time following the separation.
A CHRONOLOGY OF INACTION
32. At the time of the separation, the Plan held
$269 million invested in TEGNA common stock,
representing more than 21.7% of the Plan’s total
assets. This massive, concentrated holding in a singlestock investment option exposed Plan participant to
the risk of large losses that ERISA fiduciaries like the
Committee are under a duty to prevent.
33. In August of 2015, in the course of the
Committee’s search for a consultant, Committee chair
David Harmon and Committee member Minakshi
Sundaram received materials from Tejera &
Associates, LLC, an investment firm, which
specifically noted that the Plan had a “significant
holding” in TEGNA stock that was “problematic . . . .”
Letter from M. Tejera to A. Sendowski, August 4, 2015,
Gannett-0006204. Sundaram testified that he received
the letter but did not discuss it with any other
members of the Committee. Deposition of Minakshi
Sundaram, July 13, 2018 (“Sundaram Tr.”) at p. 41.
34. Moreover, in October of 2015, Stuart Potter,
who worked for Sundaram, prepared a presentation
for Sundaram’s immediate supervisor, Gannett’s CFO,
that listed “Remove TEGNA stock fund” as a “next
step” for the Plan. Gannett-0010036; Gannett0006398. However, this presentation was not provided
to the Committee. Other members of the Committee
had no knowledge of the EMA or the requirement that
the TEGNA Stock Fund be terminated. Deposition of
Committee Member Caryn McGarry, July 18, 2018

119a
(“McGarry Tr.”) at 46: 16-20. Even Committee Chair
David Harmon could not recall receiving a copy of the
EMA. Deposition of David Harmon, July 17, 2018
(“Harmon Tr.”) at 19: 15-18.
35. By the end of 2015, more than six months after
the spinoff of Gannett, and well over a year after
Defendants knew about the separation, Defendants
had taken no steps to commence a process for
liquidating the TEGNA Stock Fund. The Committee
had met at least five times, but took no action to even
evaluate the continued prudence of the Fund, the
performance of TEGNA stock or if it was an
appropriate investment for the Plan’s participants. In
light of the Committee’s inaction, it is unsurprising
that the Plan remained heavily invested in TEGNA
common stock at the end of 2015, owning more than
$178 million in TEGNA common stock. TEGNA
common stock was the Plan’s largest holding by far.
The following table summarizes the Plan’s ten largest
common stock holdings as of December 31, 2015:
Company
TEGNA Inc.
Gannett Co., Inc.
Amazon.com Inc.
Visa Inc.
Facebook Inc.
Apple Inc.
Royal Dutch
Shell Plc (ADRs)
Celgene Corp.
Nike Inc. Cl B
Alphabet Inc.

$178,145,839
$83,142,323
$1,294,329
$1,145,103
$939,847
$827,344

% of common
stock holdings
(including
Gannett stock)
58.56%
27.33%
0.43%
0.38%
0.31%
0.27%

$747,918

0.25%

$720,716
$694,625
$694,375

0.24%
0.23%
0.23%

Vale [sic] as of
12/31/15

120a
36. To put the Plan’s December 31, 2015 holdings of
TEGNA common stock in perspective, other than
Gannett and TEGNA, the Plan held only
approximately $42.9 million in the common stock of all
other companies in the world. Accordingly, as of
December 31, 2015, the value of the Plan’s TEGNA
common stock holdings was 415% greater than
the value of all other non-company stock
combined.
37. By the end of 2015, TEGNA common stock
made up over 80.6% of the Plan’s total nonGannett common stock holdings. To put this
concentration into perspective, other non-company
stocks made up on average only 0.18% of total common
stock holdings. The next largest non-Company stock,
Amazon common stock, made up only 0.43% of total
non-Company common stock holdings.
38. In November of 2015, the Committee hired
Towers Watson (now Willis Towers Watson) to provide
investment consulting services to the Plan. During the
first Committee meeting that Towers Watson attended
on January 26, 2016, the consultant provided a
timeline of the projects recommended for completion in
2016, but liquidation of the TEGNA Stock Fund was
not included as one of the projects. Gannett BPC
Proposed Project Plan: January 2016, Gannett0002428-31.
39. On February 26, 2016, Towers Watson provided
fiduciary training for members of the Committee.
Minutes from Committee Meeting on February 26,
2017, Gannett-0002442. The minutes from this
meeting indicate there was a discussion about “best
practices in removing . . . spinoff stock from the
401(k),” but no actions were taken at the meeting; nor
was there a vote taken for how the TEGNA Stock Fund

121a
should be monitored, evaluated or liquidated as the
EMA required.
40. At the Committee’s March 26, 2016 meeting,
Towers Watson gave a presentation titled “Stock Fund
Options
in
401(k)
Plans:
Thoughts
and
Considerations,” that had a section about “NonAffiliated Single Stock Funds.” Stock Fund Options in
401(k) Plans: Thoughts and Considerations,” Gannett0000450-68. The presentation mentioned that single
stock funds “lack several characteristics that are
typical of funds in [Defined Contribution] plan menus
which are designed with a view to good governance
practices,” specifically noting that “[s]ingle company
stocks are inherently undiversified, therefore posing
unique risks.” Gannett-0000452. The presentation
also indicated that it is “difficult to monitor the
performance of a single stock fund”, noting the
difficulty of selecting performance metrics and
benchmarks, and recommended that the Committee
“seek objective expert financial and legal advice”
concerning “whether or not to divest and the timing of
divestiture.” Gannett-0000458. . . . .” The presentation
concluded with suggestions for possible next steps,
including reviewing the purpose of offering the Fund
as an investment, hiring an independent fiduciary,
considering new procedures for monitoring the Fund
and determining whether to liquidate the Fund. Id.
The presentation did not mention that the EMA
mandated liquidation of the TEGNA Stock Fund.
41. The Committee made no decisions at the March
26, 2016 meeting concerning the TEGNA Stock Fund.
42. On June 28, 2016, Ernst & Young, LLP, the
Plan’s independent auditors, warned Gannett that the
Plan’s TEGNA stock holdings “exposes the Plan to a
concentration risk.”

122a
43. In June and July 2016, Potter and Sundaram
prepared numerous drafts of a presentation that was
ultimately sent to Harmon, Lori Locke, another
member of the Committee as well as Gannett’s CFO
and General Counsel titled “Gannett 401(k) Single
Stock Options.” The presentation stated that the
Committee and Gannett’s management should
“evaluate a sunsetting process for eliminating the
TEGNA Company Stock Fund.” Gannett 401(k) Single
Stock Options,” Gannett-0011999. However, at the
remaining Committee meetings in 2016, Towers
Watson assisted the Committee on reviewing potential
investments and investment managers for the Plan’s
mutual fund lineup that went into effect on January
31, 2017 even though the TEGNA Stock Fund
remained the Plan’s largest investment and the price
of TEGNA stock had declined by over 30% since the
time of the separation. The changes removed 25 funds
from the Plan’s investment lineup but did not remove
the TEGNA Stock Fund. Participants were notified
about changes to the Plan’s investment lineup on
December 21, 2016 with a brochure and fund fact
sheets of the changes that occurred on January 31,
2017.
44. The Committee did not consider liquidating the
TEGNA Stock Fund in 2016.
45. Thus, at the end of 2016, more than eighteen
months after the separation, the Plan still held a
massive amount of TEGNA common stock—more than
$115 million. Although the value of the Plan’s TEGNA
common stock holdings decreased over 2016, a large
portion of this decrease was caused by the share price’s
16% decrease during 2016 rather than liquidation. The
following table summarizes the Plan’s ten largest
common stock holdings as of December 31, 2016:

123a
Company
TEGNA Inc.
Gannett Co., Inc.
Visa Inc.
Apple Inc.
Amazon.com.
JPMorgan Chase
& Co.
Voya Fin’l Inc.
Royal Dutch
Shell Plc (ADRs)
Citigroup Inc.
Morgan Stanley

$115,658,682
$64,955,403
$904,720
$887,181
$873,599

% of common
stock holdings
(Inc. Gannett
stock)
52.15%
29.29%
0.41%
0.40%
0.39%

$848,403

0.38%

$817,188

0.37%

$756,383

0.34%

$746,560
$714,617

0.34%
0.32%

Value as of
12/31/16

46. To put the Plan’s December 31, 2016 holdings of
TEGNA common stock in perspective, other than
Gannett and TEGNA, the Plan held approximately
$41.2 million in common stock. Thus, as of December
31, 2016, the value of the Plan’s TEGNA common
stock holdings was 281% greater than the value
of all other non-company stock combined.
47. TEGNA common stock made up over
73.75% of the Plan’s total non-Gannett common
stock holdings. To put this concentration into
perspective, other non-company stocks made up on
average only 0.25% of total common stock holdings.
The next largest non-Company stock holding, Visa
common stock, made up only 0.41% of total nonCompany common stock holdings.
48. In a memorandum dated February 22, 2017 to
Gannett’s board of directors, Committee Chair David
Harmon stated that the Committee had up until that
point “handled” the TEGNA Stock Fund by simply

124a
having participants sell their shares. Memorandum
from David Harmon to Gannett Board of Directors,
Gannett-0002995. The Committee had not decided to
liquidate the TEGNA Stock Fund as the EMA required
as of February 22, 2017—or even started the process
to evaluate what liquidating the Fund would involve.
49. The Committee finally to steps to address the
TEGNA Stock Fund in April of 2017, when Towers
Watson made a second presentation to the Committee,
updating the one it had made to the Committee at the
meeting on March 28, 2016. “Update on Stock Fund
Options
in
401(k)
Plans:
Thoughts
and
Considerations,” Gannett-0001270-81. Tellingly, the
“Possible Next Steps for Consideration” in Towers
Watson’s April 2017 presentation were almost
identical to those in its presentation of over a year
earlier, indicating that the Committee had effectively
wasted a year. The meeting minutes indicate that
Towers Watson told the Committee that the TEGNA
common stock had a “beta over 1.00”, meaning that it
had greater price swings in both up and down markets
as compared to a diversified index fund, and that
“single stock funds do not fit well in Gannett Co., Inc.
401(k)’s new investment lineup…” In addition to
Towers Watson, Evercore Trust Company (“Evercore”)
also gave a presentation to the Committee about
liquidating the TEGNA Stock Fund, noting that “the
sunset of a stock fund” would generally not cause an
adverse reaction to the stock’s price. Minutes from
April 25, 2017 Committee Meeting, Gannett-0001442,
0001443.
50. Despite these presentations, however, the
Committee did not decide to liquidate the TEGNA
Stock Fund at the April 2017 meeting, instead
delegating to the newly formed “Gannett 401(k) Plan

125a
Subcommittee” the tasks of investigating what a plan
for sunsetting the TEGNA stock fund would entail.
51. On June 6, 2017, Potter (the Secretary for the
Subcommittee) sent a memorandum to the full
committee recommending that the TEGNA stock fund
be liquidated twelve months after providing notice to
Plan Participants. Potter’s memorandum discussed a
number of factors in recommending a twelve-month
sunset period. The memorandum states that a 12month sunset would “mitigate any potential effect of
seasonality” on TEGNA’s stock price, although there is
no indication the Subcommittee attempted to measure
whether the price of TEGNA stock would in fact be
affected by seasonality. The memorandum noted that
a 12-month period could potentially reduce the
“blackout period,”—the time it would take to sell the
TEGNA stock of participants who had not sold during
the sunset period. The memorandum also discussed
sunsetting a second single-stock fund, this one holding
shares of Cars.com that had been issued to Plan
Participants in the TEGNA Stock Fund when TEGNA
sold Cars.com, and noted that “Cars.com is a new stock
fund and participants had not had any time to make
their own investment decision.” In contrast, however,
the Committee provided Plan Participants with only
two months to “make their own investment decisions”
when the Committee approved the change to its
mutual fund investment lineup in 2016.
52. The Committee approved the Subcommittee’s
recommendation to liquidate the TEGNA stock fund
with a 12-month sunset period on June 8, 2017, but did
not hire Evercore to oversee the sunsetting process
until July 27, 2017, and Plan Participants were not
notified of the decision until July 31, 2017. In
consequence, the TEGNA Stock Fund has not been
fully liquidated, even three years after the spinoff of

126a
Gannett. Reasonably prudent fiduciaries should have
completed the task within a year. Accordingly, the
Class Period begins on July 1, 2016.
53. As this chronology makes clear, Defendants felt
no urgency to address the single-stock concentration
risk posed by the TEGNA stock fund, even though
liquidation was mandated by the Plan Sponsor in the
EMA.
54. Committee members appear to have believed
that exposing Plan Participants to the concentration
risk of a single stock fund was not imprudent so long
as participants were able to select other Plan options
for their investments. Sundaram Tr. 82:19-83:16 &
86:2-88:5; Harmon Tr. 38:21-39:14. Nor did the
Committee evaluate the possibility that the Plan’s
decision to invest in two individual stocks—TEGNA
and Gannett—might expose participants to even
greater risk, since the performance of the two media
company’s stocks might be correlated. Harmon Tr.
77:2-7.
55. Moreover, the Committee appears to have
simply assumed that TEGNA was a prudent
investment. McGarry testified that “There was no
reason at that time [after spinoff] to think that it
wouldn’t be [prudent]. The—it was a company we
believe was—had every reason to believe would be
successful . . . .” McGarry Tr. at 22:17-23:1;
56. The Committee received quarterly reports from
Towers Watson on each of the investment options of
the Plan. These were the reports that the Committee
used to monitor the prudence of the TEGNA Stock
Fund. Sundaram Tr. at 100:18-103:18; Harmon Tr.
27:14-32:5; McGarry Tr. at 46:21-47:15. (Q: “So it was
just the Towers Watson reports that your remember
reviewing?” A: “Yes.”). However, while the Towers

127a
Watson quarterly reports provided highly detailed
information on the mutual funds in which the Plan
was invested, including information about the fund
managers, performance relative to established
benchmarks over three month and one, three, five and
ten year periods, returns versus standard deviations,
sector allocation, summary of risk statistics and
risk/return statistics, the reports provided no analysis
of the TEGNA stock fund. The fund was only listed as
an asset of the Plan, with its current market value and
a calculation of the percentage of Plan assets invested
in it. See, e.g., Gannett Co., Inc. 401(k) Savings Plan
Performance Monitoring Report for Periods Ending
March 31, 2016, Gannett_0000631, 0000650. The
Committee thus made no effort to obtain any
meaningful information that could be used to assess or
monitor the prudence of TEGNA stock.
57. There was no reason to delay liquidating the
TEGNA Stock Fund. The only rationale for including
it as a Plan option in the first place was that Plan
Participants had formerly been part of the corporate
entity that became TEGNA. Sundaram testified that
the “TEGNA Stock Fund was a legacy stock option
that, you know, after the spinoff there were a lot of
employees who knew the company well and we see—
we saw that that was a big participant interest to have
that option in the Plan.” Sundaram Tr. at 54:19-55:2.
Potter testified that “there was an affiliation with the
former company, people wanted to own TEGNA . . . .”
and that, absent an affiliation with the employer, he
would not recommend a single stock as an investment
option in a 401(k) plan. Potter Tr. at 28:13-17 and
33:19-34:4. McGarry testified that “we felt that people
would still want the option to be able to invest in”
TEGNA since they had a “close affiliation” with the
company. McGarry Tr. at 22:21-23:6. Yet the

128a
Committee took no steps to ascertain whether this was
true. They did not survey employees (Sundaram Tr.
59:8-22; Harmon Tr. 73:11-13; McGarry Tr. at 34:2235:6), nor did they attempt to determine whether the
large concentration of Plan investment in the TEGNA
Stock Fund at the time of the spinoff was the result of
the pre-spinoff company’s practice of matching
employee 401(k) contributions with company stock.
McGarry Tr. 27:13-21 (pre-spinoff, “Old” Gannett
match was in company stock); Potter Tr. 29:5-19 (did
not know what percentage of TEGNA stock was due to
prior company match). Even if Defendants had verified
that employees actually wanted to invest in TEGNA
stock—which they did not—that would not have
provided a basis for concluding that the TEGNA Stock
Fund was a prudent option for the Plan.
THE PLAN’S MASSIVE INVESTMENT IN TEGNA
STOCK WAS IMPRUDENT
58. The following table summarizes relevant Plan’s
holdings at the end of 2015 and 2016.
Value of:
12/31/15
12/31/16
TEGNA common stock
$178,145,839 $115,658,682
holdings
Other non-Gannett
$42,917,175 $41,173,623
common stock (combined)
Average of other non$401,095
$399,744
Company stock holdings
59. The sheer size of the Plan’s holdings in TEGNA
common stock was unreasonable by any measure.
60. According to Morningstar, out of all mutual
funds available in the market, the fund with the
highest concentration of TEGNA stock was the Cove

129a
Street Capital Small Cap Value Fund, which held only
5.8% of TEGNA stock as of December 31, 2017.1
61. Thus, the fact that the Plan as of December 31,
2015 owned almost three times the concentration of
TEGNA stock as the concentrated fund with largest
holdings of TEGNA (in relation to total assets) was
plainly imprudent for the investment of retirement
assets.
62. The Plan’s concentrated position in TEGNA,
which represented more than 20% of the Plan’s
holdings at the time of the separation, exposed it to
more “company risk” than undiversified mutual funds
who concentrate investments in the common stock of
companies in the media industry. For example, the
largest holding of the TRowe Price Media &
Telecommunications Fund, a fund which focuses “in
the common stock of companies engaged in any facet
of media and telecommunications,” was less than 11%
of the fund’s portfolio as of December 31, 2017.
Likewise, Reliance Media & Entertainment Fund’s
largest investment only represented 13% of its
portfolio as of December 31, 2017. The Plan’s purpose
is to provide participants with retirement income and
should not have held a more-concentrated position in
one company’s stock than non-diverse, sector-specific
mutual funds.
63. The Plan’s investment in TEGNA was also
grossly disproportionate compared to Gannett’s
defined benefit plan, the “Gannett Retirement Plan”
(the “DB Plan”), which the Committee also
administers. The Plan, a defined contribution plan in
which the risk of loss is borne by participants, had
more than 20% of its assets invested in TEGNA stock
1 http://covestreetfunds.com/wp-content/uploads/2018/01/CSCQ4-2017-Shareholder-Letter.pdf.

130a
at the time of the separation and a 15.8% and 10.7%
concentration at the end of 2015 and 2016,
respectively. In contrast, the DB Plan, for which
Gannett bears the risk of loss, had only 1.8% and 1.7%
of its assets invested in TEGNA stock at the end of
2015 and 2016, respectively.
64. Additionally,
the
Gannett
Plan
held
significantly more TEGNA common stock than
TEGNA’s own 401(k) Plan. At December 31, 2015 and
2016, the TEGNA 401(k) Plan held only $66.5 million
and $58.6 million, respectively. The following table
summarizes the Plan’s TEGNA common stock
holdings in comparison to the TEGNA 401(k) plan:
Value of TEGNA
12/31/15
12/31/16
common stock
in Gannett 401(k) Plan ($) $178,145,839 $115,658,682
in TEGNA 401(k) Plan ($) $66,457,269 $58,592,890
65. Defendants knew about the substantial risk of
this lack of diversification. Indeed, the Plan’s own
auditor warned that the Plan’s TEGNA holdings
created concentration risk. According to the Plan’s
2015 financial statements:
The fair value of the Plan’s investment in
Gannett’s and TEGNA’s stock as of December 31,
2015 was approximately $83.1 million and $178.1
million, respectively, which exposes the plan
to concentration risk. (Emphasis added.)
66. The following year, the Plan’s auditor again
warned about the risk created by the large TEGNA
common stock holdings. According to the Plan’s 2016
financial statements:
The fair value of the Plan’s investment in
Gannett’s and TEGNA’s stock as of December 31,
2016 was approximately $65.0 million and $115.7

131a
million, respectively, which exposes the Plan
to concentration risk. (Emphasis added.)
67. The overly concentrated position in TEGNA
common stock should have been a red flag to the
Defendants that they needed to diversify the Plan’s
assets in order to avoid the risk of large losses and
ensure the Plan’s assets were invested prudently.
Defendants, however, failed to independently assess
and monitor the Plan’s holdings of TEGNA common
stock to ensure they were prudent and that the Plan
was reasonably diversified.
68. Additionally, according to its beta, TEGNA
common stock was significantly more volatile, and
thus riskier, than other more-suitable investments.
Beta is a measure of a stock’s volatility in comparison
to the volatility of the market as a whole. It is
calculated by dividing the covariance of the security’s
returns and the benchmark’s returns by the variance
of the benchmark’s returns. By definition, the market
has a beta of 1.0, and individual stocks are ranked
according to how much they deviate from the market.
A stock that swings more than the market over time
has a beta above 1.0. If a stock moves less than the
market, the stock’s beta is less than 1.0. High-beta
stocks are supposed to be riskier but provide a
potential for higher returns; low-beta stocks pose less
risk but also lower returns.
69. At the time of separation, the beta for TEGNA
common stock was 1.455 meaning TEGNA was 45.5%
more volatile than the stock market. This risk
increased toward the end of 2015 when the beta
increased to approximately 1.909, meaning TEGNA
was 90.9% more volatile than the stock market.
70. Defendants caused the Plan to hold massive
holdings of TEGNA common stock through at least

132a
July 31, 2018 and perhaps longer, because Defendants
did not follow an appropriate process in evaluating the
prudence of TEGNA common stock and the
diversification of Plan investment options. Defendants
did not perform an independent review, as they were
required to do, and their failures cost the Plan
participants millions of dollars.
71. TEGNA common stock was not a “qualifying
employer security” for the Plan. ERISA § 404(a)(2), 29
U.S.C. § 1104(a)(2), provides that ERISA’s duties of
prudence and diversification are not violated “by
acquisition or holding of . . . qualifying employer
securities.”
72. As of the date of separation, however, TEGNA
stock was not a “qualifying employer security” with
respect to the Plan.
73. ERISA § 3(5), 29 U.S.C. § 1002(5) defines
“employer” as “any person acting directly as an
employer, or indirectly in the interest of an employer,
in relation to an employee benefit plan.”
74. ERISA § 407(d)(1), 29 U.S.C. 1107(d)(1), defines
“employer security” as a “security issued by an
employer of employees covered by the plan, or by an
affiliate of such employer.” Under ERISA, a
“qualifying employer security” is an “employer
security” that is either a stock, a marketable obligation
(e.g., a bond) or an interest in a publicly traded
partnership. See ERISA § 407(d)(5), 29 U.S.C.
§ 1107(d)(5).
75. Gannett and TEGNA have been independent
companies since they separated in 2015. The
companies have separate defined contribution
retirement plans covering their own employees.

133a
76. TEGNA’s employees are not eligible to
participate in the Plan. See SPD at p. 2. As part of the
Separation, the Plan transferred the account balances
for current and former employees of TEGNA to the
“TEGNA 401(k) Savings Plan.” “As of the transfer
date, employees of TENGA, Inc. and its affiliates
ceased participating it the Plan.” See Plan’s 2015 11-k
at p. 5.
77. TEGNA has not paid Plan participants’ wages,
made contributions to the Plan or otherwise acted in
Gannett’s interests concerning the Plan since
Separation. Accordingly, TEGNA is not an “employer”
for the Plan.
78. TEGNA was also not an “affiliate” of Gannett
after the Separation. Under ERISA § 407(d)(7), 29
U.S.C. § 1107(d)(7), a corporation is an “affiliate” of an
employer if it is a member of a “controlled group of
corporations,” a term defined as when a parent
corporation owns stock possessing at least 50% of the
subsidiary’s voting power or when five or fewer
individuals, estates or trusts own stock possessing at
least 50% of each corporation’s voting power. Id. (citing
26 U.S.C. § 1563). After the separation, TEGNA and
Gannett were both independent, publicly traded
companies. TEGNA is also not among the
“Participating Affiliates” listed in the SPD. See SPD at
p. 32. Accordingly, the companies have not been
“affiliates” since the separation.
79. As TEGNA was not an “employer” or an
“affiliate” for the Plan after the Separation, TEGNA
stock was not a “qualifying employer security.”
Defendants did not classify TEGNA stock as an
“employer security” in either 2015 or 2016 on the
Plan’s financial statements.

134a
80. Defendants had a continuing duty to assess the
appropriateness of the Plan’s holdings of TEGNA
common stock and the TEGNA Stock Fund under
Tibble v. Edison International, 135 S. Ct. 1823 (2015).
As alleged above, Defendants breached their fiduciary
duties by allowing the Plan to continue to hold and
invest in the TEGNA common stock and the TEGNA
Stock Fund.
81. ERISA requires prudent fiduciaries to diversify
the plan’s investments “so as to minimize the risk of
large losses, unless under the circumstances it is
clearly prudent not to do so.” See ERISA § 404(a)(1)(C)
[29 U.S.C. § 1104(a)(1)(C)]. ERISA’s legislative history
indicates that a fiduciary should not invest an
“unreasonably large percentage” of plan assets in a
“single security,” in “one type of security,” or in
“various types of securities that are dependent upon
success of one enterprise or upon conditions in one
locality.” See ERISA Conference Report on H.R. 2, H.R.
Rep. No. 1280, 93d Cong., 2d Sess. 300, 304 (Aug. 12,
1974).
82. Because the value of any single stock is tied to
the fortunes of one company, holding a single stock is
unduly risky. By contrast, investors who hold a diverse
portfolio of stocks and bonds face less risk because they
have only a small stake in each company. See N.
Gregory Mankiw, Principles of Economics 546 (1998);
DiFelice v. U.S. Airways, Inc., 497 F.3d 410, 415 (4th
Cir. 2007); Steinman v. Hicks, 352 F.3d 1101, 1104
(7th Cir. 2003).
83. Defendants recognized the importance of
diversification. The SPD states that “[s]preading your
assets among different types of investments can help
(participants) achieve a favorable rate of return, while
minimizing (participants’) overall risk of losing
money.” See SPD at p. 13. According to the SPD,

135a
retirement savings are not “properly diversified” if
more than 20% are invested “in any one company or
industry…” Id.
84. Even a 20% concentration in any one company
or industry was excessively risky. Under ERISA, the
benchmark for the amount of a single security that a
retirement plan should own is only 10%, not 20%, as
set forth in ERISA 407(a)(2), 29 U.S.C. § 1107(a)(2).
85. Defendants permitted the Plan to invest far too
much in TEGNA stock, as alleged above. As further
alleged above, when combined with the Gannett stock
held by the Plan, the holding of TEGNA stock was even
more egregiously undiversified because the two
securities are in the same industry.
86. Because of the Plan’s concentrated position in
TEGNA common stock, numerous other red flags
during the relevant period should have demonstrated
to Defendants that the Plan should no longer be
invested in TEGNA stock.
87. During 2015 several investment banks
downgraded and/or were bearish about TEGNA
common stock. For example, Evercore downgraded
TEGNA to a “Hold” in July and Jefferies did so in
August.
88. In 2016, several other investment banks
likewise downgraded their views on the prospects of
TEGNA’s common stock. For example, Barclays
downgraded TEGNA to “Underweight” in April and JP
Morgan downgraded to Neutral in November.
89. Based on the negative outlook on TEGNA
common stock, a prudent and loyal fiduciary would
have reviewed the Plan’s significant holdings of
TEGNA common stock as part of any review and

136a
liquidated or significantly reduced such holdings from
the Plan if it had not already done so.
90. Given these risks, coupled with the lack of
diversification, Defendants failed to take action that a
prudent fiduciary would have taken to stop these
losses, and the risk of future large loss, that Plan
participants were or could be suffering. Defendants did
not liquidate the Plan’s holdings of TEGNA common
stock or remove the TEGNA Stock Fund as a Plan
investment or otherwise act to save the Plan from
losing millions of dollars in hard-earned retirement
savings.
DEFENDANTS’ IMPRUDENCE CAUSED LOSSES
TO THE PLAN
91. Unfortunately, the Defendants’ breach of their
fiduciary duties caused the Plan and its participants
to suffer millions of dollars in losses.
92. The Plan’s excessive holdings in TEGNA was
costly to participants. For example, the following chart
demonstrates the significant decline in the value of
TEGNA common stock from the date of separation
through the present.

137a
93. Between the date of the separation through the
end of 2015, the price of TEGNA stock fell $3.91 or
19.3%.
94. During 2016, TEGNA common stock’s poor
performance continued, losing another $2.64 per
share. Thus, from the date of separation through the
end of 2016, TEGNA stock fell $6.55 or 32.3%.
95. The price of TEGNA common stock was
relatively flat in 2017, but has dropped significantly in
2018 and is now trading at less than $11 per share.
96. TEGNA common stock has significantly
underperformed the market. From the date of
separation until the present, the price of TEGNA
common stock has declined approximately 46% while
during that same time period the S&P 500 Index (SPX)
has increased approximately 36%.

During the Class Period, TEGNA stock has declined
27 percent while the S&P 500 increased 34 percent.
97. The TEGNA Stock Fund also underperformed
other investment options in the Plan, including both
the Plan’s “default option”—a series of target date
funds—and Vanguard stock market index funds
offered by the Plan.
98. If Defendants had acted promptly, Plan
Participants would have been notified that the
TEGNA Stock Fund would be liquidated by no later
than January 1, 2016, and Defendants would have

138a
closed the Fund and liquidated it six months after
that. If the assets that were in the Fund had been
invested in the Plan’s default investment options on
July 1, 2016, the Plan’s assets today would be $43
million greater, and if the Fund’s assets were invested
in the Vanguard Index Funds offered by the Plan
during the Class Period, the Plan would have more
than $57 million more in assets today. Accordingly, the
Plan and its participants suffered substantial harm as
a result of Defendants’ breach of their fiduciary duties.
DEFENDANTS’ FIDUCIARY DUTIES
99. Under ERISA, those responsible for the
management and operation of a plan are fiduciaries
and these fiduciaries owe participants the highest
duties known to law. These duties include, among
others, the duty of loyalty, the duty of prudence, the
duty of diversification, and the duty to monitor. See
ERISA § 404, 29 U.S.C. § 1104.
100. Duty of Loyalty. Under ERISA § 404(a)(1)(A)(i)
29 U.S.C. § 1104(a)(1)(A), “a fiduciary shall discharge
his duties with respect to a plan solely in the
interest of the participants and beneficiaries
and . . . for the exclusive purpose of . . . providing
benefits to participants and their beneficiaries.”
(emphasis added). Thus, a fiduciary must act with one
and only one purpose and must act to further one and
only one interest. This is often called the “exclusive
benefit rule.”
101. Duty of Prudence. Under ERISA § 404(a)(1)(B),
29 U.S.C. § 1104(a)(1)(B), “a fiduciary shall discharge
his duties with respect to a plan solely in the interest
of the participants and beneficiaries and . . . with the
care, skill, prudence, and diligence under the
circumstances then prevailing that a prudent man
acting in a like capacity and familiar with such

139a
matters would use in the conduct of an enterprise of a
like character and with like aims.” (emphasis added).
102. Duty of Diversification. Under ERISA
§ 404(a)(1)(C), 29 U.S.C. § 1104(a)(1)(C), “a fiduciary
shall discharge his duties with respect to a plan solely
in the interest of the participants and beneficiaries
and . . . by diversifying the investments of the plan so
as to minimize the risk of large losses, unless under
the circumstances it is clearly prudent not to do so.”
103. Duty to Monitor. In addition to the duty to
prudently select investments, a fiduciary has “a
continuing duty of some kind to monitor investments
and remove imprudent ones” and “a plaintiff may
allege that a fiduciary breached the duty of prudence
by failing to properly monitor investments and remove
imprudent ones.” Tibble v. Edison Int’l, 135 S. Ct.
1823, 1829 (2015).
DEFENDANTS WERE FIDUCIARIES
104. ERISA requires that every plan name one or
more fiduciaries who have “authority to control and
manage the operation and administration of the plan.”
ERISA § 402(a)(1), 29 U.S.C. § 1102(a)(1).
105. ERISA treats as fiduciaries not only persons
explicitly named as fiduciaries under § 402(a)(1), 29
U.S.C. § 1102(a)(1), but also any other persons who
perform fiduciary functions for a retirement plan. A
person or entity is considered a fiduciary to the extent:
(i) he exercises any discretionary authority or
discretionary control respecting management of
such plan or exercises any authority or control
respecting management or disposition of its
assets,
(ii) he renders investment advice for a fee or other
compensation, direct or indirect, with respect to

140a
any moneys or other property of such plan, or has
any authority or responsibility to do so, or
(iii) he has any discretionary authority or
discretionary responsibility in the administration
of such plan.
ERISA § 3(21)(A)(i)
§ 1002(21)(A)(i)].

[codified

at

29

U.S.C.

106. Each of the Defendants was a fiduciary during
the Class Period within the meaning of ERISA
§ 3(21)(A)(i) [29 U.S.C. § 1002(21)(A)(i)] as either a
named or a de facto fiduciary with respect to the Plan,
and each owed fiduciary duties to the Plan and its
participants under ERISA.
107. The Committee and its members are fiduciaries
of the Plan within the meaning of ERISA § 3(21)(A), 29
U.S.C. § 1002(21)(A), because they exercised
discretionary authority or control over management of
the Plan. In particular, they had the fiduciary duty to
select and monitor Plan investment options, including
the TEGNA stock fund. The Committee was also the
named fiduciary for the Plan.
108. Gannett is a fiduciary because it had the duty to
monitor the Committee to ensure that it was properly
meeting its fiduciary duties. It is also a fiduciary
because it is responsible for the acts of the Committee
and its members who were acting within the scope of
their employment. Gannett was also a de facto
fiduciary because it shared authority with the
Committee to decide if and when the TEGNA Stock
Fund should be liquidated. “Gannett 401(k) Single
Stock Options,” Gannett-0011986-96.
CLASS-ACTION ALLEGATIONS
109. Plaintiff brings this action derivatively on the
Plan’s behalf pursuant to ERISA §§ 409 and 502, 29

141a
U.S.C. §§ 1109 and 1132, and as a class action
pursuant to Rules 23(a), (b)(1), and/or (b)(2) of the
Federal Rules of Civil Procedure on behalf of the Plan,
Plaintiff, and the following class of similarly situated
persons (the “Class”):
All persons, except Defendants and their
immediate
family
members,
who
were
participants in or beneficiaries of the Gannett Co.,
Inc. 401(k) Savings Plan at any time from July 1,
2016, inclusive (the “Class Period”), and whose
Plan accounts included investments in TEGNA
common stock (including the TEGNA Stock
Fund).
110. The members of the Class are so numerous that
joinder of all members is impracticable. While the
exact number of Class members is unknown to
Plaintiff at this time, the Plan had over 15,000
participants at the end of 2016. Accordingly, Plaintiff
believes there are thousands of Plan participants
whose Plan accounts included investments in the
TEGNA common stock during the Class Period.
111. Multiple questions of law and fact common to
the Class exist, including:
(a) whether Defendants each owed a fiduciary duty
to the Plan, Plaintiff, and members of the Class;
(b) whether Defendants failed to discharge their
duties with respect to a plan solely in the interest of
the participants and beneficiaries and for the
exclusive purpose of providing benefits to
participants and their beneficiaries;
(c) whether Defendants failed to discharge their
duties with respect to a plan solely in the interest of
the participants and beneficiaries with care, skill,
prudence, and diligence;

142a
(d) whether Defendants failed to discharge their
duties with respect to a plan solely in the interest of
the participants and beneficiaries by diversifying the
investments of the plan so as to minimize the risk of
large losses (unless under the circumstances it is
clearly prudent not to do so);
(e) whether Defendants failed to discharge their
duties with respect to a plan solely in the interest of
the participants and beneficiaries by monitoring
investments and removing imprudent ones;
(f) whether the Plan’s massive holdings in TEGNA
stock were imprudently undiversified;
(g) whether TEGNA stock qualified as an
Employer Security for purposes of exempting the
Plan’s holdings in TEGNA stock from the duty to
diversity under ERISA § 404;
(h) whether Defendants otherwise violated ERISA;
and
(i) whether the Plan, Plaintiff, and members of the
Class have sustained damages and, if so, what is the
proper measure of damages.
112. Plaintiff’s claims are typical of the claims of the
members of the Class because the Plan, Plaintiff, and
the other members of the Class each sustained
damages arising out of Defendants’ uniform wrongful
conduct in violation of ERISA as complained of herein.
113. Plaintiff will fairly and adequately protect the
interests of the Plan and members of the Class because
they have no interests antagonistic to or in conflict
with those of the Plan or the Class. In addition,
Plaintiff has retained counsel skilled and experienced
in class-action litigation, complex litigation, and
ERISA litigation.

143a
114. Class action status in this ERISA action is
warranted under Rule 23(b)(1)(B) because prosecution
of separate actions by the members of the Class would
create a risk of adjudications with respect to individual
members of the Class which would, as a practical
matter, be dispositive of the interests of the other
members not parties to the actions, or substantially
impair or impede their ability to protect their
interests.
115. Class action status is also warranted under
Rule 23(b)(1)(A) and (b)(2) because: (i) prosecution of
separate actions by the members of the Class would
create a risk of establishing incompatible standards of
conduct for Defendants; and (ii) Defendants have acted
or refused to act on grounds generally applicable to the
Class, thereby making appropriate final injunctive,
declaratory, or other appropriate equitable relief with
respect to the Class as a whole.
CAUSES OF ACTION
COUNT I
Breaches of Fiduciary Duties
Violations of ERISA §§ 404 and 409
[29 U.S.C. §§ 1104 and 1109]
116. Plaintiff incorporates by reference
allegations in the preceding paragraphs.

the

117. During the Class Period, the Defendants were
named fiduciaries pursuant to ERISA § 402(a)(1) [29
U.S.C. § 1102(a)(1)], or de facto fiduciaries within the
meaning of ERISA § 3(21)(A) [29 U.S.C. § 1002(21)(A)],
or both.
118. Defendants breached their fiduciary duties by
wrongfully allowing the Plan to hold massive amounts
of TEGNA common stock.

144a
119. The scope of the Defendants’ fiduciary duties
and responsibilities included managing the assets of
the Plan for the sole and exclusive benefit of
participants and beneficiaries and with the care, skill,
diligence, and prudence required by ERISA.
Defendants were responsible for, among other things,
selecting and offering only prudent investment
options, eliminating imprudent options, evaluating
the merits of the Plan’s investments on an ongoing
basis, administering the operations of the Plan and
taking all necessary steps to ensure that the Plan’s
assets were diversified and invested prudently.
120. According to Department of Labor regulations
and cases interpreting this statutory provision, a
fiduciary’s investment or investment course of action
is prudent if he has: (a) given appropriate
consideration to those facts and circumstances that,
given the scope of such fiduciary’s investment duties,
the fiduciary knows or should know are relevant to the
particular investment or investment course of action
involved, and (b) acted accordingly.
121. Defendants also had a duty to administer the
Plan in accordance with the Plan Document. The Plan
Document references the EMA which required the
liquidation of the TEGNA Stock Fund. Plan Document
at Preamble, Gannett-0000151 and EMA at § 5.03(f),
Gannett-0002852. The EMA, however, was never
distributed at a Committee meeting and a member of
the Committee testified that she did not know the
EMA existed—much less that it required the
liquidation of the TEGNA Stock Fund.
122. Defendants had a duty to follow a regular,
appropriate systematic procedure to evaluate TEGNA
common stock as investments in the Plan. They
breached that duty and failed to conduct an
appropriate investigation of continued investment in

145a
TEGNA common stock. For the Plan’s mutual fund
investment options, the Committee was provided
quarterly reports showing each fund’s performance
and how it compared to the fund’s benchmark over
numerous time periods. For the TEGNA Stock Fund,
however, the quarterly reports only stated the total of
the Plan’s investment in TEGNA stock, and did not
state TEGNA stock’s price or performance history, or
how the stock had performed relative to any
benchmark.
123. As alleged above, Defendants breached their
fiduciary duties by failing to diversify Plan
investments. Defendants were bound by the duty to
diversify the Plan’s investments “so as to minimize the
risk of large losses, unless under the circumstances it
is clearly prudent not to do so.” See ERISA
§ 404(a)(1)(C), 29 U.S.C. § 1104(a)(1)(C).
124. Despite the power and ability to do so,
Defendants took no actions to diversify the Plan’s
assets and reduce the Plan’s risky investment in
TEGNA common stock for over two years after the
spinoff, and even then, used an excessively long
process for winding down the Fund. Defendants’
failure to timely diversify the Plan’s assets caused the
Plan to suffer tens of millions of dollars in losses
during the Class Period.
125. Additionally, Defendants failed to act prudently
when they caused the Plan to continue to hold
significant amounts of TEGNA common stock and to
offer the TEGNA Stock Fund as Plan investment
options because, among other reasons:
(a) they knew or failed to understand that TEGNA
stock was not a qualifying employer security;
(b) they knew of and/or failed to investigate
TEGNA; and;

146a
(c) the risk associated with the investment in
TEGNA common stock during the Class Period was
by far above and beyond the normal, acceptable risk
for retirement plan investments.
126. Gannett breached its fiduciary duty to monitor
the Committee in that it failed to ensure that the
Committee followed its fiduciary duties concerning the
Plan’s investment in TEGNA stock. Gannett’s CFO
was told multiple times that the Committee had not
liquidated the TEGNA Stock Fund as the EMA
required by took no action. Sundaram and Potter told
Gannett’s CFO that the Plan should “Remove TEGNA
stock fund” and indicated that members of “Gannett
management,” including Gannett’s CFO and general
counsel, shared authority with the Committee to
decide whether and when the TEGNA Stock Fund
should be liquidated.
127. Pursuant to ERISA §§ 409, 502(a)(2) and (a)(3),
29 U.S.C. §§ 1109, 1132(a)(2) and (a)(3), Defendants
are liable to restore the losses to the Plan caused by
their breaches of fiduciary duties alleged in this Count
and to provide other equitable relief as appropriate.
COUNT II
Co-Fiduciary Liability
Violations of ERISA § 405 [29 U.S.C. § 1105]
128. Plaintiff incorporates by reference
allegations in the preceding paragraphs.

the

129. ERISA § 405(a), 29 U.S.C. § 1105(a), imposes
liability on a fiduciary, in addition to any liability
which he may have under any other provision, for a
breach of fiduciary responsibility of another fiduciary
with respect to the same plan if he knows of a breach
and fails to remedy it, knowingly participates in a
breach, or enables a breach. Defendants breached all
three provisions.

147a
130. ERISA § 405(a)(3), 29 U.S.C. § 1105(a)(3),
imposes co-fiduciary liability on a fiduciary for a
fiduciary breach by another fiduciary if he has
knowledge of a breach by the other fiduciary, unless he
makes reasonable efforts under the circumstances to
remedy the breach. As alleged above, each Defendant
knew of the breaches by the other fiduciaries and made
no efforts, much less reasonable effort, to remedy those
breaches.
131. The Committee was the administrator of the
Plan.
132. ERISA § 405(a)(1), 29 U.S.C. § 1105(a)(1),
imposes liability on a fiduciary for a breach of fiduciary
responsibility of another fiduciary with respect to the
same plan if he participates knowingly in, or
knowingly undertakes to conceal, an act or omission of
such other fiduciary, knowing such act or omission is
a breach. Defendants knowingly participated in each
other’s breaches because, as alleged above, they
participated in the management of the Plan’s improper
investment in TEGNA common stock and, upon
information and belief, knowingly participated in the
improper management of those investments by the
other Defendants.
133. ERISA § 405(a)(2), 29 U.S.C. § 1105(a)(2),
imposes liability on a fiduciary if, by failing to comply
with ERISA § 404(a)(1), 29 U.S.C. § 1104(a)(1), in the
administration of his specific responsibilities which
give rise to his status as a fiduciary, he has enabled
another fiduciary to commit a breach.
134. As a direct and proximate result of these
breaches of fiduciary duties, the Plan, and indirectly
Plaintiff and other participants and beneficiaries, lost
millions of dollars of retirement savings.

148a
135. Pursuant to ERISA §§ 409, 502(a)(2) and (a)(3),
29 U.S.C. §§ 1109, 1132(a)(2) and (a)(3), each of the
Defendants is liable to restore the losses to the Plan
caused by his or her breaches of the fiduciary duties
and to provide other equitable relief as appropriate.
CAUSATION
136. The Plan suffered millions of dollars in losses
because Plan assets were imprudently invested
TEGNA common stock in breach of the Defendants’
fiduciary duties.
137. Had the Defendants properly discharged their
fiduciary duties and/or their co-fiduciary duties, the
Plan and its participants would have avoided a
substantial portion of the losses suffered through the
Plan’s continued investment in TEGNA common stock.
Defendants should have liquidated (or significantly
reduced) the Plan’s holdings in TEGNA common stock
within a short period following the separation.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff prays for:
A. A Declaration that the Defendants have
breached their ERISA fiduciary duties to the
participants;
B. An Order compelling the Defendants to make
good to the Plan all losses to the Plan resulting from
their breaches of their fiduciary duties, including loss
of vested benefits to the Plan resulting from imprudent
investment of the Plan’s assets; to restore to the Plan
all profits Defendants made through use of the Plan’s
assets; and to restore to the Plan all profits which the
Plan and participants would have made if Defendants
had fulfilled their fiduciary obligations;

149a
C. An Order enjoining each of the Defendants from
any further violations of their ERISA fiduciary
obligations;
D. An Order requiring Defendants to appoint one
or more independent fiduciaries to participate in the
management of the Plan’s investments;
E. Actual damages in the amount of any losses the
Plan suffered, to be allocated among the participants’
individual accounts in proportion to the accounts’
losses;
F. An Order awarding costs pursuant to 29 U.S.C.
§ 1132(g);
G. An Order awarding attorneys’ fees pursuant to
the common fund doctrine, 29 U.S.C. § 1132(g), and
other applicable law; and
H. An Order for equitable restitution and other
appropriate equitable and injunctive relief against all
Defendants.
DATED: August xx, 2018 Respectfully Submitted,
Gregory Y. Porter (VA
Bar. No. 40408)
Mark G. Boyko
(admitted pro hac vice)
BAILEY & GLASSER LLP
1054 31st Street, NW,
Suite 230
Washington, DC 20007
(202) 463-2101
(202) 463-2103 fax
gporter@baileyglasser.com
mboyko@baileyglasser.com

150a
Robert A. Izard
(admitted pro hac vice)
Mark P. Kindall
(admitted pro hac vice)
Douglas P. Needham
(admitted pro hac vice)
IZARD, KINDALL &
RAABE, LLP
29 South Main Street,
Suite 305
West Hartford, CT 06107
(860) 493-6292
(860) 493-6290 fax
rizard@ikrlaw.com
mkindall@ikrlaw.com
dneedham@ikrlaw.com
Attorneys for Plaintiff

